<html>
<title> - H.R. 896 and H.R. 1989</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 896 and H.R. 1989
=======================================================================


                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                              June 7, 2001
                               __________

                           Serial No. 107-35
                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE
72-930                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                











                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 7, 2001.....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne, a Representative in Congress from the 
      State of Maryland..........................................     1
        Prepared statement on H.R. 896 and H.R. 1989.............     2
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................    37
        Prepared statement on H.R. 896...........................    43
    Underwood, Hon. Robert A., a Delegate to Congress from Guam..     3
        Prepared statement on H.R. 896 and H.R. 1989.............     3

Statement of Witnesses:
    Ashe, Daniel M., Chief, National Wildlife Refuge System, Fish 
      and Wildlife Service, U.S. Department of the Interior......    58
        Prepared statement on H.R. 896...........................    59
    Chasis, Sarah, Senior Attorney, Natural Resources Defense 
      Council....................................................    23
        Prepared statement on H.R. 1989..........................    25
    DeLeonard, Robert, President, New Jersey Beach Buggy 
      Association................................................    74
        Prepared statement on H.R. 896...........................    76
    Dunnigan, John H., Executive Director, Atlantic States Marine 
      Fisheries Commission.......................................    17
        Prepared statement on H.R. 1989..........................    19
    Hogarth, Dr. William T., Acting Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, U.S. 
      Department of Commerce.....................................     6
        Prepared statement on H.R. 1989..........................     9
    Kelly, Hon. John P., Director, Ocean County Board of 
      Freeholders, and Mayor of Eagleswood Township, New Jersey..    64
        Prepared statement on H.R. 896...........................    65
        Letter submitted for the record on H.R. 896..............    67
        Letter submitted for the record on the Holgate Unit of 
          Long Beach Island......................................    54
    McDowell, Robert, Director, Division of Fish and Wildlife, 
      New Jersey Department of Environmental Protection..........    61
        Prepared statement on H.R. 896...........................    62
    Savadove, Laurence, Beach Haven, New Jersey..................    70
        Prepared statement on H.R. 896...........................    72
    Short, Cathleen, Assistant Director for Fisheries and Habitat 
      Conservation, Fish and Wildlife Service, U.S. Department of 
      the Interior...............................................    13
        Prepared statement on H.R. 1989..........................    15
    West, Ambassador Mary Beth, Deputy Assistant Secretary for 
      Oceans and Fisheries, Bureau of Oceans and International 
      Environmental and Scientific Affairs, U.S. Department of 
      State......................................................     4
        Prepared statement on H.R. 1989..........................     5

Additional materials supplied:
    Koons, Joan, President, Board of Trustees, Alliance for a 
      Living Ocean, Letter submitted for the record..............    56
    Leatherman, Stephen P., Ph.D., Professor and Director, 
      Laboratory for Coastal Research, Florida International 
      University, statement on H.R. 896 submitted for the record 
      by Hon. Robert Underwood...................................    93
    Lick, Robert E., Cheyenne, Wyoming, Letter submitted for the 
      record.....................................................    85
    Mancini, James J., Ocean County Freeholder and Mayor, Long 
      Beach Township, Statement on H.R. 896 submitted for the 
      record by Hon. Jim Saxton..................................    51
    Semcer, Bart, Associate Washington Representative, The Sierra 
      Club, Statement on H.R. 896 submitted for the record by 
      Hon. Robert Underwood......................................    46
    Waltman, James R., Director, Refuges and Wildlife Program, 
      The Wilderness Society, Statement on H.R. 896 submitted for 
      the record by Hon. Robert Underwood........................    44









  LEGISLATIVE HEARING ON H.R. 1989, THE FISHERIES CONSERVATION ACT OF 
    2001, AND H.R. 896, A BILL TO ENSURE THE SAFETY OF RECREATIONAL 
    FISHERMEN AND OTHER PERSONS WHO USE MOTOR VEHICLES TO ACCESS BEACHES 
    ADJACENT TO THE BRIGANTINE WILDERNESS AREA IN THE EDWIN B. FORSYTHE 
    NATIONAL WILDLIFE REFUGE, NEW JERSEY, BY PROVIDING A NARROW TRANSITION 
    ZONE ABOVE THE MEAN HIGH TIDE WHERE MOTOR VEHICLES CAN BE SAFELY DRIVEN 
                               AND PARKED

                              ----------                              


                         Thursday, June 7, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:36 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everybody. The Subcommittee 
will come to order.
    We will first discuss H.R. 1989.
    It was a good year because I was not in Congress in that 
year.
    [Laughter.]
    I don't think Robert was here either. Jim was here though.
    Mr. Saxton. What was that?
    Mr. Gilchrest. Jim was in Congress in 1989.
    We will first discuss H.R. 1989, the Fisheries Conservation 
Act of 2001.
    This bill, which we introduced, reauthorizes the following 
statutes: the Interjurisdictional Fisheries Act of 1986, the 
Anadromous Fisheries Conservation Act of 1965, the Atlantic 
Striped Bass Conservation Act of 1984, the Atlantic Coastal 
Fisheries Cooperative Management Act, the National Oceanic and 
Atmospheric Administration Marine Fisheries Program 
Authorization Act of 1983, the Atlantic Tunas Convention Act of 
1975, the Northwest Atlantic Fisheries Convention Act of 1995, 
until September 30, 2006.
    These are important fisheries laws, and I am interested in 
hearing whether the provisions of these statutes improved for 
the future.
    The second part of today's hearing is on H.R. 896, a bill 
introduced by the former, distinguished Chairman of this 
Subcommittee, Congressman Jim Saxton.
    It is my understanding that the goal of this legislation is 
to solve a local problem that involves the U.S. Fish and 
Wildlife Service and certain New Jersey residents, who have 
recreationally fished at the Holgate Peninsula for many years.
    While I am not familiar with all the details of this 
situation, I am interested in learning what has been the impact 
of off-road vehicles on the Brigantine wilderness, what was the 
rationale of the 1990 Public Use Management Plan for the 
Holgate Unit, and what conditions have changed that have led 
the Service to conclude that Holgate should be closed to all 
motor vehicles on a year-round basis.
    It is my hope that our invited witnesses will specifically 
address these key issues.
    And I look forward to the testimony this morning for both 
parts of this hearing, how we can collaborate with the various 
agencies and departments on the Federal and state level to 
bring together sometimes diverse views together so that the 
nation's fisheries can be sustained and continue or be made to 
be in a much more healthful state.
    And my good friend, Mr. Saxton, I think has agreed to take 
the second part of the hearing. And we look forward to those 
witnesses so that we resolve an issue in Mr. Saxton's district.
    At this point, I would like to yield to the distinguished 
gentleman from Guam.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne Gilchrest, Chairman, Subcommittee on 
              Fisheries Conservation, Wildlife and Oceans

    Good morning, today the Subcommittee will hear testimony on two 
bills, H.R. 1989 and H.R. 896.
    We will first discuss H.R. 1989, the Fisheries Conservation Act of 
2001. This bill, which I introduced, reauthorizes the following 
statutes: the Interjurisdictional Fisheries Act of 1986; the Anadromous 
Fisheries Conservation Act of 1965; the Atlantic Striped Bass 
Conservation Act of 1984; the Atlantic Coastal Fisheries Cooperative 
Management Act; the National Oceanic and Atmospheric and Administration 
Marine Fisheries Program Authorization Act of 1983; the Atlantic Tunas 
Convention Act of 1975; and the Northwest Atlantic Fisheries Convention 
Act of 1995 until September 30, 2006. These are important fishery laws 
and I am interested in hearing whether the provisions of these statutes 
can be improved for the future.
    The second part of today's hearing is on H.R. 896, a bill 
introduced by the former distinguished Chairman of this Subcommittee, 
Congressman Jim Saxton. It is my understanding that the goal of this 
legislation is to solve a local problem that involves the U. S. Fish 
and Wildlife Service and certain New Jersey residents who have 
recreationally fished at the Holgate Peninsula for many years.
    While I am not familiar with all of the details of this situation, 
I am interested in learning what has been the impact of off-road 
vehicles on the Brigantine Wilderness, what was the rationale of the 
1990 Public Use Management Plan for the Holgate Unit and what 
conditions have changed that have led the Service to conclude that 
Holgate should be closed to all motor vehicles on a year-round basis. 
It is my hope that our invited witnesses will specifically address 
these key issues.
                                 ______
                                 

 STATEMENT OF THE HONORABLE ROBERT A. UNDERWOOD, A DELEGATE IN 
                       CONGRESS FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman. And thank you for 
holding this hearing today on a broad range of legislative 
issues.
    Our first panel, as you have indicated, will discuss the 
reauthorization of a number of fisheries laws that govern both 
domestic and international fisheries activities. While these 
laws are generally without controversy, recent management 
debates related to some East Coast fisheries have led at least 
one of our witnesses to question whether the current 
cooperative management efforts between the states and the 
National Marine Fisheries Service are adequate and to suggest 
that changes are needed to improve this management structure.
    I will be interested to learn whether other witnesses on 
the panel agree with these proposals and welcome what I believe 
is a necessary and healthy discussion that I hope will improve 
the overall management of our fisheries.
    I will also be interested to hear from this morning's 
second panel regarding their views about H.R. 896, legislation 
which would provide motorized access across a designated 
coastal wilderness area in the Edwin B. Forsythe National 
Wildlife Refuge in New Jersey.
    Certainly, I can appreciate the circumstances behind this 
bill and the good intentions of its sponsor, our colleague, 
Congressman Saxton.
    However, its very nature--providing motorized access in a 
designated wilderness area--contradicts the Wilderness Act and 
the law established the Brigantine Wilderness area and sets a 
precedent for the entire national wilderness preservation 
system.
    Such are the stakes. And indeed, they represent a very high 
hurdle. In this respect, I urge that the Committee proceed in a 
necessarily cautious and deliberate manner while considering 
this bill.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Underwood follows:]

  Statement of The Honorable Robert Underwood, a Delegate in Congress 
                               from Guam

    Thank you, Mr. Chairman, for holding this hearing today on a broad 
range of legislative issues. Our first panel, as you mentioned, will 
discuss the reauthorization of a number of fisheries laws that govern 
both domestic and international fisheries activities.
    While these laws are generally without controversy, recent 
management debates related to some East Coast fisheries have led at 
least one of our witnesses to question whether the current cooperative 
management efforts between the states and the National Marine Fisheries 
Service are adequate, and to suggest that changes are needed to improve 
this management structure. I will be interested to learn whether other 
witnesses on the panel agree with these proposals and welcome what I 
believe is a necessary and healthy discussion that I hope will improve 
the overall management of our fisheries.
    I also will be interested to hear from this morning's second panel 
regarding their views about H.R. 896, legislation which would provide 
motorized access across a designated coastal wilderness area in the 
Edwin B. Forsythe National Wildlife Refuge in New Jersey. Certainly, I 
can appreciate the circumstances behind this bill and the good 
intentions of its sponsor, Congressman Saxton.
    However, its very nature--providing motorized access in a 
designated wilderness area--directly contradicts the Wilderness Act and 
the law that established the Brigantine Wilderness Area and sets a 
dangerous precedent for the entire National Wilderness Preservation 
System. Such are the stakes, and indeed, they represent a very high 
hurdle. In this respect, I urge that the committee proceed in a 
necessarily cautious and deliberate manner while considering this bill.
                                 ______
                                 
    Mr. Gilchrest. The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Mr. Chairman, I have an opening statement, but 
it pertains to the second bill, and I think I will wait until 
that time to give my opening statement, if it is all right.
    Mr. Gilchrest. Thank you.
    Welcome to our hearing this morning. We look forward to an 
interesting exchange of ideas and ideals that we can all shoot 
for.
    Ambassador Mary Beth West, you may begin.

  STATEMENT OF MARY BETH WEST, DEPUTY ASSISTANT SECRETARY FOR 
     OCEANS, FISHERIES, AND SPACE, U.S. DEPARTMENT OF STATE

    Ms. West. Thank you, Mr. Chairman and members of the 
Subcommittee.
    We appreciate the opportunity to share the Department of 
State's views on the international aspects of the legislation 
being considered today.
    Two of the statutes that would be amended by the Act under 
discussion implement key international fisheries conservation 
and management agreements:
    The Atlantic Tunas Convention Act of 1975, which implements 
the International Convention for the Conservation of Atlantic 
Tunas, and the Northwest Atlantic Fisheries Convention Act of 
1995, which implements the Convention on Future Multilateral 
Cooperation in the Northwest Atlantic Fisheries.
    Almost 10 years ago in Rio, the international community 
agreed on the need to address the increasingly dire condition 
of the world's fishery resources. From that impetus came 
several new global instruments, including the U.N. Food and 
Agriculture Organization's Compliance Agreement and Code of 
Conduct, the U.N. Fish Stocks Agreement, as well as a 
recognition that existing regional fisheries organizations had 
to strengthen their mandates to conserve and rebuild dwindling 
resources.
    Several organizations took inspiration from those 
instruments to adopt creative and effective tools to address 
the problems of overfishing and illegal fishing.
    In particular, ICCAT, the International Commission for the 
Conservation of Atlantic Tunas, and NAFO, the Northwest 
Atlantic Fisheries Organization, have each set precedents among 
other organizations by incorporating the principles of the 
compliance agreement and the fish stocks agreement into rules 
governing member compliance and nonmember fishing.
    The U.S. has been a member of ICCAT since 1967 and has 
worked actively within the organization to protect U.S. access 
to the high-value stocks the commission manages and to 
encourage long-term sustainable management of those stocks.
    Under U.S. leadership, ICCAT has adopted groundbreaking 
rebuilding plans for two of the most overfished and valuable 
stocks in the Atlantic. And the commission is in the middle of 
an exercise to establish comprehensive criteria to allow access 
to allocations for all members in a transparent and fair way.
    One of the major problems faced by ICCAT is illegal 
fishing. As a result, in recent years, ICCAT adopted rules 
providing for multilateral trade measures against those, both 
member and nonmembers alike, who overfish ICCAT species.
    Continued U.S. involvement in the organization will be 
critical to ensuring its future success. And we, therefore, 
recommend the reauthorization of the Atlantic Tunas Convention 
Act to allow this.
    By contrast, the U.S. has participated in NAFO for only the 
past 5 years. However, we have also taken an active role in 
guiding this organization to adopt rules and management 
measures consistent with international law.
    Most of the stocks managed by NAFO have been under fishing 
moratoria for the past several years. And we have, therefore, 
received only limited allocations of NAFO stocks. The absence 
of extensive high seas fisheries has instead allowed NAFO to 
focus on adopting comprehensive measures to address illegal 
fishing in the convention area and to implement provisions to 
allow for greater transparency in the organization.
    These measures have set important precedents for other 
organizations and have helped to build credibility for 
conservation-based fisheries management.
    We are pleased, too, that in recent years the U.S. has 
received new allocations of NAFO-managed stocks. And we hope to 
work within the organization to build sufficient quota rights 
so that fishing these stocks will become economically feasible.
    Much remains to be done to restore the fish stocks in the 
Northwest Atlantic. In the meantime, the U.S. has an important 
role to play. Therefore, we also support reauthorization of the 
Northwest Atlantic Fisheries Convention Act of 1995.
    Mr. Chairman, reauthorization of both of these acts will 
enhance the role of the United States as an important voice for 
conservation and cooperative management of key Atlantic fish 
stocks.
    Thank you very much. And I would be happy to take questions 
that the Committee may have.
    [The prepared statement of Ms. West follows:]

Statement of Ambassador Mary Beth West, Deputy Assistant Secretary for 
Oceans and Fisheries, Bureau of Oceans and International Environmental 
            and Scientific Affairs, U.S. Department of State

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to share the Department of State's 
views on the international aspects of the legislation being considered 
today. Two of the statutes that would be amended by the Act under 
discussion implement key international fisheries conservation and 
management agreements: the Atlantic Tunas Convention Act of 1975, which 
implements the International Convention for the Conservation of 
Atlantic Tunas, and the Northwest Atlantic Fisheries Convention Act of 
1995, which implements the Convention on Future Multilateral 
Cooperation in the Northwest Atlantic Fisheries.
    Almost ten years ago in Rio, the international community agreed on 
the need to address the increasingly dire condition of the world's 
fishery resources. From that impetus came several new global 
instruments, including the UN Food and Agriculture Organization's 
Compliance Agreement and Code of Conduct, and the UN Fish Stocks 
Agreement, as well as a recognition that existing regional fisheries 
organizations had to strengthen their mandates to conserve and rebuild 
dwindling resources. Several organizations took inspiration from those 
instruments to adopt creative and effective tools to address the 
problems of overfishing and illegal fishing. In particular, ICCAT (the 
International Commission for the Conservation of Atlantic Tunas) and 
NAFO (the Northwest Atlantic Fisheries Organization) have each set 
precedents among other organizations by incorporating the principles of 
the Compliance Agreement and Fish Stocks Agreement into rules governing 
member compliance and non-member fishing.
    The United States has been a member of ICCAT since 1967, and has 
worked actively within the organization to protect U.S. access to the 
high-value stocks the commission manages, and to encourage long-term 
sustainable management of the stocks managed by ICCAT. Under U.S. 
leadership, ICCAT has adopted ground-breaking rebuilding plans for two 
of the most overfished (and valuable) stocks in the Atlantic. And the 
Commission is in the middle of an exercise to establish comprehensive 
criteria to allow access to allocations for all members in a 
transparent and fair way. One of the major problems being faced by 
ICCAT is illegal fishing. As a result, in recent years ICCAT adopted 
measures providing for multilateral trade measures against those--both 
member and non-member alike--who overfish ICCAT species. Continued U.S. 
involvement in the organization will be critical to ensuring its future 
success, and we therefore recommend the reauthorization of the Atlantic 
Tunas Convention Act to allow this.
    By contrast, the United States has participated in NAFO for only 
the past five years. However, we have also taken an active role in 
guiding this organization to adopt rules and management measures 
consistent with international law. Most of the stocks managed by NAFO 
have been under fishing moratoria for the past several years, and we 
have therefore received only limited allocations of NAFO stocks. The 
absence of extensive high-seas fisheries has instead allowed NAFO to 
focus on adopting comprehensive measures to address illegal fishing in 
the Convention Area, and to implement provisions to allow for greater 
transparency in the organization. These measures have set important 
precedents for other organizations and have helped to build credibility 
for conservation-based fisheries management. We are pleased, too, that 
in recent years the United States has received new allocations of NAFO-
managed stocks and hope to work within the organization to build 
sufficient quota rights so that fishing these stocks will become 
economically feasible. Much remains to be done to restore the fish 
stocks in the Northwest Atlantic; in the meantime, we have an important 
role to play. Therefore, we also support reauthorization of the 
Northwest Atlantic Fisheries Convention Act of 1995.
    Mr. Chairman, reauthorization of both of these Acts will enhance 
the role of the United States as an important voice for conservation 
and cooperative management of key Atlantic fish stocks.
    Thank you very much. I would be happy to take any questions that 
you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Ambassador West.
    Dr. Hogarth?

 STATEMENT OF WILLIAM HOGARTH, ACTING ASSISTANT ADMINISTRATOR 
FOR FISHERIES, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
                  U.S. DEPARTMENT OF COMMERCE

    Dr. Hogarth. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to be here today to 
talk about the reauthorization of several statutes important to 
the work of NOAA Fisheries.
    The Anadromous Fish Conservation Act of 1965 authorizes 
Commerce and Interior to enter into cooperative agreements with 
states and other nonFederal interests for the conservation, 
development, and enhancement of anadromous fishery resources of 
the nation, including those in the Great Lakes.
    The amount of funds that may be used to finance projects 
varies. For most projects, Federal funds account for 50 percent 
of the costs. But in some cases, a higher percentage of Federal 
funding is allowed.
    State fishery agencies, colleges, universities, private 
entities, and other nonFederal interests in 31 states bordering 
the oceans or the Great Lakes may participate in this Act. 
Funding made available to the recipients in recent years has 
been about $2 million a year, with the most recent 
authorization being $4.25 million for the fiscal years 1998, 
1999, and 2000.
    We see numerous benefits resulting from the reauthorization 
of this Act. Since the mid-1960's, the Act has served as a 
traditional base source of funding, providing the necessary 
resources for the states to conserve and manage anadromous 
fishery resources such as sturgeons, river herring, and striped 
bass.
    Information collected on anadromous fish under this program 
is used to support management decisions at the state and 
interstate levels and those required under Federal statutes.
    The Interjurisdictional Fishery Act of 1986 is a formula-
based financial assistance program with two overall purposes. 
The first purpose is to promote and encourage state activities 
in support of the management of interjurisdictional fishery 
resources, and, two, to promote the management of 
interjurisdictional fishery resources throughout their range.
    Any state, either directly or through and interstate marine 
fisheries commission, can submit a research proposal that 
supports management of fishery resources that, one, occur in 
waters under the jurisdiction of one or more states and the 
EEZ, the Exclusive Economic Zone; two, are managed under 
interstate fishery management plans; or, three, migrate between 
the waters under the jurisdiction of two or more states 
bordering on the Great Lakes.
    The Federal share of the projects is usually 75 percent. 
Section 308(a) makes funds available to states to support 
interjurisdictional fishery management, and the most recent 
authorization has been about $4.4 million per year.
    Section 308(c) provides support for the development of 
fishery management plans by interstate marine fishery 
commissions, and has been funded at its full authorization of 
$750,000 in recent years.
    Section 308(b) and 308(d) support disaster provisions and, 
since 1986, have provided over $100 million in response to 
disasters, such as the New England groundfish collapse, the 
Gulf of Mexico commercial gear loss, and Pacific salmon 
decline.
    Since 1986, the Act has served as a base source of funding 
for many marine fishery data collection programs. The 
information collected under this Act provides for state and 
Federal agency cooperative efforts to manage and protect many 
important species, such as American lobsters, sea herring, 
Alaska sablefish, and southern shrimp.
    We recommend reauthorization and continued congressional 
support for this Act. The Atlantic Striped Bass Conservation 
Act, I think it goes without saying this, has been probably one 
of the greatest successes we have had. I think when other 
people look at fishery management and recovery, they look at 
striped bass.
    This Act is highly effective in addressing Atlantic coast 
striped bass management. It provides a mechanism that encourage 
state compliance with interstate fishery management plans for 
striped bass and allows for implementation of complementary 
Federal regulations for striped bass in the Exclusive Economic 
Zone.
    Congress has recently reauthorized the Striped Bass Act 
through Fiscal Year 2003 for $1 million each year to the 
Secretary of Commerce and $250,000 each year to the Secretary 
of the Interior. However, no funds have been appropriated under 
the Act.
    Activities carried out to implement the striped bass 
mandate have been funded through other Federal and state 
programs. We recommend maintaining the authorization.
    The Atlantic Coastal Fisheries Cooperative Management Act, 
like the Striped Bass Conservation Act, has proven to be highly 
effective. It provides the mechanism that encourages 
implementation, again, of interstate fishery management plans; 
allows implementation of complementary Federal regulation in 
EEZ; and, unlike the Striped Bass Act, it is an important 
funding source that supports state and Federal activities to 
develop and implement the interstate fishery management plan.
    Joint commission-council FMPs have been implemented for a 
number of species. While we support these commission-council 
FMPs, there has been a difficulty in some cases to implement 
joint fishery management plan activities with the commission's 
requirements while the commission requirements are less 
stringent than those required by the Federal plans.
    The council is required to abide by the Magnuson-Stevens 
Act in the national standards and other provisions. The 
Atlantic Coastal Act does not require the same type of 
standards.
    The most recent difficulty highlighted has been the 2001 
summer flounder quota. However, we are working now through a 
joint effort with all parties to see if we can work out our 
difficulties by sitting around the table. And, hopefully, we 
can work out these problems.
    Congress has recently authorized the Act, in December 2000 
through Fiscal Year 2005, for $10 million each year to the 
Secretary of Commerce. Congress appropriated $7 million for the 
Fiscal Year 2001.
    The Northwest Atlantic Fisheries Convention Act of 1995 
implements the convention for the future multilateral 
cooperation in the Northwest Atlantic Fisheries, which 
established the Northwest Atlantic Fisheries Organization, 
NAFO.
    And I think Ambassador West covered this very clearly and 
concisely, and I will not spend any more time on this issue.
    The National Oceanic and Atmospheric Administration Marine 
Fishery Program Authorization Act of 1983: This is an Act that 
authorizes a number of NOAA's marine fishery programs 
established under the Fish and Wildlife Act of 1956 and laws 
implementing international fishery agreements.
    The appropriation authorized by this Act are in addition to 
those in the Magnuson-Stevens Act, the Endangered Species Act, 
the Marine Mammal Protection Act, and the Interjurisdictional 
Fishery Act, and the National Fishery Conservation Act.
    Specifically, this Act authorized appropriations for 
specific subactivities within the current NMFS appropriations 
budget structure. These activities are for fishery information 
collection and analysis, fishery conservation and management, 
and state and industry cooperative programs.
    For example, the fisheries information collection and 
analysis of activity includes funding for the collection, 
analysis and dissemination of scientific information necessary 
for the management of living resources and associated marine 
habitat.
    This Act also includes the appropriations for the NOAA 
Chesapeake Bay office.
    The Atlantic Tunas Convention Act of 1975 again is an Act 
that I think Ambassador West covered very concisely. And the 
funds appropriated under this Act are used to support the 
advisory Committee, the regulatory activities of NMFS's highly 
migratory species management division, permitting and reporting 
activities of the Northeast and Southeast regional office, and 
research activities conducted by the science centers.
    Mr. Chairman, we thank you for this opportunity to review 
the reauthorization of several statutes that are important both 
to the states and NOAA Fisheries. We are committed to working 
with our state and Federal partners for effective management of 
nation's fishery resources.
    This concludes my testimony, and I am prepared to respond 
to any questions you may have.
    [The prepared statement of Dr. Hogarth follows:]

Statement of William T. Hogarth, Ph.D., Acting Assistant Administrator 
 for Fisheries, National Marine Fisheries Service, U.S. Department of 
                                Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to this hearing on the reauthorization of the 
Interjurisdictional Fisheries Act of 1986, the Anadromous Fisheries 
Conservation Act of 1965, the Atlantic Striped Bass Conservation Act of 
1984, the National Oceanic and Atmospheric Administration Marine 
Fisheries Program Authorization Act of 1983, the Atlantic Tunas 
Convention Act of 1975, and the Northwest Atlantic Fisheries Convention 
Act of 1995, all addressed in the Fisheries Conservation Act of 2001. I 
am William T. Hogarth, the Acting Administrator for Fisheries in the 
National Oceanic and Atmospheric Administration/Department of Commerce.
Anadromous Fish Conservation Act of 1965
    The Anadromous Fish Conservation Act of 1965 authorizes the 
Secretary of Commerce and the Secretary of the Interior to enter into 
cooperative agreements with states and other non-Federal interests for 
the conservation, development, and enhancement of the anadromous 
fisheries resources of the nation, including those in the Great Lakes 
and Lake Champlain. Since the mid- 1960s, the Anadromous Fish 
Conservation Act (AFCA) has served as the traditional base source of 
funding for the states, providing the necessary resources to conserve 
and manage anadromous fisheries resources like salmon, striped bass, 
and river herring. These fisheries resources, with their complicated 
life histories, require special attention because of the many ocean and 
inland challenges to their survival. Full recovery of these resources 
will provide enormous economic and social benefits to the American 
public. Also, the AFCA provides funding for collecting information on 
several Great Lakes fish species and for other important species such 
as sturgeons and shads. Information collected by these anadromous fish 
programs is used to support management decisions at the state, 
interstate, and Federal levels required under the Atlantic Coastal 
Fisheries Cooperative Management Act, the Endangered Species Act, and 
the Magnuson-Stevens Fishery Conservation and Management Act. The data 
collected provide vital links among state and Federal agency 
cooperative efforts to manage and protect important anadromous fishes. 
Without the AFCA, many of these economically and ecologically valuable 
resources (e.g., paddlefish, sturgeons, salmonids) are likely to become 
or remain endangered, threatened, or depleted, further depriving 
Americans of food and recreational fishing opportunities, and causing a 
multitude of economic and social impacts associated with mandated 
recovery programs.
    Historically, the program was administered at the Federal level by 
both the National Marine Fisheries Service (NMFS) and the U.S. Fish and 
Wildlife Service. However, for the past 8 years, Congress has provided 
funding only to NMFS. The amount of funds that may be used to finance 
projects varies. For most projects, Federal funds account for 50 
percent of the cost, but Federal funds can support up to 66.66 percent 
of the cost when two or more states cooperate. Up to 90 percent Federal 
funding can be made available only if a state has implemented an 
interstate fisheries management plan for an anadromous species to which 
the project applies. State fisheries agencies, colleges, universities, 
private companies, and other non-Federal interests in 31 states 
bordering the oceans or the Great Lakes may participate under this Act. 
All projects must be coordinated with, and cleared through, the state 
fisheries management agency of the state in which the project takes 
place. The total amount of funds obligated in any fiscal year to any 
one State may not exceed $650,000. Funding made available to recipients 
in recent years has been about $2.0 million a year. The most recent 
reauthorization for this Act was in October, 1996, through Public Law 
104-297, which reauthorized the program at an annual level of $4 
million for Fiscal Year 1997, and $4.25 million for each of the fiscal 
years 1998, 1999, and 2000. We find the current funding level 
appropriate.
    We recommend reauthorization and continued Congressional support 
for the AFCA. We see the anadromous fisheries projects, funded under 
the AFCA, as valuable assets that help the Federal Government and state 
fisheries agencies work closely together to protect and restore our 
nation's anadromous fisheries resources.
Interjurisdictional Fisheries Act of 1986
    The Interjurisdictional Fisheries Act of 1986 (IFA) is a formula-
based financial assistance program with two overall purposes: (1) to 
promote and encourage state activities in support of the management of 
interjurisdictional fisheries resources and (2) to promote the 
management of interjurisdictional fisheries resources throughout their 
range. Any state may, either directly or through an interstate marine 
fisheries commission, submit a research proposal that supports 
management of fishery resources that: (1) occur in waters under the 
jurisdiction of one or more states and in the Exclusive Economic Zone; 
(2) are managed under an interstate fishery management plan; or (3) 
migrate between the waters under the jurisdiction of two or more states 
bordering on the Great Lakes.
    Since 1986, the IFA has been the traditional base source of funding 
for many marine fisheries data collection programs. Funds provided 
under the IFA are spent to obtain catch and effort statistics and other 
fisheries information important for managing marine interjurisdictional 
species. This information is used to support management decisions both 
at the state level and those required under the Atlantic Coastal 
Fisheries Cooperative Management Act and the Magnuson-Stevens Fishery 
Conservation and Management Act. Like the Anadromous Fish Conservation 
Act, the information collected under the IFA provides vital links among 
state and Federal agency cooperative efforts to manage and protect many 
important marine migratory species. IFA helps states provide the 
research, data collection, and fisheries management infrastructure to 
properly manage interjurisdictional marine resources. Without the IFA, 
the information necessary for the proper management of many of these 
economically and ecologically valuable resources (e.g., American 
lobsters, sea herring, Alaska sablefish)would be lacking.
    Pursuant to the law, funds that support interstate fishery 
management programs are made available to the states under section 
308(a) based on a complex apportionment formula that utilizes the 
volume and value of fish landed in each state by domestic commercial 
fishermen. Federal share of project costs may amount to as much as 75 
percent, or 90 percent when states have adopted fishing regulations 
that are consistent with an interstate or Federal fishery management 
plan for the species to which the study applies. Enforcement projects 
funded through this section must pertain to the protection of fishery 
resources that are managed under an interstate fishery management plan 
and may be 100% financed by Federal funds up to $25,000. Funds made 
available to states under section 308(a) have been about $3.2 million 
in recent years. The most recent reauthorization for section 308(a) 
authorized $3.4 million for Fiscal Year 1996, $3.9 million for Fiscal 
Year 1997, and $4.4 million for each of fiscal years 1998 through 2000.
    Sections 308(b) and 308(d) provide for assistance to address 
fishery resource disasters. Section 308(b) authorizes the Secretary to 
provide grants or cooperative agreements to states determined to have 
been affected by a commercial fishery failure or serious disruption 
affecting future production due to a fishery resource disaster from 
natural or undetermined causes. The Federal share of the cost of 
assistance is limited to 75 percent.
    Pursuant to section 308(b), the Secretary declared a failure of the 
Northeast multispecies groundfish fishery in Fiscal Year 1994. In 
Fiscal Year 2000, a disaster determination was made for Alaskan salmon 
fisheries under both IFA section 308(b) and section 312(a) of the 
Magnuson-Stevens Fishery Conservation and Management Act. The 
declaration under IFA section 308(b) was needed to make Small Business 
Administration loans available to eligible businesses in the area.
    Section 308(d) allows the Secretary to provide assistance to 
commercial fishermen, either directly or indirectly through state or 
local government agencies and nonprofit organizations, to alleviate 
harm caused by a fishery resource disaster from hurricanes or any other 
natural disasters. Cost sharing is not required, but assistance 
programs require notice in the Federal Register and the opportunity for 
public comment.
    In 1994 a fisheries disaster was declared under section 308(d) for 
the Pacific salmon decline in the Pacific Northwest. Declarations in 
1995 included the Northeast multispecies groundfish collapse, the Gulf 
of Mexico commercial gear loss, and continuation of the Pacific salmon 
disaster. An appropriation of $65 million was made available to these 
three regions. In Fiscal Year 1999, an additional $1 million was 
appropriated under section 308(d) to continue support for the 
fishermen's health care program that was part of the original 
assistance package for the Northeast multispecies groundfish collapse.
    Section 308(c), which provides support for the development of 
fishery management plans by interstate marine fisheries commissions, 
has been funded at $750,000 in recent years. The most recent 
reauthorization of section 308(c) authorized funding of $700,000 for 
Fiscal Year 1997, and $750,000 annually for fiscal years 1998 through 
2000. We find the current funding levels appropriate.
    We recommend reauthorization and continued congressional support 
for the IFA. We see the projects funded under the IFA as valuable 
assets that help the Federal Government and state fisheries agencies 
work closely together to protect and restore our nation's marine 
interjurisdictional fisheries resources.
Atlantic Striped Bass Conservation Act of 1984
    The Atlantic Striped Bass Conservation Act (Striped Bass Act) has 
proven to be a highly effective statute addressing Atlantic coast 
striped bass management problems. It provides a forcing mechanism that 
encourages compliance with the successful Atlantic States Marine 
Fisheries Commission Interstate Fisheries Management Plan for Striped 
Bass and allows implementation of complementary Federal regulations for 
striped bass in the Exclusive Economic Zone. Congress recently 
reauthorized the Striped Bass Act, (in December 2000) through Fiscal 
Year 2003 for $1,000,000 for each year to the Secretary of Commerce, 
and $250,000 for each year to the Secretary of the Interior. No funds 
have ever been appropriated under the Act. Activities carried out to 
implement the Striped Bass Act's mandates have been funded through 
other Federal and state programs. No further authorization of funding 
is needed at this time.
    The Striped Bass Act also requires the Secretaries of Commerce 
(DOC) and the Interior to work in consultation with the Atlantic States 
Marine Fisheries Commission (Commission) to conduct a study on the 
Atlantic striped bass population (population study). The results of 
this study are to be reported to Congress within 180 days of enactment 
of the last reauthorization. While the DOC fully supports continuation 
of striped bass stock assessments, it notes that the new study required 
is a subset of ongoing research conducted by DOC researchers in 
cooperation with the Department of the Interior and the Commission, and 
that the information required in the population study is already 
reported to Congress, on a biennial basis, as required by the 1996 
reauthorization of this Act. Results of other peer-reviewed research 
funded under this Act are also reported in the biennial reports. DOC 
has already provided informal draft findings of the population study to 
Congressional staff, and believes that the requirement of the 
additional report is redundant.
Atlantic Coastal Fisheries Cooperative Management Act
    Like the Atlantic Striped Bass Conservation Act, (Striped Bass Act) 
the Atlantic Coastal Fisheries Cooperative Management Act (Atlantic 
Coastal Act) has proven to be a highly effective statute in addressing 
Atlantic coast fisheries management problems. It provides a forcing 
mechanism that encourages implementation of Atlantic States Marine 
Fisheries Commission (Commission) interstate fisheries management plans 
(ISFMPs), allows implementation of complementary Federal regulations to 
ISFMPs in the Exclusive Economic Zone (EEZ), and is an important 
funding source that supports state and Federal activities required for 
the development and implementation of the ISFMPs. Currently, 19 ISFMPs 
covering 24 Atlantic coastal species have been implemented. For those 
species that are found primarily in state waters, regulations in 
Federal waters may be implemented by a regional fishery management 
council, or by Federal regulation. Joint Commission/Council FMPs have 
been implemented for: sea herring; northern shrimp; winter flounder; 
summer flounder/scup/black sea bass; bluefish; Spanish mackerel; and 
red drum. The Secretary has implemented complementary EEZ regulations 
for American lobster, Atlantic sturgeon, weakfish, and horseshoe crab.
    While we support joint Commission/Council FMPs, it has been 
difficult in some cases to implement joint fisheries management actions 
when the Commission's management plan's requirements are less stringent 
than those required for Federal plans. This has most recently been 
highlighted by the difficulty in determining the 2001 summer flounder 
quota. We would recommend having some mechanism to more closely align 
the standards of the Commission's fishery management plans with the 
national standards required for Council fishery management plans under 
the Magnuson-Stevens Act and complementary Secretarial EEZ regulations.
    Congress recently reauthorized the Atlantic Coastal Act, (in 
December 2000) through Fiscal Year 2005 for $10,000,000 each year to 
the Secretary of Commerce. Recent appropriations have been $6,000,000 
for Fiscal Year 2000 and $7,000,000 for Fiscal Year 2001. We find the 
current funding levels appropriate.
Northwest Atlantic Fisheries Convention Act of 1995
    The Northwest Atlantic Fisheries Convention Act implements the 
Convention for the Future Multilateral Cooperation in the Northwest 
Atlantic Fisheries, which established the Northwest Atlantic Fisheries 
Organization (NAFO). The United States has attended five meetings of 
NAFO as a member, and hosted the most recent annual meeting of the 
organization in Boston, Massachusetts. Through our participation in 
NAFO, we are making important strides in securing fishing opportunities 
for U.S. fishermen and carrying forward the principles of U.S. 
fisheries management.
    At its first meeting as a member in 1996, the United States 
requested and obtained modest allocations from some of the few fish 
stocks managed by NAFO that can sustain fishing. These initial gains 
included small allocations of redfish, squid, and an effort allocation 
for shrimp. Since this time the United States has received an 
additional small allocation of shrimp (expressed in metric tonnage).
    Due to the economic and physical risks associated with fishing 
operations in the NAFO Regulatory Area, the United States has thus far 
been unable to harvest its NAFO allocations. However, in 2000, the 
United States engaged in a successful chartering operation using an 
Estonian vessel to fish for NAFO Division 3M shrimp. This operation 
provided a number of benefits to the United States, including: economic 
benefits to the U.S. fishing interest involved; harvesting, market, and 
processing information that may be of benefit in the future to U.S. 
harvesters; and the beginnings of a fishing history that may be of 
benefit in future allocation discussions.
    Although our current allocations from NAFO remain small, the United 
States continues to strive for more equitable sharing of fishing 
opportunities for the future. In order to achieve this, we have 
initiated and taken a leadership role in discussions designed to create 
a predictable, transparent process that recognizes the conservation and 
management contributions of coastal states to straddling fish stocks, 
builds upon historical fishing patterns, is fair and equitable, and 
enhances the conservation and management of NAFO-managed stocks. Thus, 
as a coastal state and as a member of the organization, we anticipate 
an increased share of fishing opportunities once stocks rebuild to 
levels that can support fishing operations.
    Additionally, the United States has taken a strong leadership role 
in seeking more effective conservation and management of fisheries 
resources under NAFO jurisdiction. The United States will assume 
chairmanship of the Fisheries Commission later this year. We have also 
provided leadership in the NAFO Scientific Council and have 
consistently supported the management recommendations of the Council. 
Additionally, we have assumed leadership roles in a number of Standing 
Committees, including chairmanship of the standing committee that 
designed the current NAFO scheme for addressing the fishing activities 
of non-members. The United States has also pressed for timely stock 
assessments and gathering of data relating to both regulated and 
unregulated species occurring in the NAFO Regulatory Area, and actively 
participated in discussions on bycatch, vessel monitoring, and 
enforcement. Effective NAFO conservation and management is particularly 
important to the United States, given that NAFO has competence to 
manage the high seas portions of important domestic fish stocks that 
straddle the U.S. EEZ.
    Furthermore, it should be noted that NAFO provides an excellent 
opportunity for the United States to pursue real-world implementation 
of recent international fisheries management agreements, particularly 
the United Nations Agreement on Straddling and Highly Migratory Fish 
Stocks. The United States has pressed (with some success) for adoption 
of key elements of the UN Agreement, such as: implementation of the 
precautionary approach; science-based management; strong monitoring and 
enforcement; effective dispute settlement; and greater transparency in 
the decision-making processes of the organization. It is our hope that 
continued progress on these fronts will help to make NAFO an effective 
model for regional fisheries management bodies worldwide.
National Oceanic and Atmospheric Administration Marine Fisheries 
        Program Authorization Act of 1983
    The NOAA Marine Fisheries Program Authorization Act (NMFPAA) was 
last reauthorized in 1996 for Fiscal Year 1996 through Fiscal Year 2000 
as part of the Sustainable Fisheries Act (P.L. 104-297). The NMFPAA 
authorizes a number of NOAA's marine fisheries programs under the Fish 
and Wildlife Act of 1956 and laws implementing international fishery 
agreements. Specifically, the NMFPAA authorizes appropriations for 
specific subactivity line items within the current NMFS appropriations 
budget structure. The fisheries information collection and analysis 
subactivity includes funding for the collection, analysis, and 
dissemination of scientific information necessary for the management of 
living marine resources and associated marine habitats. The fisheries 
conservation and management subactivity includes funding for the 
development, implementation, and enforcement of conservation and 
management measures to promote the continued use of living marine 
resources, hatchery operations, habitat conservation, and protected 
species management. Finally, the state and industry cooperative 
programs subactivity includes funding to ensure the quality and safety 
of seafood products and to provide grants to states for improving the 
management of fisheries. The NMFPAA also includes an authorization for 
appropriations for the NOAA Chesapeake Bay Office.
    The Administration recommends that the NMFPAA be reauthorized 
consistent with the President's Fiscal Year 2002 budget request of 
$207.7 million for these three subactivities and $3.4 million for the 
Chesapeake Bay Office, and such sums as required by the President's 
future requests. The appropriations authorized by the NMFPAA are in 
addition to those of the Magnuson-Stevens Act, Endangered Species Act, 
Marine Mammal Protection Act, Interjurisdictional Fisheries Act, and 
Anadromous Fish Conservation Act.
Atlantic Tunas Convention Act of 1975
    The Atlantic Tunas Convention Act (ATCA) governs U.S. participation 
on the International Commission for the Conservation of Atlantic Tunas 
(ICCAT) and stipulates how the Secretary of Commerce shall administer 
the conservation and management programs of ICCAT through research 
programs and domestic fishery regulations. Funds appropriated for 
implementation of ATCA are used in part to support the Advisory 
Committee, the regulatory activities of NMFS'' Highly Migratory Species 
Management Division, permitting and reporting activities of the 
Northeast and Southeast Regional Offices, and research activities 
conducted in the Southeast and Northeast Science Centers and several 
external laboratories and academic institutions.
    Mr. Chairman, this concludes my testimony. I am pleased to respond 
to any questions at this time.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    Ms. Short?

STATEMENT OF CATHY SHORT, ASSISTANT DIRECTOR FOR FISHERIES AND 
      HABITAT CONSERVATION, U.S. FISH AND WILDLIFE SERVICE

    Ms. Short. Mr. Chairman, members of the Subcommittee, I 
appreciate this opportunity to appear before you today to 
present the testimony of the Department of Interior regarding 
H.R. 1989, Fisheries Conservation Act of 2001.
    My name is Cathy Short, and I am the assistant direction 
for fishery and habitat conservation with the U.S. Fish and 
Wildlife Service. I will provide the Department's view on the 
legislation before the Subcommittee.
    The Department supports reauthorizing the Atlantic Striped 
Bass Conservation Act, the Anadromous Fish Conservation Act, 
the Atlantic Coastal Fisheries Cooperative Management Act, and 
continuing that authorization for appropriations through Fiscal 
Year 2006.
    We consider these Acts important assets in our efforts to 
conserve and restore the nation's anadromous fisheries 
resources. I will comment on these three provisions of 1989 
specifically, and defer to my colleagues from the Department of 
Commerce and the Department of State for comments on the other 
provisions contained in the bill.
    Mr. Chairman, the Atlantic Striped Bass Conservation Act is 
one of our keystone authorities, which continues to be 
supported by the states and the marine fishery commissions for 
the benefits to both recreational and commercial fishing.
    The goals of the Striped Bass Act have been largely 
realized. The Striped Bass Act is consistently perceived by the 
public as the model for the successful interjurisdictional 
fishery restoration efforts. It has empowered state and Federal 
agencies to take the necessary steps to restore and effectively 
manage striped bass populations.
    Effectiveness and value of the Striped Bass Act is evident 
in that Atlantic States Marine Fishery Commission has declared 
the Chesapeake Bay population of striped bass to be restored. 
And the Act sanctions have only been implemented once.
    Under the authority of the Striped Bass Act, the Service 
maintains a coastwide migratory striped bass tagging database. 
We implement the only annual Federal tagging program for 
striped bass. This program tags bass from the Hudson River, 
Chesapeake Bay, and the Albemarle-Roanoake River stocks on 
their wintering grounds in the Atlantic Ocean off North 
Carolina and Virginia.
    The Striped Bass Act authorized a maximum amount of 
$250,000 for the Fish and Wildlife Service. While the Service 
does not specifically identify funding authorized by the 
Striped Bass Act in the President's budget, the fisheries 
program does utilize general program funds to restore and 
manage striped bass.
    In Fiscal Year 2000, the Service reported accomplishing 23 
anadromous striped bass projects in seven states along the 
Atlantic coast, under additional authorities, including the 
Fish and Wildlife Act of 1956, the Fish and Wildlife 
Coordination Act, and the Atlantic Coastal Fisheries 
Cooperative Management Act.
    Much of this work, which costs a total of almost $950,000, 
was used to further the goals of the Striped Bass Act. Three of 
these projects focused on habitat restoration at a cost of over 
$40,000. We feel that this habitat work is an extremely 
important activity that will help maintain recovered Atlantic 
striped bass populations as well as helping to restore the 
remaining populations.
    The Anadromous Fish Conservation Act provides authority for 
the Secretaries of Commerce and Interior to enter to 
cooperative agreements with states and other nonFederal 
interests for the conservation, development, and enhancement of 
the anadromous fish. The Act allows the Service to promote 
effective partnerships and restoration efforts to reverse the 
decline of anadromous fishery resources.
    State fishery agencies, colleges, universities, private 
companies, and other nonFederal interests in 31 states 
bordering the ocean or the Great Lakes may participate in these 
partnerships.
    Enactment of the Anadromous Fish Conservation Act in 1965 
teamed the Service with the states and with others to rebuild 
the nation's anadromous fish resources, which were then at 
extremely low levels.
    Historically, river development activities, such as power, 
irrigation, and flood control, did not account for the 
migratory needs of our anadromous fish. Under the Act, the 
Service has funded projects that generally provide benefits to 
anadromous fish resources in inland situations, while the 
National Marine Fisheries Service has funded projects that 
benefit anadromous fish generally in coastal and oceanic areas. 
However, our two agencies coordinate efforts to maximize the 
potential benefits.
    The Service remains a committed partner to states, tribes, 
and the fishery commissions. We continue to use this authority 
conduct projects to restore anadromous fish in cooperation with 
states, tribes, and other Federal agencies, although we have 
not requested appropriations specific for the grants to the 
state program.
    I will now briefly discuss the Atlantic Coastal Fisheries 
Cooperative Management Act. This statute was modeled after the 
Striped Bass Act, but the Service does not have the same 
authority to determine state noncompliance. This authority 
resides solely with the Secretary of Commerce.
    The Atlantic Coastal Act authorizes the Service to work 
with the National Marine Fisheries Service to support 
interstate fishery management efforts of the commission and 
states. This includes collection, management and analysis of 
fishery data, law enforcement, habitat conservation, fishery 
research, and fishery management planning.
    Fish and Wildlife Service participates on 17 of the 20 
fishery management boards established by the Atlantic States 
Marine Fishery Commission, implements species management plans 
where they are enhancing the goals and the intent of the 
Atlantic Coastal Act.
    The Service is authorized to provide funds to the 
commission and states. And like the Striped Bass Act, the 
Service does not have a specific authorization level.
    Mr. Chairman, this concludes my prepared testimony. I would 
like to extend the Service's and the Department's appreciation 
to you and the rest of the Subcommittee for your leadership and 
interest in fisheries management, conservation, and restoration 
of coastal fisheries. And I would be happy to respond to any 
questions you may have.
    [The prepared statement of Ms. Short follows:]

   Statement of Cathleen Short, Assistant Director for Fisheries and 
Habitat Conservation, Fish and Wildlife Service, U.S. Department of the 
                                Interior

    Mr. Chairman, members of the subcommittee, I appreciate this 
opportunity to appear before you today to present testimony for the 
Department of the Interior (Department) regarding H.R. 1989, the 
Fisheries Conservation Act of 2001. I will provide the Department's 
view on the Atlantic Striped Bass Conservation Act of 1984 first, 
followed by comments on the Anadromous Fish Conservation Act of 1965 
and the Atlantic Coastal Fisheries Cooperative Management Act. I will 
defer to my colleagues from the Department of Commerce and State 
Department for any comments on the other Acts contained in the 
Fisheries Conservation Act.
    The Department supports reauthorizing the Atlantic Striped Bass 
Conservation Act, the Anadromous Fish Conservation Act, and the 
Atlantic Coastal Fisheries Cooperative Management Act and continuing 
the authorization for appropriations through Fiscal Year 2006. The 
Department considers these Acts important assets in our efforts to 
conserve and restore the Nation's anadromous fishery resources.
Atlantic Striped Bass Conservation Act of 1984
    Mr. Chairman, the Atlantic Striped Bass Conservation Act (Striped 
Bass Act) is one of our ``keystone'' authorities which continues to be 
supported by the States and the Commissions for the benefits to both 
recreational and commercial fishing. The goals of the Striped Bass Act 
have been largely, although not entirely, realized. The Atlantic States 
Marine Fisheries Commission (Commission) considers Atlantic coastal 
migratory stocks of striped bass (i.e. the Chesapeake Bay population) 
to be restored. The Striped Bass Act contributed significantly to 
halting the decline of these stocks and enhancing the cooperative 
efforts that led to their restoration. The Striped Bass Act is 
consistently perceived by the public as the model for successful 
interjurisdictional fishery restoration efforts. It has empowered State 
and Federal agencies to take necessary steps to restore and effectively 
manage striped bass populations. The effectiveness and value of the 
Striped Bass Act is evident in that its sanctions have only been 
implemented once.
    Much of the Striped Bass Act's success can be attributed to its 
requirement that management jurisdictions fully implement the Striped 
Bass Fishery Management Plan (FMP) or face a Federal moratorium, 
jointly imposed by the Secretaries of the Interior and Commerce, on 
striped bass fishing in State waters. The coordinated efforts of the 
States, the Commission, the U.S. Fish and Wildlife Service (Service), 
and the National Marine Fisheries Service (NMFS) to implement effective 
management measures, monitor striped bass stocks, and assess biological 
and environmental factors that affect the stocks, ensured the success 
to date of the restoration program. Specifically, the Service maintains 
a coast-wide migratory striped bass tagging database and implements the 
only annual tagging program, the Cooperative Winter Tagging Cruise, 
which tags striped bass from the Hudson River, Chesapeake Bay, and 
Albemarle-Roanoke River stocks on the wintering grounds in the Atlantic 
Ocean off North Carolina and Virginia. Coordinated efforts are 
supported by research and technical assistance from the Biological 
Resources Division of the U.S. Geological Survey (USGS) and the 
National Oceanic and Atmospheric Administration's research vessels.
    In addition to declaring Atlantic striped bass population recovered 
in the Chesapeake Bay, stocks in the Delaware and Albemarle-Roanoke 
Rivers were declared recovered by the Commission. However, much work 
remains for the North Carolina striped bass stocks. The Neuse, Tar, 
Pamlico and Cape Fear populations have received minimal attention so 
far, and their status is not well known. It is important to note that 
the Service is committed to supporting appropriate management measures 
to address any declines in these recognized stocks.
    The Striped Bass Act authorizes a maximum amount of $250,000 for 
the Service. While the Service does not specifically identify funding 
authorized by the Striped Bass Act in the President's Budget, the 
Fisheries Program utilizes general program funds to restore and manage 
striped bass. Due to the large number of authorizations (more than 20) 
for the Service's Fisheries Program, we combine authorizations for 
appropriations into two program elements for Fish and Wildlife 
Management Assistance and two program elements for the National Fish 
Hatchery System. This makes it difficult to specifically identify funds 
authorized by the Striped Bass Act. However, in Fiscal Year 2000, the 
Service reported accomplishing 23 anadromous striped bass projects in 7 
States totaling $948,000 along the Atlantic Coast, under additional 
authorities including the Fish and Wildlife Act of 1956, Fish and 
Wildlife Coordination Act, and the Atlantic Coastal Fisheries 
Cooperative Management Act. Much of this work was used to further the 
goals of the Striped Bass Act. This includes 3 projects totaling 
$42,000 for habitat work. We feel that this is an extremely important 
activity that will help maintain recovered Atlantic striped bass 
populations and help restore the remaining populations.
    Our work with Atlantic striped bass is not done. All agencies 
involved with restoring this great fishery must remain diligent in 
maintaining the health of restored populations while continuing a 
coordinated effort to restore those populations yet to be recovered. 
Fishing pressure is increasing again, and the Service considers 
continued coordinated management of this fishery through the 
Commission, under a reauthorized Striped Bass Act, to be essential.
Anadromous Fish Conservation Act of 1965
    The Anadromous Fish Conservation Act provides authority for the 
Secretaries of Commerce and the Interior to enter into cooperative 
agreements with States and other non-Federal interests for the 
conservation, development, and enhancement of anadromous fish, 
including those in the Great Lakes and Lake Champlain, and gives the 
Service certain authorities to raise fish for restoration purposes. 
These authorities allow the Service to promote effective partnerships 
and restoration efforts to reverse the decline of anadromous fishery 
resources. State fishery agencies, colleges, universities, private 
companies, and other non-Federal interests in 31 States bordering the 
ocean or the Great Lakes may participate.
    Enactment of the Anadromous Fish Conservation Act in 1965 teamed 
the U.S. Fish and Wildlife Service with the States and others to 
rebuild the Nation's anadromous fish resources, which were then at 
extremely low levels. Historically, river development activities, such 
as power, irrigation, and flood control, did not account for the 
migratory needs of anadromous fish. Federal, State and private water-
development projects blocked fish passage both upstream and downstream; 
pollution made many streams uninhabitable; and logging and road 
building degraded or blocked once productive spawning and rearing 
areas.
    Under the Act, the Fish and Wildlife Service has funded projects 
that generally provide benefits to anadromous fish resources inland 
while the National Marine Fisheries Service has funded projects that 
benefit anadromous fisheries generally in the coastal and oceanic 
areas. However, our two agencies coordinate efforts to maximize 
potential benefits. For example, both agencies provided funds for the 
Grants to States Program and Emergency Striped Bass studies which were 
instrumental in recovering striped bass populations along the Atlantic 
coast. The funds were used to build hatcheries, stock striped bass, 
conduct research, and coordinate among states, which led to rebuilding 
several stocks of striped bass to self-sustaining levels.
    The Service remains a committed partner to States, Tribes and the 
Fisheries Commissions. We continue to use this authority to conduct 
projects to restore anadromous fish in cooperation with States, Tribes, 
and other Federal agencies, although we have not requested 
appropriations for the Grants to States Program.
Atlantic Coastal Fisheries Cooperative Management Act
    The Atlantic Coastal Fisheries Cooperative Management Act (Atlantic 
Coastal Act) was modeled after the Striped Bass Act, but the Service 
does not have the same authority to determine State noncompliance. This 
authority remains with the Secretary of Commerce.
    The Atlantic Coastal Act authorizes the Service to work with the 
National Marine Fisheries Service to support interstate fishery 
management efforts of the Commission and States. This includes 
collection, management, and analysis of fishery data; law enforcement; 
habitat conservation; fishery research; and fishery management 
planning. The Service participates on 17 of the 20 fishery management 
boards.
    The Service is authorized to provide funds to the Commission and 
States. Unlike the Striped Bass Act, the Service does not have a 
specific authorization level. The Service is authorized to provide 
funds to the Commission and States. Unlike the Striped Bass Act, the 
Service does not have a specific authorization level.
    Mr. Chairman, this concludes my prepared testimony. I would like to 
extend the Service's and the Department's appreciation to you and the 
rest of the Subcommittee for your leadership and interest in fisheries 
management, conservation and restoration of these coastal fisheries 
issues, and would be happy to respond to any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Short.
    Mr. Dunnigan?

  STATEMENT OF JOHN H. DUNNIGAN, EXECUTIVE DIRECTOR, ATLANTIC 
               STATES MARINE FISHERIES COMMISSION

    Mr. Dunnigan. Thank you very much, Mr. Chairman, members of 
the Committee. Good morning.
    Thank you for the opportunity to appear before you today to 
discuss H.R. 1989, the Fisheries Conservation Act of 2001. The 
bill would reauthorize or extend authorizations for the 
Interjurisdictional Fisheries Act, the Anadromous Fish 
Conservation Act, the Atlantic Coastal Fisheries Conservation 
and Management Act, NOAA's marine fish information and analysis 
activities, the Atlantic Tunas Convention Act of 1975, and the 
Northwest Atlantic Fisheries Convention Act of 1995. These are 
important pieces of legislation that are worthy of continuing 
appropriations.
    The Atlantic States Marine Fisheries Commission would be 
pleased to support H.R. 1989. In fact, with respect to the 
Interjurisdictional Fisheries Act of 1986, we suggest that the 
Committee should take this opportunity to extensively revise 
and revitalize the critical state-Federal partnership for 
marine and coastal fisheries.
    You will notice in my written testimony there are two 
obvious points that I didn't talk about in there. I didn't 
mention the Atlantic Coastal Fisheries Conservation and 
Management Act nor the Atlantic Striped Bass Conservation Act. 
So please don't get the impression that these are not 
continuing to be extremely important matters for the Atlantic 
coastal states and the Atlantic States Marine Fisheries 
Commission.
    The bill would essentially extend authorizations that are 
already good through 2003, and our commission very strongly 
would support extending those authorizations through 2006 as 
this bill would.
    What I would like to do this morning, though--and you will 
see in my written testimony--just very briefly, I would like to 
highlight the Interjurisdictional Fisheries Act aspects that 
are contained in Title I of H.R. 1989.
    The Interjurisdictional Fisheries Act and its predecessor, 
the Commercial Fisheries Research and Development Act, have 
been around now for almost 40 years.
    And Mr. Saxton will remember our good friend, Captain Dave 
Hart, from New Jersey, who 40 years ago walked these halls for 
about 3 years to get the original Public Law 882D309 passed. 
And it really formed, for a long time, the basis for 
substantial cooperation on areas of mutual interests in 
fisheries between the states and the Federal Government.
    In 1986, there was a substantial revision that was made to 
this program, and the Commercial Fisheries Research and 
Development Act was replaced by the Interjurisdictional 
Fisheries Act of 1986. The focus of the law was changed from 
commercial fisheries really to be more oriented toward those 
interjurisdictional fisheries that are shared either among the 
states or between one or more states and the Federal 
Government.
    And the law has continued to follow in the tradition of its 
predecessor as really being the foundation for state-Federal 
cooperation.
    The problem that we see is that this law is now 15 years 
old. It has not been substantially looked at or revised in that 
period of time. And we are not sure that it continues to 
address the current, modern needs that we have for cooperation 
in fisheries conservation and management between the states and 
the Federal Government.
    A lot of things have changed since 1986. We know a lot more 
today, how dependent we are good information, good statistics, 
and good research, and that the only way to get this is to have 
the states and the Federal Government working together in 
cooperation. We know we need to do a lot more today, working 
with the commercial and the recreational fishing communities to 
help us to get this kind of information that we need.
    We know that fisheries management is a lot more complicated 
than it was in 1986. Remember, just last month, Mr. Chairman, 
we were here talking about fishing capacity. Fifteen years ago, 
we were talking about ways of getting more vessels into the 
fishing industry so that we could go after underutilized 
species.
    Look at habitat. I know it is a subject dear to the 
Chairman's heart. We know much more today about the critical 
nexus between fisheries habitat and productive and healthy fish 
stocks; 95 percent of our valuable EEZ fish stocks reside at 
one or more important life stages within state waters in 
coastal areas. This is another area where the states and the 
Federal Government have a mutual interest. They have to work 
together.
    And just last year, Congress supplied another $15 million, 
and we hope that will be able to continue, for cooperative 
state law enforcement programs.
    So what were learning more and more is that this program 
that got started 40 years ago and is continuing today is really 
at the heart of what is going to make good sense for the states 
and good sense for the Federal Government as we continue to 
address the important issues that we both legitimately have in 
marine fisheries and in coastal fisheries.
    I am going to close, Mr. Chairman, with a commercial for 
CARA. The House or Representatives last year took the lead and 
overwhelmingly passed the Conservation and Reinvestment Act. 
And as I say in my written testimony, a fully funded CARA would 
address the kinds of problems that I raised in my testimony for 
cooperation between the states and the Federal Government.
    I know the Resources Committee is continuing to work on 
this matter, and I encourage you to continue to do so.
    Mr. Chairman, thank you for the opportunity, and I would be 
glad to try to answer any questions.
    [The prepared statement of Mr. Dunnigan follows:]

  Statement of John H. Dunnigan, Executive Director, Atlantic States 
                      Marine Fisheries Commission

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to appear before you today to discuss 
H.R. 1989, the Fisheries Conservation Act of 2001. The bill would 
reauthorize or extend authorizations for the Interjurisdictional 
Fisheries Act, the Anadromous Fish Conservation Act, the Atlantic 
Coastal Fisheries Conservation and Management Act, NOAA's marine fish 
information and analysis activities, the Atlantic Tunas Convention Act 
of 1975, and the Northwest Atlantic Fisheries Convention Act of 1995. 
These are important pieces of legislation that are worthy of continuing 
appropriations. The Atlantic States Marine Fisheries Commission would 
be pleased to support H.R. 1989. In fact, with respect to the 
Interjurisdictional Fisheries Act of 1986, we suggest that the 
Committee should take this opportunity to extensively revise and 
revitalize the critical state-Federal partnership for marine and 
coastal fisheries.
INTERJURISDICTIONAL FISHERIES ACT OF 1986
    The Interjurisdictional Fisheries Act of 1986, and its predecessor, 
the Commercial Fisheries Research and Development Act, have served as 
the traditional cornerstone of the state-Federal partnership for almost 
40 years. This legislation has enabled the states to undertake a vast 
array of programs to support state and Federal concerns in marine 
fisheries. Under this program, funds appropriated by Congress are 
apportioned to the states according to a statutory formula. The 
Interjurisdictional Fisheries Act of 1986 was a thorough revision of 
this program, focusing attention on recreational as well as commercial 
fisheries, and emphasizing those areas where state-Federal and 
interstate cooperation is essential.
    Mr. Chairman, we do not have the time today to recount all of the 
wonderful work that the states are doing under this program. Every two 
years, the National Marine Fisheries Service reports to the Congress on 
state activities under this program. State agencies across the country 
are carrying out the full range of fisheries conservation activities 
for the most important species we have, including many that are managed 
by the National Marine Fisheries Service and the Regional Fishery 
Management Councils under the Magnuson-Stevens Fishery Conservation and 
Management Act. The activities address fishery information, research 
and stock assessment, conservation planning, stock enhancement, habitat 
conservation, aquatic nuisance control, and law enforcement. Many 
important Federal fishery conservation programs rely on the state 
activities that are funded under the interjurisdictional fisheries 
program.
    The Interjurisdictional Fisheries Act of 1986 was well-designed to 
meet the challenges of the mid-1980s. But much has changed in the world 
of fisheries conservation and management in the past fifteen years. We 
are now more aware than ever of the critical need for good fishery and 
fishery resource information to support regulatory decisions. The 
critical nexus between productive fisheries and their habitat is better 
and more broadly understood. The marine fisheries constituency has 
broadened, with greater participation from recreational fishing and 
environmental interests, in addition to the traditional commercial 
fisheries community. We now hear as much, if not more, about 
controlling fishing capacity as providing for fishery development. New 
technologies, such as advances in analytical and communications 
capabilities, are dramatically increasing our capability to understand 
and share information. And the roles and capabilities of the state and 
Federal institutions have continued to evolve, each with their relative 
strengths. With all of these changes, we believe it is time to consider 
updating our approach to interjurisdictional fisheries cooperation.
    Mr. Chairman, we at the Atlantic States Marine Fisheries Commission 
have given serious consideration to the Interjurisdictional Fisheries 
Act of 1986. We have talked with our sister interstate marine fisheries 
commissions, and many other state and Federal officials. For the 
moment, these ideas are our own, although we expect that they could 
receive wide support. Our suggestion to the Committee is that you not 
simply reauthorize the Interjurisdictional Fisheries Act, but rather 
expand upon it. What is needed today is nothing short of a 
revitalization of and a recommitment to the state-Federal partnership 
in marine fisheries.
    The House of Representatives started down this road last year when 
it overwhelmingly passed H.R. 701, the Conservation and Reinvestment 
Act. The House Resources Committee, including you Mr. Chairman along 
with virtually all of the leaders of this subcommittee, recognized the 
need to reinvest in state programs for fisheries, wildlife, and 
conservation. The failure of CARA to be enacted in the closing days of 
the 106th Congress does not mean that the important needs that it would 
have addressed are any less pressing now than they were a year ago.
    We believe that the Interjurisdictional Fisheries Act of 1986 
should be strengthened and expanded to meet the recognized needs for a 
strong state-Federal partnership in marine fisheries today. The Act is 
now fifteen years old, and has not been significantly revised during 
that time, despite the major changes that have occurred in coastal and 
marine fisheries. A recharged Interjurisdictional Fisheries Act should 
contain a clear and concise recognition of and commitment to the 
special relationship that exists between the states and the Federal 
Government in marine fisheries. A good place to start, for example, is 
with fisheries statistics. In the Sustainable Fisheries Act, the 
Congress directed the Secretary to develop recommendations for the 
implementation of a national fishery information system on a regional 
basis (16 U.S.C. 1881). The report was prepared and delivered, and 
relied strongly on the cooperative efforts of the states and their 
three interstate marine fisheries commissions. The states and the 
National Marine Fisheries Service have been moving toward a set of 
fully integrated, cooperative fishery statistics programs. It is 
important for the National Marine Fisheries Service to play a national 
coordinating, policy, and standard setting role. The states bring 
strengths to the table in the operational sense of data collection and 
management. We need a national commitment to a series of regional 
statistics programs that takes advantage of the strengths that each of 
the partners can bring to the table.
    This is also true for cooperative fisheries regulatory planning. In 
addition to the responsibilities of the National Marine Fisheries 
Service and the Regional Fishery Management Councils under the 
Magnuson-Stevens Fishery Conservation and Management Act, the Federal 
Government has a significant concern over the stewardship of coastal 
fishery resources that do not come under the regulatory purview of the 
MSFCMA. The need for the states to step forward and address these 
resources of national interest has never been greater.
    The same could be said for responsibilities for habitat and for 
fisheries research. As a result of the Sustainable Fisheries Act, there 
is a new emphasis on essential fish habitat. And more attention is 
being paid to interspecies fishery dynamics, including ecosystems 
analysis and management with its tremendous data and analytical 
demands. We have to remember that 95% of Federally managed fisheries 
spend critical parts of their lives in fishery habitat that is included 
within state waters. Only by working closely with the states and 
investing in state capabilities can the Federal Government reach its 
fishery habitat protection and restoration objectives. With regard to 
fisheries research, states have long been a source of cooperative 
assistance for the Federal Government. Today, a new emphasis is being 
placed upon cooperative efforts with fishermen and other non-
traditional sources of data and information. States, being closer to 
individual fishing areas and constituencies, are uniquely positioned to 
help craft cooperative research that uses fisherman capabilities to 
meet the scientific needs of fishery managers. States are also in a 
position to help in addressing serious concerns about aquatic nuisance 
species, invasive species, and toxic blooms--issues that demand a 
response from both the habitat and research perspective.
    The states are also in a position to contribute significantly to 
the effectiveness of marine fisheries law enforcement. The three 
interstate marine fisheries commissions are the focus for bringing 
state and Federal law enforcement personnel together to address their 
mutual needs and objectives. States have had cooperative law 
enforcement agreements with the National Marine Fisheries Service for 
more than 25 years. Last year, Congress appropriated $15 million for 
cooperative state law enforcement agreements. We are finding that state 
and Federal law enforcement personnel each have different areas where 
they can operate most effectively, in a mutual and cooperative effort.
    A newly revitalized ``Interjurisdictional Fisheries Act for the 
21st Century'' ought to address the critical state-Federal areas of 
mutual interest. It should unequivocally articulate the commitment of 
the Federal Government to work closely with the states wherever 
possible to get the job done. It should also devote the fiscal 
resources necessary to carry out this essential partnership program. 
Let me be clear: what I am suggesting is a major commitment and 
investment in state-Federal partnership programs. The need is there, 
and the opportunity is there. For example, we all eagerly anticipate 
that shortly the House Resources Committee will once again demonstrate 
its leadership in fisheries and wildlife conservation by moving H.R. 
701, the Conservation and Reinvestment Act. CARA will set aside $500 
million for the states for coastal conservation and impact assistance. 
The language of H.R. 701 indicates that coastal and marine fisheries 
issues are a primary use for this funding. It is not hard to imagine 
that under these provisions $150 million or $200 million will be 
devoted to state fisheries programs. This is, frankly, the type of 
commitment that the state-Federal partnership in marine fisheries 
deserves.
    I am not suggesting that the Interjurisdictional Fisheries Act 
should compete with CARA. Quite the opposite. The earliest enactment of 
the Conservation and Reinvestment Act is the highest legislative 
priority for the Atlantic States Marine Fisheries Commission and all of 
our coastal state members; and much of what I am suggesting would be 
addressed by a properly funded CARA. The substantive ideas that a 
revitalized commitment to interjurisdictional fisheries would provide 
would provide a blueprint for the Congress and the states in the 
development and implementation of coastal fisheries conservation 
programs under CARA.
    Mr. Chairman, I do not have a draft bill to lay before you today 
that will do all of this. I am sure that many others will have 
particular perspectives that should be considered and worked into new 
legislation. But the principles are simple. The states are not just 
another constituency for Federal policy makers. The states and the 
Federal Government share, in a unique way, the public trust 
responsibilities to safeguard the people's interests in marine 
fisheries resources. We must continually work together in the important 
areas of statistics, fisheries management, habitat, research and law 
enforcement. We must each strive wherever possible to achieve mutual 
success. We can succeed together, or we can fail separately. The choice 
belongs to all of us.
ANADROMOUS FISH CONSERVATION ACT
    Mr. Chairman, I would also like particularly to recommend that the 
Committee approve legislation extending the Anadromous Fish 
Conservation Act. This legislation has, for almost as long as the 
Interjurisdictional Fisheries Act and its predecessor, been a 
foundation for state-Federal cooperation in the conservation and 
management of this country's valuable anadromous fishery resources. 
This Act is the only national expression of the Federal commitment 
regarding the importance of anadromous fish species. We need to 
remember that this is a truly national program; for even though we are 
all aware of the critical problems in trying to conserve salmon on the 
Pacific coast, anadromous fisheries are critical to the Atlantic coast 
and the Gulf of Mexico as well.
    In addition to providing continuing support for salmon conservation 
along the Pacific coast, on the Atlantic coast funds appropriated under 
this Act have been applied by the states to critical problems for shad, 
river herring and sturgeon. In the Gulf of Mexico, the conservation 
needs of species such as shad, Gulf of Mexico sturgeon (listed as 
threatened under the Endangered Species Act), and Gulf striped bass, 
were recognized by the Gulf States Marine Fisheries Commission many 
years ago. The single most important factor impeding actions to address 
the conservation needs for many of these species in the Atlantic and 
Gulf has been the lack of sufficient funding to implement management 
and restoration actions.
    Anadromous fish species represent important components of the biota 
of river and nearshore estuarine habitats along this country's coasts. 
Because anadromous species use virtually all habitats in rivers and 
estuaries during some portion of their life cycles, they can serve as 
significant indicators of the overall health of the ecosystem. There 
have been declines in the size and distribution of anadromous fish 
populations nation-wide, and it is evident because of their life 
histories that any positive actions to restore the health of anadromous 
fish populations will provide positive benefits to the entire watershed 
in which these populations occur. They are clearly deserving of the 
Federal commitment evidenced by the Anadromous Fish Conservation Act.
    An interesting thing has happened to the appropriations 
authorization under this Act. In the 1980s, the authorization reached 
as high at $25 million annually; although the actual appropriated 
levels were much lower. But these authorized levels have actually been 
on a steady decline for the past fifteen years. The authorized level 
for appropriations last year was only $4.25 million; and recent 
appropriations levels have been on the order of only $2.1 million. So 
what has happened over the past fifteen years? Are striped bass, shad, 
sturgeon, and salmon any less important to the nation today that they 
used to be? I don't believe so Mr. Chairman, and I am sure that the 
Committee will not either. I strongly urge that the appropriations 
authorization for the Anadromous Fish Conservation Act be increased to 
$6 million for Fiscal Year 2001 and Fiscal Year 2001, $8 million for 
Fiscal Year 2003 and 2004, and $10 million for Fiscal Year 2005 and 
Fiscal Year 2006. This would still be less than half of the authorized 
level from the mid-1980s. And then we will look forward to working hard 
with the members of the Committee to see those authorizations realized 
in the appropriations process.
CONCLUSION
    Mr. Chairman, all of the programs covered by H.R. 1989 are 
critical, each in its own way, to the success of our cooperative and 
mutual efforts in marine fisheries. We believe that appropriations 
should continue to be authorized for each of them. In the case of the 
Interjurisdictional Fisheries Act, we believe that Congress should 
significantly expand and strengthen the statutory basis for the mutual 
cooperation between the Federal Government and the states. We also 
believe that the appropriations for the Anadromous Fish Conservation 
Act should be increased over the next few years, commensurate with the 
critical importance of these resources to the Nation. We look forward 
to working with your staff to continue to expand on these ideas.
    Thank you, Mr. Chairman. I would be pleased to try to answer any 
questions.
 SUGGESTED OUTLINE FOR A REVITALIZED INTERJURISDICTIONAL FISHERIES ACT
H.R. 1989--Title I: Interjurisdictional Fisheries

Section 101. Short Title
    Interjurisdictional Fisheries Act for the 21st Century

Section 102. Findings, Purposes and Policy (Definitions if Necessary)

Section 103. Authority of the Secretary
    The Secretary is authorized broadly to work cooperatively with the 
States on matters of mutual interest.

Section 104. National State-Federal Fisheries Information Program

Section 104. Cooperative Fisheries Management Planning

Section 105. Cooperative Fisheries Research and Assessment

Section 106. Cooperative Fisheries Habitat Conservation

Section 107. Cooperative Fisheries Law Enforcement

Section 108. Allocations of Funding

Section 109. Authorization of Appropriations

Section 110. Repeals
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Dunnigan.
    Ms. Chasis?

 STATEMENT OF SARAH CHASIS, SENIOR ATTORNEY, NATURAL RESOURCES 
                        DEFENSE COUNCIL

    Ms. Chasis. Thank you, Mr. Chairman and members of the 
Committee for this opportunity to testify.
    I am a Senior Attorney with the Natural Resources Defense 
Council, and I would like to address two of the laws that this 
legislation, H.R. 1989, seeks to reauthorize: the Atlantic 
Coastal Fisheries Cooperative Management Act and the Atlantic 
Tunas Convention Act.
    Recent action has illustrated the potential for serious 
conflict between the Federal Government and state management of 
many Atlantic marine fish populations that--
    Mr. Gilchrest. I am sorry, Ms. Chasis, I didn't catch one 
word.
    Ms. Chasis. Sure.
    Mr. Gilchrest. Serious what?
    Ms. Chasis. Conflicts.
    Mr. Gilchrest. Conflicts.
    Ms. Chasis. Between Federal and state management of many 
Atlantic marine fish populations that migrate between Federal 
and state waters.
    Such conflicts could seriously compromise, indeed, severely 
threaten, the achievement of important conservation goals.
    Unfortunately, there is nothing explicit in the Atlantic 
Coastal Fisheries Act to prevent such conflicts from arising. 
And we would like the Committee to consider addressing that 
issue.
    For example, the Act simply says that in preparing a plan 
for a fishery located in both state waters and the EEZ, the 
commission shall consult with appropriate councils to determine 
areas where such coastal fishery management plan may complement 
council fishery management plans.
    However, the Act does not explicitly require that the 
commission plan actually be complementary or consistent with 
the council/NMFS plans or that implementing regulations and 
quotas be complementary or consistent.
    Short of the Secretary of Commerce's preemption of state 
regulation under the Magnuson Act--and there is a provision for 
that in Section 306(b)--there appears to be no clear mechanism 
in current law to ensure consistency between conservation and 
management measures imposed by the commission and those of the 
council and NMFS.
    The resulting potential conflict was illustrated recently 
when the commission adopted a different and higher summer 
flounder quota for 2001 than the quota adopted by the Mid-
Atlantic Fishery Management Council and NMFS.
    The commission quota was initially set at 20.5 million 
pounds, approximately 2.6 million pounds higher than the 
council and NMFS's quota of 17.9 million pounds. From late last 
year until May of this year, it appeared there would be 
conflicting management regimes for this valuable fish 
population and that the important effort to get the rebuilding 
of this stock back on track, as required by Federal law and the 
appellate court decision in NRDC v. Daley, would be undermined.
    Only after NRDC, Environmental Defense, Center for Marine 
Conservation, and National Audubon, represented by the Ocean 
Law Project of Earthjustice, went to court to enforce the 
settlement agreement implementing the court decision, and only 
after NMFS had threatened to close the Federal EEZ to summer 
flounder fishing for a period of time, did the commission adopt 
the same quota as the council and NMFS.
    The crisis was averted, but there is no clear provision of 
the Act to prevent a similar event from occurring in the future 
in this or other fisheries.
    Similar problems, in fact, have already arisen with respect 
to spiny dogfish, a slow-growing species of shark for which 
stock recovery from overfishing will already require close to 
two decades, and also with respect to scup, a severely depleted 
stock.
    While currently the commission has in place emergency 
measures aimed at closing state waters once the Federal dogfish 
quota is reached, the commission has yet to adopt permanent 
measures that would align the state and Federal management 
program.
    At their last meeting, the commission considered and 
narrowly rejected a state waters dogfish quota more than double 
that for Federal waters. Such an increase is intended to allow 
for continued directed fishing on depleted mature female 
dogfish sharks, a strategy clearly discouraged under the 
Federal plan.
    Likely to be reconsidered in July by the commission, such 
inconsistent controls stand to derail the entire East Coast 
spiny dogfish Federal rebuilding program and put an 
exceptionally vulnerable species at increased risk.
    To prevent this kind of inconsistency, we would like to 
recommend that the Committee consider amending the Act to 
require that where this a Federally approved fishery management 
plan, the commission's plan be consistent with that plan, and 
additionally, that actions taken by the commission pursuant to 
its plan be consistent with quota and other conservation and 
management decisions of the council and NMFS.
    Mr. Chairman, members of the Committee, we also would like 
to endorse the recommendations of the Marine Fish Conservation 
Network with respect to the Atlantic Tunas Convention Act, 
another law that is sought to be reauthorized in this 
legislation.
    We support the position of the network that the Act should 
be amended to repeal the language that prevents or hinders the 
U.S. from implementing management measures that are more 
conservation-oriented than those recommended under 
international agreement.
    In addition, we would like Congress to encourage NMFS to 
provide for increased involvement of conservation groups in the 
formulation of U.S. positions at ICCAT, the international body 
responsible for Atlantic-wide conservation of Atlantic tunas 
and billfishes.
    With that, I would like to conclude and would be happy to 
answer any questions. Thank you.
    [The prepared statement of Ms. Chasis follows:]

 Statement of Sarah Chasis, Senior Attorney, Natural Resources Defense 
                                Council

    Thank you for inviting me to testify today on behalf of the Natural 
Resources Defense Council concerning H.R. 1989, a bill to reauthorize 
various fishery conservation management programs. The Natural Resources 
Defense Council (NRDC) is a national environmental organization with 
over 450,000 members nationwide that is committed to protecting natural 
resources and public health. We have an oceans program that works to 
protect valuable ocean resources and, to promote healthy and 
sustainable marine fish populations by preventing overfishing, 
minimizing bycatch and protecting fish habitat.
    I will focus my testimony today on two of the laws that this 
legislation seeks to reauthorize: the Atlantic Coastal Fisheries 
Cooperative Management Act (the Atlantic Coastal Fisheries Act); and, 
the Atlantic Tunas Convention Act. In both cases, I will discuss 
concerns that we have with these laws and the solutions we propose to 
address these problems.
    Recent action has illustrated the potential for serious conflict 
between the Federal and state management of the many Atlantic marine 
fish populations that migrate between Federal and state waters. The 
conflicting quotas that were initially set for summer flounder for this 
year are an example of this problem. Such conflicts could seriously 
compromise, indeed severely threaten, the achievement of important 
conservation goals. Unfortunately, there is nothing explicit in the 
Atlantic Coastal Fisheries Act to prevent such conflicts from arising.
    The Atlantic Tunas Convention Act precludes the United States from 
adopting more stringent controls on fishing than are set by 
international bodies such as the International Commission for the 
Conservation of Atlantic Tunas (ICCAT). We believe that this provision 
inappropriately ties the United States' hands and should be amended to 
allow our nation to adopt more stringent measures where it is in the 
interest of the resource to do so. We also believe that the 
environmental community needs a stronger role in the formulation of 
U.S. positions at ICCAT.
The Atlantic Coastal Fisheries Act
    Recently, conflicts have emerged between the quotas and management 
regime established by the Atlantic States Marine Fisheries Commission 
(the Commission or ASMFC), on the one hand, and the Mid-Atlantic 
Fishery Management Council (the Council) and the National Marine 
Fisheries Service (NMFS), on the other. Such conflicts threaten to 
seriously undermine important conservation goals of the Magnuson-
Stevens Fishery Conservation and Management Act (FCMA) related to 
preventing overfishing and rebuilding overfished populations.
    Currently, there is no explicit requirement in the Atlantic Coastal 
Fisheries Act for consistency of coastal fishery management plans and 
quotas developed under that Act with Federally approved fishery 
management plans, regulations and quotas adopted under the FCMA. The 
Act simply says is that in preparing a plan for a fishery located in 
both state waters and the Exclusive Economic Zone (EEZ), ``the 
Commission shall consult with appropriate Councils to determine areas 
where such coastal fishery management plan may complement Council 
fishery management plans.'' 16 U.S.C. Section 5104(a)(1)(emphasis 
added). However, the Act does not explicitly require that the 
Commission plan actually be complementary or consistent with the 
Council/NMFS'' plans, or that implementing regulations and quotas be 
complementary or consistent. Short of the Secretary of Commerce's 
preemption of state regulation under Section 306(b) of the FCMA, 16 
U.S.C. Section 1856(b), there appears to be no clear mechanism in 
current law to ensure consistency between the conservation and 
management measures imposed by the Commission and those of the Council 
and NMFS.
    The potential for serious conflict as a result was dramatically 
illustrated recently when the Commission adopted a different and higher 
summer flounder quota for 2001 than the quota adopted by the Council 
and NMFS. The Commission quota was initially set at 20.5 million 
pounds, approximately 2.6 million pounds higher than the Council and 
NMFS'' quota of 17.9 million pounds. From late last year until May of 
this year, it appeared that there would be conflicting management 
regimes for this valuable fish population and that the important effort 
to get the rebuilding of this stock back on track, as required by 
Federal law and the appellate court decision in NRDC v. Daley, 209 
F.3rd 74 (D.C.Cir. 2000), would be undermined.
    Only after environmental plaintiffs, including NRDC, Environmental 
Defense, Center for Marine Conservation and National Audubon, 
represented by the Ocean Law Project of Earthjustice, went to court to 
enforce the settlement agreement implementing the court's decision and 
only after NMFS had threatened to close the Federal Exclusive Economic 
Zone to summer flounder fishing for a period of time did the Commission 
back down and adopt the same quota as the Council and NMFS. A crisis 
was averted, but there is no clear provision of the Atlantic Coastal 
Fisheries Act to prevent a similar event from occurring in the future 
in this or other migratory fisheries.
    Similar problems in fact have already arisen with respect to spiny 
dogfish - a slow growing species of shark for which stock recovery from 
overfishing will already require close to two decades and with respect 
to scup, a severely depleted stock. While currently the ASMFC has in 
place emergency measures aimed at closing state waters once the Federal 
dogfish quota is reached, the Commission has yet to adopt permanent 
measures that would align the state and Federal management programs. At 
their last meeting, the ASMFC considered and narrowly rejected a state 
waters dogfish quota more than double that for Federal waters. Such an 
increase, promoted by Massachusetts, is intended to allow for continued 
directed fishing on depleted mature dogfish sharks--a strategy that is 
clearly discouraged under the Federal plan. Likely to be reconsidered 
in July by the ASMFC, such inconsistent controls stand to derail the 
entire east coast Federal spiny dogfish rebuilding program and put an 
exceptionally vulnerable species an increased risk of further, long 
standing population damage.
    In the case of scup, the Council and NMFS are increasingly acceding 
their legal responsibilities to the Commission, despite the severely-
overfished status of the stock. For 2001, NMFS approved a quota that 
was nearly twice the scientific recommendation, largely on the basis 
that this was the quota set by the Commission.
    To prevent this kind of inconsistency, NRDC recommends that the 
Atlantic Coastal Fisheries Act be amended to require that, where there 
is a Federally approved Fishery Management Plan, the Commission's 
coastal fishery plan be consistent with that Federal plan and, 
additionally, that actions taken by the Commission pursuant to its plan 
be consistent with quota and other conservation and management 
decisions of the Council and NMFS.
The Atlantic Tunas Convention Act
    One of the other acts before this Subcommittee for reauthorization 
is the Atlantic Tunas Convention Act (ATCA). NRDC supports the position 
of the Marine Fish Conservation Network that this Act should be amended 
to repeal the language that prevents or hinders the U.S. from 
implementing management measures that are more conservative than those 
recommended under international agreement. In addition, we would like 
Congress to encourage NMFS to provide for increased involvement of 
conservation groups in the formulation of the U.S. position at ICCAT, 
the international body responsible for Atlantic-wide conservation of 
tunas and billfishes.
    In 1990, the Magnuson Fishery Conservation and Management Act and 
Atlantic Tunas Convention Act were amended in a manner which precludes 
U.S. fishery managers from promulgating any regulation which has the 
effect of ``decreasing a quota, allocation or fishing mortality level'' 
recommended by ICCAT. Since the enactment of this provision, the 
achievement of domestic and international management objectives for 
highly migratory species (again, with the exception of large coastal 
sharks) has been greatly diminished in that NMFS will not make any 
rules which may be construed as denying American fishermen a 
``reasonable opportunity'' to fully harvest (i.e., land) an ICCAT-
assigned quota. The unfortunate effect of this provision has been that 
NMFS has functionally exempted some highly migratory species from 
conservation measures applied to all other marine fish species.
    Industry has used this provision to effectively defer needed 
conservation and management actions to the international arena. As a 
result, NMFS has done little more than implement ICCAT quotas and 
allocate them among domestic user groups. Where no ICCAT 
recommendations exist, but the stocks are fully-utilized or approaching 
an overfished condition, no precautionary measures have been taken. 
Virtually all significant management actions are deferred to ICCAT.
    ICCAT routinely responds slowly to problems in the fisheries and 
when it does act, all too frequently sets quotas (total landings 
levels) too high and minimum size limits (to protect pre-spawning age 
fish) too low. The U.S. is unable to do its part for rebuilding, even 
when such measures, rather than disadvantaging U.S. fishermen, could 
significantly enhance the status of stocks residing primarily in and 
around our EEZ.
    The ATCA provision is also cited by NMFS as a reason not to take 
measures to minimize bycatch mortality, through area closures and gear 
modifications. NMFS argues that doing so might prevent U.S. fishermen 
from landing their entire ICCAT allowance, in contravention of ATCA.
    NRDC believes that the decision of whether or not a more 
conservative U.S. management regime would benefit U.S. fishermen and 
the stocks they fish should be made on a fishery-by-fishery basis, on 
its own merits, based on the best science available. To do otherwise is 
to deny the differences in fish stocks and the fisheries directed at 
them and to severely impair the ability of U.S. managers to meet their 
responsibilities to conserve and manage these resources for the benefit 
of the American public.
    We urge Congress to amend the Atlantic Tunas Convention Act to 
remove language limiting U.S. authority to conserve and manage Atlantic 
highly migratory species when necessary to achieve domestic 
conservation and management goals.
    Finally, the environmental community does not have adequate 
representation in the deliberations of the U.S. delegation to ICCAT. 
Currently, only 3 of 25 members of the advisory committee to the U.S. 
section are non-industry aligned conservationists or scientists. In 
addition, there is no dedicated ICCAT conservation commissioner, where 
there are currently government, industry and recreational 
commissioners. We request that the Committee consider taking action to 
ensure a better balance in the formulation by the U.S. of its decisions 
leading up to and at ICCAT.
    Thank you for this opportunity to testify.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Chasis.
    On that note, the conflict that Ms. Chasis was discussing 
with the Interjurisdictional Fisheries Act and the examples of 
summer flounder and dogfish, Mr. Dunnigan, you mentioned in 
your testimony that you had some suggested reforms to the Act. 
Would your suggested reforms resolve some of the issues that 
arose during the summer flounder situation and perhaps the 
reference to the management plan for dogfish that Ms. Chasis 
suggested?
    Mr. Dunnigan. Thank you very much, Mr. Chairman.
    I think it is possible that the Interjurisdictional 
Fisheries Act should, I think, address cooperative fishery 
management between the states and the Federal Government. I 
think if you want to look specifically at the issues of summer 
flounder or scup or dogfish, however, you have to the Atlantic 
Coastal Fisheries Cooperative Management Act, which is more 
important and more directly applicable.
    To address those, I think it is important to note, first of 
all, I am not sure how much of a problem we have here. I don't 
think that we have yet fully exhausted all of the opportunities 
that exist between the states and the Federal Government, 
between our various management institutions, including the 
councils, to sit down and try to work out our problems under 
the existing law.
    In the cases that Ms. Chasis raised, you know, with summer 
flounder, the states agreed to go the way of the Federal 
Government--even though it was inconsistent with our fishery 
management plan. With spiny dogfish, we have agreed to require 
the states by emergency action to close their waters.
    Mr. Gilchrest. Well, I guess--
    Mr. Dunnigan. Ms. Chasis is correct. It is controversial, 
but so far--
    Mr. Gilchrest. I think I am getting--
    Mr. Dunnigan. --we are working together.
    Mr. Gilchrest. What I am getting from Ms. Chasis is that 
perhaps that would not have happened--Ms. Chasis, you can jump 
in here if you want to--if there wasn't the threat of or the 
actual court challenge.
    Mr. Dunnigan. Well, it is very complicated. The whole issue 
derived from a court challenge. I mean, in this instance, the 
National Marine Fisheries Service was put in the position of 
having to depart from the fishery management plan that we had 
agreed to because of the litigation. And then the question was, 
well, how do we get over the hump of resolving the divergence 
between state and Federal management?
    Dr. Hogarth has worked very hard to try to bring us beyond 
these problems, and I think we have made a lot of progress. You 
are aware that 2 weeks ago the Heinz Center facilitated a 
roundtable discussion that I think really opened a lot of doors 
of communication between the states and the councils and NMFS 
and the commercial and recreational constituencies and the 
environmental community.
    And I think that there is a lot that we are going to 
accomplish by continuing to work together. I am not sure we are 
at the point yet were we need to change the law to make it work 
better.
    Mr. Gilchrest. Dr. Hogarth, do you want to comment on that?
    Dr. Hogarth. Thank you, Mr. Chairman.
    We are in the midst of sort of a negotiated roundtable with 
the Heinz Center. We will have another 2- to 3-day session 
probably in the next 2 to 4 weeks. We are putting together 
white papers now on some of the issues that came up.
    I am hoping that that will lead us toward a mechanism that 
will not only address summer flounder but other issues that may 
come up.
    I think, as I said briefly, the real difficulty right now 
is the fact that we do have different standards, but I am not 
sure that we need to change the Atlantic--
    Mr. Gilchrest. Dr. Hogarth, when you say, ``We have 
different standards,'' is that NMFS has different standards 
from the commission?
    Dr. Hogarth. Under the Magnuson-Stevens Act that the 
council operates under, we have the 10 national standards that 
we have to look at, whereas under the Atlantic Coastal 
Fisheries Act, they do not have the same, you know, standards 
that they have to look at. They have more leeway in the way 
they manage.
    Saying that, I think that managing in state waters needs 
some more leniency in how they manage than overall when you are 
talking about the EEZ and boats that move--
    Mr. Gilchrest. Who needs more leniency?
    Dr. Hogarth. Sir?
    Mr. Gilchrest. You said--
    Dr. Hogarth. I think that the states need some leeway in 
managing state waters differently from the way we manage the 
EEZ, because of the fact that you are talking about fish within 
3 miles. They manage what has landed. We manage the fisheries 
that move in the EEZ further and differently.
    And I just think that the states probably need a little bit 
different mechanism.
    Mr. Gilchrest. Could you comment on that, Ms. Chasis?
    Ms. Chasis. Yes. I think we feel that it would be useful to 
have a clear articulation in the Atlantic Coastal Fisheries Act 
of substantive standards that apply to the development of plans 
and that those standards, from a conservation standpoint, be 
more consistent with the Magnuson-Stevens Act.
    Mr. Gilchrest. So are you disagreeing with Dr. Hogarth 
about more leeway for the states?
    Ms. Chasis. Yes, I am, because it seems to me that there 
should be some basic, minimum conservation standards that would 
apply, whether it is in state waters or Federal.
    Mr. Gilchrest. Are there are no minimum conservation 
standards now?
    Ms. Chasis. That is correct. There is nothing--the Atlantic 
Coastal Fisheries Act talks about the need to conserve the 
stock, but it doesn't then go into any specificity, whereas in 
the Magnuson Act, as Dr. Hogarth indicated, you have the 
national standards, you have the rebuilding requirements that 
exist.
    So what this has meant is that you have the potential--and 
we saw in the instance of summer flounder and the potential 
exists now with dogfish--to have a different, more lenient 
management regime for state waters than for Federal waters, yet 
you are talking about the same fish population.
    Mr. Gilchrest. Mr. Dunnigan?
    Mr. Dunnigan. Thank you, Mr. Chairman.
    It is not always that simple. The Atlantic Coastal 
Fisheries Act also requires the commission to adopt our own set 
of standards. And we have done that.
    Mr. Gilchrest. So you are saying that the states along the 
Atlantic coast have standards?
    Mr. Dunnigan. Yes, we do. And they are very similar to what 
you will find in Section 301 of the Magnuson-Stevens Act.
    Frankly, in some ways, I think they are better. And I think 
Congress ought to consider looking at our standards and 
consider applying some of them to the Federal management 
program. But that is a separate issue.
    Those standards to do exist. And we are required to follow 
them, and our state members are required to follow them as 
well.
    So a lot of things might not be completely spelled out in 
the Atlantic Coastal Fisheries Management Act, but I think that 
arose from a recognition by Congress that things are different 
sometimes in the states than they are in the EEZ.
    Remember that we have 22 fishery management plans, and we 
have all of this maelstrom revolving around, essentially, three 
species: summer flounder, scup, and black sea bass. There is a 
lot more that we do.
    And remember also that in many instances right now, it is 
the states under these management plans that have the ability 
to manage these fisheries while the Federal regulatory 
processes are catching up to us.
    Right now, the states are implementing restrictions in 
their recreational fisheries, very dire restrictions from 
summer flounder and for scup. And so far, we don't have rules 
from the Federal Government to manage that fishery, because of 
all the processes they have to go through.
    So we are very reluctant to go down the path of trying to 
commit the states to standards and procedures that are not 
always working the way we would all want them to, even in the 
Federal process.
    Mr. Gilchrest. You are saying you can do it a lot faster 
than the Federal Government?
    Mr. Dunnigan. I don't think there is any question about 
that. I think everybody agrees to that.
    Mr. Gilchrest. Thank you very much.
    We may have a second round of questions, but at this time I 
will yield to Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman.
    And I want to add a couple of questions to the line of 
thinking that the Chairman has outlined here, just so that I 
can understand exactly what is the source of contention here.
    Dr. Hogarth, in your testimony, you mentioned that it has 
been difficult to implement joint fisheries management plans 
between the councils and the Atlantic States Marine Fisheries 
Commission (ASMFC) when the commission's plans are less 
stringent than the council plans that have been pursuant to the 
requirements of the Magnuson Act.
    This is going to be an ongoing problem, and you recommend 
that there be a mechanism to more closely align the standards 
of the commission's plans with the national standards required 
for the council fishery management plans under the Magnuson 
Act.
    Do you have a specific suggestion as to what this mechanism 
should be? And should the Congress legislate this mechanism?
    Dr. Hogarth. At this point in time, I would rather wait 
until we get through the process we are undergoing right now 
with the Heinz Center. I think part of that is looking at if 
there needs to be legislative fixes. And at the present time, I 
would rather not second guess that process.
    Mr. Underwood. Well, would you recommend, then, that we 
hold off on reauthorization until the process is completed?
    Dr. Hogarth. I would hope not because I think we can work 
the process. We have worked through it on summer flounder.
    I think summer flounder, as Jack Dunnigan explained, was 
somewhat of a unique case, because we did have a lawsuit that 
required us to do something to be in compliance with the 
Federal court, that the ASMFC was not required. They were not 
sued, they were not part of the lawsuit. And so, we had to act 
independent.
    And while we had to meet standards and certain restrictions 
from the court, the ASMFC did not have to. And they were in 
compliance with their plan at that time. It is just that we did 
have two separate standards and two separate quotas, and had to 
reach a quota that would be in compliance with the Federal 
court.
    You know, there is some question as to whether the ASMFC 
can be sued. You would have to sue each individual state, 
whereas you can sue National Marine Fisheries Service and get 
at the council process.
    But the ASMFC seems to be--which is probably a good 
mechanism--free from lawsuits.
    I think there is some potential problems there due to the 
fact that they have their standards, as Jack said, which some 
of them are good, but we have other standards right now we are 
not sure will enable us to use what they call conservation 
equivalences. That means the state can set certain size limits 
in seasons and regulations that can account for conservation 
equivalency. It is not clear that we can do that under the 
council process and how we would do that, which gives them a 
little more--
    Mr. Underwood. So how do we bring resolution to this? Is 
there some defect in the process of resolving these 
differences? Or is there inadequate attention to--
    Dr. Hogarth. That is why we went to the Heinz Center. We 
felt like we would bring in the environmental groups, the 
plaintiffs, the recreational leaders, the commercial leaders, 
the council and ASMFC, we brought the states in. And we spent 
two-and-a-half days.
    And out of that, we have come up with several issues that 
we are now trying to write white papers on to sort of go back 
out for discussion with this same group and to make 
recommendations at the next meeting on what needs to be done.
    I would rather wait for that process to be completed, 
hopefully by mid to the end of July, rather than to take some 
action that may not be the correct action.
    Mr. Underwood. Okay, Ms. Chasis--
    Sure, go ahead.
    Mr. Gilchrest. I am just going to interrupt just for a 
second, Mr. Underwood, if you don't mind.
    Dr. Hogarth has to leave at 10:30, and Mr. Saxton had just 
one question for Dr. Hogarth.
    Mr. Underwood. Sure.
    Mr. Gilchrest. If we can get that in, just before he 
leaves. Thank you.
    Mr. Saxton. Thank you very much, Mr. Chairman.
    Dr. Hogarth, in the last Striped Bass Reauthorization Act, 
we inserted language to require a study of striped bass 
population in terms of year class or size class as a result of 
observations that members of the Committee have had relative to 
the striped bass population, namely that fishermen report 
anecdotally that there is a large population of relatively 
small striped bass and seemingly not very many larger striped 
bass, say over the length of, say, 32 inches or so.
    There is language in your written testimony which indicates 
that we didn't need to do that because we already have the 
information. I don't have the information, and I want to know 
when we are going to get the report from NMFS that is required 
by the law created by the last reauthorization.
    Dr. Hogarth. I am not sure at this point, but I will get 
back to you--it is on its way right now, I was just told.
    Mr. Saxton. Well, thank you very much.
    [Laughter.]
    Have a happy day.
    [Laughter.]
    Mr. Underwood. Okay, thank you.
    Dr. Hogarth, since you are leaving soon, let me get in my 
other question for you.
    [Laughter.]
    In her testimony, Ms. Chasis stated that the provision in 
the Act the precludes U.S. fishery managers from promulgating 
any regulation, which has the effect of decreasing a quota 
allocation or fishing mortality level recommended by ICCAT, has 
been cited by NMFS as a reason not to adopt measures to 
minimize bycatch mortality in our highly migratory fisheries.
    How can this be if you are required to adopt such measures 
under the Magnuson Act?
    Dr. Hogarth. I am not sure I have the answer for you.
    [Laughter.]
    I will look into that, but I don't know that I can answer 
that right now. I will--
    Mr. Underwood. Well, is that true? I mean, is that the 
basic position taken by--
    Dr. Hogarth. I wasn't aware that it was. That is why I say 
I want to check into it.
    I wasn't aware that that had been the reason, but I will 
check.
    Mr. Underwood. Okay, all right. Thank you.
    [Mr. Hogarth submitted the following information for the 
record in response to the above question:]

    NMFS disagrees with Ms. Chasis' testimony that current requirements 
of ATCA and MagnusonStevens have ``functionally exempted'' some 
Atlantic HMS from conservation measures that would otherwise apply. In 
amending both ATCA and Magnuson-Stevens in 1990, Congress recognized 
that most Atlantic HMS (e.g. swordfish, tuna and billfish) can be 
effectively managed only through international cooperation. Clearly the 
U.S. contribution to the total level of fishing mortality, whether for 
target species or attributable to bycatch, is in most cases a minor 
component of the ocean-wide level. Although the international 
management process is not as rapid as many would like, multilateral 
cooperation is critical to successful rebuilding of species taken in 
fisheries prosecuted on the high seas and in the Exclusive Economic 
Zones of so many countries.
    Recognizing the conservation requirements of domestic laws, the 
U.S. negotiators at ICCAT have advanced positions on stock rebuilding 
and bycatch reduction that are expected to be more effective than 
unilateral action could likely accomplish. In recent years, rebuilding 
programs for bluefin tuna, swordfish and billfish have been adopted by 
ICCAT. Additionally, the multilateral approach has lent support to 
trade restrictive measures that can be applied against fishing nations 
that are not contracting parties to ICCAT. Although much work is 
required at ICCAT, the international management actions achieved are 
not only consistent with U.S. law but also have served to support the 
domestic commercial and recreational fishing industries relative to 
foreign competition.

    Mr. Underwood. Going back to the general problem, Ms. 
Chasis, which you have outlined, as well as others have 
outlined, as well as the Chairman has outlined, do you think we 
need to legislate a solution to the problem of inconsistent 
Federal and commission plans?
    And was this idea discussed when the stakeholders recently 
got together to discuss this problem? And if so, was there any 
consensus on it?
    Ms. Chasis. We do believe there is a need for a legislative 
solution, and it is the one we propose, which is to require 
consistency between the plans and the conservation measures. 
The issue of the lack of coordination between Federal and state 
management was raised but not resolved at the last stakeholder 
meeting.
    And actually, it is news to me that we have a meeting 
coming up in the next 3 or 4 weeks, but I am sure it will be 
the subject of further discussion. And we can certainly report 
back to the Committee at that time.
    But it seems clear, from what happened in this instance, 
and what has been raised as an issue with respect to dogfish, 
that there is this real issue that the commission is bound by a 
different set of conservation standards, and there is not 
assurance that there is going to be consistency in the 
management of these very important species that migrate between 
Federal and state waters.
    So we think that the case is made already for legislative 
action.
    Mr. Underwood. Okay, thank you.
    Ambassador West, in her testimony, Ms. Chasis indicated 
that--she asserts that the environmental community is under-
represented in the U.S. delegation to ICCAT.
    How is that delegation crafted? How is that delegation put 
together?
    Ms. West. We have tried very hard to involve the NGO 
community in the development of U.S. positions. And I believe 
that various members of the community have in fact been 
involved in that process.
    We have not had members of the NGO community on the 
delegation every year, although there have been members of the 
NGO community on the delegation in some years.
    As a general matter, I would say we support and highly 
value transparency, both in the development of U.S. positions 
and in the operations of the commissions.
    Mr. Underwood. Okay, thank you.
    I have no other questions at this time.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Jones?
    Mr. Jones. Mr. Chairman, thank you very much.
    I would like to ask Mr. Dunnigan, obviously politics is 
local, and there a couple of issues that are of great 
importance to the fishermen of eastern North Carolina.
    And I want to start with the issue of the menhaden 
fisheries representation on your commission. It is my 
understanding that the representative that has been serving now 
is more of, instead of being on the board to make management 
decisions, that they now have been reduced to an advisory 
capacity. Is that true?
    Mr. Dunnigan. Thank you, Mr. Jones.
    The commission in April adopted a new fishery management 
plan for Atlantic menhaden, and that plan revised the structure 
of our management board for menhaden.
    Menhaden was a unique circumstance until then, where we had 
a board that was equally made up of representatives and state 
representatives, and there was a lot of feeling and a lot of 
discussion about the fact that we needed to change that and 
make our menhaden management structure to be equal to all of 
the others. And that is what the amendment to the menhaden plan 
did.
    It was the most obvious and controversial issue that was 
contained in the amendment, and the public sentiment from up 
and down the coast was overwhelmingly in favor of making the 
change to the new management structure.
    Mr. Jones. Mr. Dunnigan, is it true that, as it relates to 
the management of this fishery, that the menhaden is one of the 
most successful stories, as far as the management program deals 
with the stocks?
    Mr. Dunnigan. I think that menhaden management has been a 
very sound program for a long time. It has reached out and 
involved a wide variety of the constituency. We were 
criticized, though, frankly, by a lot of people who felt that 
they were left out of the process.
    Menhaden is a species that is very highly dependent on 
annual recruitment. It is very highly dependent upon favorable 
environmental factors. And I think we have been able to try to 
match the management program to the particular importance of 
this resource.
    And the other reason it is so important is because it 
provides such a tremendous forage base for so much of the rest 
of our valuable coastal fishery resources.
    Mr. Jones. I guess the industry, again, just what 
information has gotten to me, they just don't really understand 
why they would lose this position that they had, particularly 
when they have had such success story, working within the 
commission.
    Are you just saying that it is politics, resentment, by 
other members of the commission as to why this change was made?
    Mr. Dunnigan. I don't think so.
    I think what has happened in menhaden over the last 10 
years is that there has been a broadening of the constituency 
that has come into the government and said, ``We care about 
this resource.'' For a long, long time, in both the Gulf of 
Mexico and the Atlantic, the constituency who came to the 
states and to the National Marine Fisheries Service, because 
they have always done the research out of Beaufort, was largely 
the commercial constituency, largely the purse seine fleet that 
was fishing for reduction purposes.
    Over the last 10 years, we have seen a greater involvement 
by other parts of the commercial fishing industry. The bait 
fisheries, which are more predominant all along the coast, 
going north from North Carolina, and the recreational community 
and the environmental community have now stepped forward and 
said, ``We have some concerns about this resource, too.''
    So our traditional program, which dealt basically just with 
the states and with the National Marine Fisheries Service on 
one side, and the commercial fishing industry on the other, was 
becoming less and less relevant to current circumstances, 
because the people who care about the resource in a broader 
sense have gotten more actively involved in the program.
    But I don't think it is really a question of just trying to 
be political. I think it was a question of trying to respond to 
the broadening constituency that has an interest in this 
fishery.
    And I think even within the commercial fishing industry of 
the companies that are involved, there who saw that that was 
something that was going to have to happen.
    And then there are others who--you know, very few us all 
think monolithically. And within the commercial industry, there 
was a range of views as to how that should go.
    Mr. Jones. Mr. Dunnigan, let me ask you another question 
before my time ends. I have to read this one to you:
    It is legal for North Carolina to harvest 12-inch weakfish, 
grey trout. Size limit caught in pound nets and long-haul nets 
is 10 inches. Other states have different limits since the 
Atlantic States Marine Fisheries Commission has adopted 
conservation equivalency tables whereby states can combine size 
bag limits, close areas and/or seasons, and other restrictions 
that enable them to be compliant with the provision of the 
plan.
    New York and Pennsylvania both have higher size limits than 
North Carolina. In fact, a majority of the fresh fish from 
North Carolina is sent to markets in New York City, Baltimore, 
and Philadelphia. Without those markets, North Carolina 
commercial fishing would be doomed.
    However, these states will not allow North Carolina's legal 
fish to enter their states.
    What will your commission do to facilitate allowing North 
Carolina's legal-harvested fish to these major markets in 
Philadelphia and New York?
    Mr. Dunnigan. Thank you, Mr. Jones.
    It is a good question, and it gets to one of the hearts of 
what we are trying to do in interstate fishery management, 
because, especially for some of these species that are 
predominantly coastal, they change during the year.
    The summer flounder fishery in southern New England is a 
lot different from what you see in North Carolina. And we 
allow, in our weakfish plan, the opportunity for the states to 
craft a program that makes sense so that everybody has to take 
a reduction, but you don't require a one-size-fits-all rule, so 
that everybody has to take the same reduction, and then it has 
vastly differential impacts.
    The States of North Carolina and New York, specifically on 
weakfish, have been working together for the last couple of 
years to put together a program so that New York can 
effectively enforce the rules that it has to have in its area 
and at the same time allow for valid interstate commerce for 
legally harvest species from other areas.
    In species like striped bass, for example, we have tagging 
programs that are predominant along the coasts.
    I know that on weakfish, the two states have been working 
together. I have not recently gotten an update on where they 
are.
    What our commission does is it creates the opportunity for 
the states to sit down together and work out these problems. 
And I would be glad to get together with the directors of North 
Carolina's and New York's agencies and talk to them about where 
this is and get you an answer.
    Mr. Jones. I would appreciate that very much. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Jones.
    In regard to the menhaden situation, I think Mr. Dunnigan 
gave about as a good answer as anybody could have given, based 
on new understandings of environmental issues.
    Picture a spider web, if you will. You touch the outer 
strand of a spider web, the whole thing ripples.
    And if you catch too many menhaden, that has a fairly 
dramatic effect on the whole marine ecosystem, one of which is 
striped bass don't have enough to eat, so they forage for other 
species.
    And in our case, the other species targeted is blue crab. 
And then the blue crab population is beginning to crash, not 
just because of the striped bass; there are many other factors 
involved.
    But there were other people that became involved in the 
menhaden issue other than the commercial menhaden fishermen, so 
it had a broad ripple. And I think that if the Atlantic States 
Marine Fisheries Commission did anything that was sensitive and 
sophisticated and well-done, it was to deal with that issue 
with all the various groups.
    Having been a little bit involved in that, I can say that 
there was very little if any political clout used in that 
issue, other than the basic scientific effort to try to deal 
with it.
    But we can follow up on that, Walter, and make sure that 
North Carolina gets its fair share.
    Ms. Short, just very briefly, because I think we just got 
buzzed for a vote, you mentioned a number of projects. I think 
10, 12, 17 projects or whatever, along the East Coast, dealing 
with, to some extent, fishery habitat and restoration. And you 
did say you had a particular habitat restoration project.
    Could you tell me what that restoration project is or what 
some of them are, and exactly what you do in a fisheries 
restoration project?
    Ms. Short. We have a number of fisheries types of 
activities that contribute to restoration of anadromous fish, 
both in terms of opening up passage through rivers, through the 
removal of small obstructions, as well as water quality 
issues--
    Mr. Gilchrest. So you are removing small dams or levies or 
things of this nature?
    Ms. Short. They can be. I don't have information with me on 
those specific projects, but I would be glad to respond in 
writing with more specifics.
    Mr. Gilchrest. Could you? I would like to see the specifics 
on each of those projects, especially along the East Coast, and 
who else you work with, because, most likely, if you are going 
into tidal estuaries or streams or rivers, then you must have 
some cooperation with not only the state agencies, but local 
communities.
    I would be interested in seeing how that process works.
    We have a number of places in my district where there are 
impoundments or dams or things like that that are no large 
areas of striped bass spawning, certainly with shad, white 
perch. There is a whole range of species that could swim 
upstream a lot further to expand their spawning areas. So that 
would be very helpful.
    The other question I had, and I guess anybody can answer 
this, I suppose, the Striped Bass Act we all know has been a 
resounding success. And we continue to reauthorize it and work 
with it. And we are talking about reforming some of these acts. 
Is it time to consider that or these other acts that deal 
specifically with a particular fishery, and take a look at it 
from an ecosystem approach, a multispecies approach? Because we 
are talking about menhaden and striped bass and crabs, 
phytoplankton, zooplankton, subaquatic vegetation, and many 
other things, and it all deals with the same habitat for all of 
these different species.
    So if anybody would want to respond--Ms. Chasis?
    Ms. Chasis. I think that is an excellent suggestion. That 
is something that the National Research Council, in recent 
reports that it has issued, has emphasized the need for, 
ecosystem management plans for fisheries.
    And I think the points you make are illustrative of why it 
is important. The way fisheries are managed, to a large extent 
now, are on a single-species basis. And stepping back and 
looking at the broader ecosystem and the interactions and 
making sure the management measures are consistent with 
maintaining or restoring ecosystem health is extremely 
important.
    Mr. Gilchrest. Is there some language or is it necessary to 
put some language into, let's say the Striped Bass Act?
    Ms. Chasis. I haven't reviewed that Act, so I would want to 
go back and look at it. But it seems to me that is something 
that would be important to do. And I am not aware that there is 
language, for example, in the Atlantic Cooperative Fisheries 
Act to do that. I would turn that over to Jack.
    But I think it is certainly a very, very worthwhile 
suggestion, Mr. Chairman.
    Mr. Gilchrest. Mr. Dunnigan?
    Mr. Dunnigan. Thank you, Mr. Chairman.
    There is a lot that is going on in this area right now. And 
one of the things that we are finding is that there is a 
tremendous gap between what we know and what we would need to 
know, if we are seriously going to try to manage species, even 
on a multispecies basis, much less moving toward ecosystem 
management.
    This Committee--Mr. Saxton--has supported some important 
funding for a number of years now that has been looking at 
interspecies dynamics, and that is important work that needs to 
continue.
    Last year, there was a major scientific conference on data 
that was held. It is specifically looking at what are the data 
needs for ecosystem management.
    Our commission has now received a grant from the Chesapeake 
Bay program of NOAA to do some more coordinating scientific 
research. And we are about ready to issue the contract for 
that.
    So there are a lot of things that are going on. But one of 
the things that we are going to have to do, if we are going to 
be serious about ecosystem management, is to make a major 
investment in the research that is going to be required to 
support the management program that will look at these things. 
It will be expensive.
    Mr. Gilchrest. Thank you. And we will attempt to do that up 
here.
    Mr. Underwood, follow-up questions?
    We have a vote. We will be back, hopefully in 15 to 20 
minutes. So we will take a recess at this time.
    Oh, you know something? Thanks for your testimony.
    [Laughter.]
    And this panel is dismissed, also.
    [Laughter.]
    [Recess.]

  STATEMENT OF THE HONORABLE JIM SAXTON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Saxton. [Presiding.] We are going to reconvene the 
Subcommittee at this point to conduct the second part of the 
hearing on an issue I think most people will agree is of great 
importance specifically to New Jersey but also of some 
importance in the national picture of management of our refuge 
system and wilderness area generally.
    Let me begin by introducing the panel, a panel of people 
who I have come to know well from my years of work in this 
area.
    First, Mr. Daniel Ashe, Assistant Director of Refuge and 
Wildlife at the U.S. Fish and Wildlife Service.
    Second, Mr. Bob McDowell, who does a great job for us back 
in New Jersey as Director of the Division of Fish and Wildlife. 
He will be here shortly.
    Third, a great friend of mine, someone who has dedicated 
himself to quality-of-life issues and environmental issues in 
Ocean County, the Director of our Ocean County Freeholder 
Board, Mr. John P. Kelly.
    Thank you for coming all the way from New Jersey today, 
Freeholder.
    And Mr. Larry Savadove from Beach Haven.
    We are very pleased that you are able to be with us this 
morning, Larry.
    Larry and I have had many experiences together, not the 
least of which was to be in the middle of a demonstration when 
somebody didn't like what I was trying to do with fish a year 
or so ago. And we weathered that storm together.
    And we are very pleased to have you here today. And we know 
that there was some discomfort in you getting here, and we are 
sorry about that. But you can be sure that we are pleased to 
have you here and to hear what you have to offer today.
    And also, Mr. Bob DeLeonard, the President of the New 
Jersey Beach Buggy Association, a group of folks who are also 
dedicated to conservation and the environment, and who have 
done a great job over the years with a whole variety of issues, 
including the stewardship of the area of land that we are here 
to discuss today and the activities that take place on it.
    I have a written statement that I would like to ask 
unanimous consent be included in the record. And I would like 
to just try and outline this issue, as I see it at least.
    It involves an area which was designated as wilderness area 
in the early 1970's. The are is known as the Holgate Unit and 
is part of the former Brigantine National Wildlife Refuge, 
which is now known under the name of the Forsythe National 
Wildlife Refuge, having been renamed after my predecessor, 
Congressman Ed Forsythe, who served as the ranking member of 
the Merchant Marine and Fisheries Committee.
    This issue is about access for fishermen, who have carried 
on a historic use adjacent to and sometimes slightly within the 
borders of the wilderness area known as Holgate.
    I have placed a small map on the desk in front of each 
member, which shows in pictorial form and map form the Holgate, 
which is at the southern end of Long Beach Island, a strip of 
land several hundred yards wide and 3 miles long.
    The area is 250-some-odd acres. Its eastern border is the 
area that is in question. The eastern border of the wilderness 
area is known as the mean high-water line, mean high-tide line. 
And the area to the east of that is owned by the State of New 
Jersey.
    The problem here is that over the last 30 years, the 
township of Long Beach in Ocean County has issued an average of 
500 to 600 permits, beginning in the year 1965.
    Actually, in 1965, there were 480 permits issued. The 
average, I am told, during the last 36 years, has been between 
500 and 600 permits, which are issued to individuals who have 
over-the-sand vehicles. And, in fact, last year, there were 716 
issued.
    Now, I say that because there was a question raised about 
how historic this use is, and I just wanted to establish for 
the record that the historic level of usage has been between 
500 and 600 vehicles that have been permitted a year.
    I think it is also important to point out that while that 
is the specific issue, the effort of the Fish and Wildlife 
Service to eliminate this historic use--pursuant to a CCP, 
which has been developed, and we are awaiting its 
implementation or an attempt to implement it.
    I think it is very important to point out that the wildlife 
refuge system in states like New Jersey is a very useful tool, 
and it is very useful for the management of the wildlife refuge 
and the people who live around it to be good neighbors. And 
that neighborly relationship obviously has to work both ways.
    It is important that the communities in which the refuge is 
located are good, hospitable folks, who help the management 
through volunteerism, through cooperation of various kinds, 
sometimes even through donation of assets to help the refuge 
out.
    And it is important to the relationship that the refuge 
management be good, neighborly folks as well, and make the 
members of the community that surround it feel comfortable.
    Now, this is especially important in the case of the 
Forsythe refuge. Unlike most other refuges, the Forsythe refuge 
is not a single piece of land. The Forsythe refuge begins, at 
its southern most point, surrounding an area known as the 
Mullica River estuary and south of the Mullica River estuary 
for a few miles, some 20 miles north, with various little 
pieces of land, which we wanted to make part of the refuge over 
the years.
    And for my part, I have advocated doing that. I thought it 
was a great idea to add to the refuge.
    As a matter of fact, I have a list of appropriations that I 
advocated for, and in some cases got added, and in other cases 
just supported the Fish and Wildlife Service for requests for 
the money: beginning in 1990 and 1991, between those 2 years, 
about $4 million; $4 million in 1992; 1993, almost $4.5 
million; $4.5 million in 1994; and on up through 2002, when we 
have requested an additional $3 million for the acquisition of 
an area known as the Forked River wildlife farm.
    Forked River game farm, right, Bob?
    Mr. McDowell. Yes.
    Mr. Saxton. That is the one.
    And that is several hundred acres. We want to add that to 
the refuge.
    So this is a refuge which has developed from its core, 
which used to be the Brigantine area, all the way up the 
mainland and, in some cases, on Cedar Bonnet Island, on another 
part of Long Beach Island.
    So the point is that the refuge touches the lives of people 
all up and down the mainland and, in some cases, on Long Beach 
Island in Ocean County. It touches all of our lives. And, 
therefore, it is especially important that we recognize that 
this relationship of neighborliness has to take place.
    And I am concerned that I hear quite often that that 
relationship is beginning to fail. And, as a matter of fact, it 
has a history of having problems over the last 17 years since I 
have been a member of the House.
    And I have worked diligently, in an understanding way, I 
believe, trying to help both sides understand the other side 
and be good neighbors. But recently, some things have started 
to occur, one of which we are hear to discuss today, but I just 
want to mention the other couple, because I think they 
illustrate part of the problem here.
    There have been a number of historic uses involving 
hunting, involving crabbing, involving various interactions 
with the refuge's neighbors with wildlife. One happens to be 
duck hunting. And the attitude of the refuge management, in my 
opinion, leaves something to be desired.
    I know there are rules and laws that have to be followed, 
and I know there are decisions that have to be made.
    In one case, a duck hunter, who had a floating blind, which 
was anchored in a legal position near the refuge, was told by 
the refuge management that it was unwise for them to hunt there 
because, if they shot a duck and it landed on the refuge, it 
was illegal for them to walk on refuge to get the duck. And 
likewise, it was illegal for them not to get the duck because 
of another law.
    And, therefore, if a duck landed on the refuge, after 
having been killed by the hunter, he would be arrested one way 
or the other.
    I thought that was going a bit far, in terms of stretching 
the attitude of good neighborliness.
    More recently, just this week, I got a call in my district 
office from a family whose kids over the last 4 or 5 years have 
applied for a Federal permit to walk across the Forsythe marsh 
to get to the water where they put minnow traps to get minnows 
to take back to sell out of a tank in their garage.
    Now, mom and dad, obviously, applied for the permits, 
because the kids were too young. But this is 12-year-old boy 
and an 8-year-old girl, who over the past 4 or 5 years have 
carried out this activity and, during the course of the summer, 
raise about $400. They don't really raise $400, because mom and 
dad buy the traps and subsidize the operation.
    But they thought it was a good activity for their kids to 
be involved in. And so the kids, every morning or every 
afternoon, whenever they go check the traps, go over, collect 
the minnows, bring them back, put them in the tank in the 
garage, and the neighbors come and buy the minnows to fish 
with.
    This year, for the first year, the management refused to 
issue those permits, while others, who carry on the same type 
of activity but don't sell the minnows, are able to walk across 
the marsh.
    I thought that was stretching the neighborliness concept 
that we have tried so hard to develop.
    But there is a bigger problem, and this is the one that we 
are here to discuss today.
    In 1965, when the Wilderness Act was passed, there was a 
lot of discuss about a historic use--or there were many 
assurances given, I should say, about a historic use that takes 
place on this Holgate section of piece that we started to talk 
about, which is just a small portion of the total 44,000 acres 
in Forsythe, 250-some-odd acres.
    There was a lot of support for having this area delineated 
as wilderness area. Incidentally, it wasn't in the Department's 
original proposal, but there were some 4,000 or 4,400 acres 
that were part of the proposal to be delineated in Forsythe 
wilderness area. This wasn't part of it.
    But the community wanted it. They wanted it, because if you 
look at this map, on the mainland, there is a road that comes 
down to a point near the Holgate part of the refuge. And there 
was talk about building a bridge, a causeway bridge, from that 
road on the mainland to the tip of Long Beach Island, and 
nobody wanted that to happen.
    And so the Sierra Club, other environmental groups, and the 
Beach Buggy Association advocated for this property to be 
designated as wilderness area, with the understanding and 
assurance that historic uses--i.e., beach buggy access or over-
the-sand vehicle access--would continue as a historic use.
    And each year, when the fishermen went to purchase their 
permits from the Long Beach Township office of permit issuance, 
they were told, ``Here's your permit. Pay your fee.''
    I don't know what the fee is. Maybe somebody knows.
    Jack, do you know what the fee is? Whatever the fee is. $50 
or whatever it is.
    Mr. Kelly. Right.
    Mr. McDowell. Correct.
    Mr. DeLeonard. It is $50.
    Mr. Saxton. ``Here is your permit. Have a happy season 
fishing.''
    And so, over and over again, our fishermen were told that 
this would continue to be a permitted use.
    Specifically, the regulations developed, pursuant to the 
Wilderness Act, which I understand the most recent 
administration no longer adheres to, but there is a regulation, 
which I will read, which says:
    The director may permit, subject to such restrictions as he 
deems desirable, the landing of aircraft and the use of 
motorized equipment at places within the wilderness where such 
uses were established prior to the date the wilderness was 
designated by the Act of Congress as a unit of the national 
wilderness preservation system.
    So, there is a regulation in place which tells the 
fishermen that it is Federal policy that we will, in the case 
of preexisting uses or historic uses, that they may continue.
    And more specifically, when a previous refuge manager 
decided that it would be in the best interest of some wildlife 
in this unit to eliminate beach buggies or over-the-sand 
vehicles in 1991, specifically, we sat down to try to solve the 
problem, which involved piping plovers, which nest and fledge 
from April 15 until about Labor Day.
    We sat down with the Fish and Wildlife Service and worked 
out an arrangement where over-the-sand vehicles would not be 
permitted during that fledging season but would be permitted 
during the rest of the year. And that agreement, which is 
signed by David Beall, who was then the refuge manager; Donald 
Fricke, who was then the associate manager of refuges north; 
Donald Young, assistant regional director, refuges and 
wildlife; and the regional director; all signed this agreement 
in July and on August 2, 1990.
    It says, during the September 1 through the March 31 
period, over-the-sand vehicles may utilize the tidelands, which 
are hard-packed sands below the mean high-water line. Refuge 
special unit permit obtained from the refuge manager will be 
required for over-the-sand vehicle use. Over-the-sand vehicles 
may enter and travel the tidelands only when the tide is out 
and the tidelands are exposed. To minimize the distance of 
travel on the loose sand or dry sand above the mean high-water 
line, which is the refuge boundary, over-the-sand vehicles 
shall be parked within 30 feet of the water edge at high tide 
and generally parked perpendicular to the water edge.
    So in 1990, I thought the problem was solved, and the 
fishermen were told again that it is our Federal policy that 
you be permitted to fish in this area.
    Most recently, I have worked with Dan Ashe. And I want to 
thank him for his cooperation through this process. We met in 
my office on two or three occasions with the previous director, 
Jamie Clark.
    And on each occasion, Ms. Clark and Mr. Ashe came to my 
office, listened to this story, probably a different version of 
it than I just told, and left my office saying, ``This is a 
problem, but we will go back and see if we can figure out a way 
to help you,'' which I always took, and I think they will 
agree, meant permit this historic use to continue.
    I will just conclude by saying that no one, to my 
knowledge, has indicated that under the use agreement that was 
developed and signed in 1990, that any significant 
environmental degradation has occurred. Markers are put up. The 
fishermen, by and large, stay where they are supposed to be on 
the beaches. The only time they get up on the wilderness area 
is when the tide comes in and they have a choice between 
getting up on the wilderness area or having their vehicle 
underwater.
    And so, that was a good, neighborly effort that occurred 
through negotiations involving my office, permit holders, and 
the division of fish and wildlife.
    So now I understand that the division of fish and wildlife 
has taken the position that there is no latitude, there is no 
flexibility in the Federal law--with which I vehemently 
disagree. And I think there is case law currently, which has 
been pointed out to me, currently on the books, which 
substantiates the point that the Department does have the 
necessary flexibility.
    And so I guess I am here--and I promised myself that I 
wouldn't act frustrated this morning. I promised myself that I 
would sit here and have this conversation with you all in a 
gentleman-like way, and I am going to do that. But I am 
frustrated, I must say, after all these years--the fishermen 
were told beginning in 1960, 1973, that there would not be the 
problem that we are here to discuss today.
    They were told every year along the way. They were told in 
1990. They were told since 1990. There is a written agreement 
spelling out the permission for this historic use. And I am 
frustrated.
    But that having been said, let me stop now. I have taken 
much longer than my time, but I hope my colleague will 
understand.
    [The prepared statement of Mr. Saxton follows:]

 Statement of The Honorable Jim Saxton, Vice Chairman, Subcommittee on 
              Fisheries Conservation, Wildlife and Oceans

    I would like to thank those who have come today to discuss very 
important issues concerning the Holgate Peninsula in the Brigantine 
Wilderness Area located in the Edwin B. Forsythe National Wildlife 
Refuge (formerly known as the Brigantine National Wildlife Refuge).
    Of particular concern to me today is the U.S. Fish and Wildlife's 
proposal in their Revised Draft Comprehensive Conservation Plan and 
Environmental Assessment to eliminate access of motor vehicles and surf 
fishermen to the Holgate Peninsula and State Riparian lands located 
below the mean high tide.
    As many of you know, The Wilderness Act of 1964 directed the 
Secretary of Interior to review roadless areas of 5,000 acres or more 
and report to the President as to the suitability of public lands for 
wilderness designation. The Department of Interior recommended 4,250 
acres of the Brigantine National Wildlife Refuge be preserved as 
wilderness. However, Holgate Peninsula was not included in this 
recommendation. Legislation originally introduced by Congressman Edwin 
B. Forsythe and Senator Clifford Case of New Jersey designated 4,250 
acres as recommended by the Department of Interior. In hearings held on 
the legislation, Mr. E. U. Curtis Bohlen, Deputy Assistant Secretary of 
the Department of the Interior for Fish, Wildlife and Parks testified 
that:
        ``The Administration did not consider Holgate Peninsula 
        suitable to be recommended as wilderness. On the Holgate 
        Peninsula, Federal ownership includes only 256 acres and 
        extends only to mean high tide with the State of New Jersey 
        owning riparian rights. Thousands of people use the riparian 
        lands for boating, fishing and beach buggy use, which 
        eliminates any opportunity for solitude or wilderness type 
        recreation on this part of the refuge.''
    Senator Case later modified his bill to include 16,800 acres which 
was the entire wildlife refuge at that time. The compromise bill which 
eventually passed both the House and Senate (P.L. 93-632), designated 
6,603 acres as wilderness which did include the Holgate Peninsula. The 
Holgate Peninsula became part of the final legislation despite that it 
was not the subject of a local hearing, part of an Environmental Impact 
Statement or recommended by the Administration.
    And when Holgate was included by Senator Case, the Senator as well 
as surf fishermen were assured there would be no loss in public access. 
And in fact, surf fishermen continued to drive their beach buggies on 
state riparian lands and above the mean high tide after the wilderness 
designation to this present day.
    In addition, a representative of the New Jersey Sierra Club, the 
New York and New Jersey Chapters of the Appalachian Mountain Club and 
Friends of the Earth testified at the hearing in 1974 that:
        ``It is our belief that wilderness is a resource which can be 
        enjoyed by large numbers of people so long as it is not 
        overused. The excellent management policies of the wildlife 
        refuge, combined with those of Long Beach Township have 
        successfully protected this extremely fragile area from 
        excessive damage. They require a seasonal permit for all beach 
        buggies which go on the refuge. Recent reports actually show 
        that tracking of heavy vehicles such as beach buggies can be 
        beneficial during the winter months. They break the heavy salt 
        crust which seem to form during the winter, and this permits 
        the sand to blow freely once more, and to reform the sand 
        dunes.''
    The representative also stated ``beach buggies keep primarily to 
the wet sand area, going no further than approximately 25 feet above 
high tide.'' Clearly, the statement emphasizes the compatibility of the 
beach buggy use with the wilderness designation in terms of the local 
environmental concerns.
    It is also my belief that the surf fishermen themselves and the 
surrounding community have worked diligently to protect the Holgate 
Peninsula as you will hear from the President of the Beach Buggy 
Association. Holgate has been accessed by beach buggies and surf 
fishermen since before the wildlife refuge or wilderness area existed 
there. They have built at least 4,000 feet of snow fence to protect the 
sand dunes and started a grass planting program. They have been good at 
keeping vehicle violations to a minimum and supporting the refuge staff 
when penalizing violators.
    In 1990, I personally helped to negotiate a written agreement 
called ``Public Use Management for Holgate Unit'' between the surf 
fishermen and FWS to keep open access to Holgate from September to 
April of each year to protect the nesting piping plovers. In the 
written agreement, FWS committed to allowing surf fishermen to use the 
site, driving out on state riparian lands, then at high tide, they 
could back up their vehicles and park above the mean high tide in a 30 
foot area. The written agreement states:
        ``During the September 1 through March 31 period, over-the-sand 
        vehicles (OSVs) may utilize the tidelands which are the hard 
        packed sands below the mean high water line. To minimize the 
        distance of travel on the loose or dry sand above mean high 
        water line the over-the-sand vehicle shall be parked within 30 
        feet of the water edge at high tide and generally park 
        perpendicular to the water edge.''
    This written agreement is signed by the Refuge Manager, Associate 
Manager- Refuges North, Assistant Regional Director-Refuges and 
Wildlife, and the Regional Director. This written agreement established 
clear public use management practices for balancing the wilderness 
needs and prior historical use by fishermen.
    Fishermen accepted partial closure of Holgate to protect endangered 
piping plovers by agreeing not to take vehicles onto the beach during 
the fledgling season. Fishermen gave up fishing during nearly all the 
spring and summer months. Clearly, fishermen have demonstrated 
willingness to protect the piping plover, and now they are being forced 
out.
    I work with the U.S. Fish and Wildlife Service in many areas for 
the betterment of our natural resources. In this instance, however, I 
am concerned that the rights of citizens to enjoy natural resources are 
being trampled. FWS has taken a position in direct contradiction to 
what they have agreed to in the past and what they have practiced in 
the past. They have acted unilaterally to restrict access to New Jersey 
state owned lands and deny historical compatible uses that were assured 
to be maintained. A deal is a deal.
    I am left with little choice but to offer legislation (H.R. 896) 
that would provide a transition zone, as described in the 1990 written 
agreement, to allow beach buggies to continue to access Holgate 
Peninsula as they have for the last 80 years.
    Thank you.
                                 ______
                                 
    Mr. Saxton. Mr. Underwood, would like to make a statement?
    Mr. Underwood. Thank you, Mr. Chairman.
    I have already indicated my own statement on this 
particular piece of legislation. But I wanted to ask unanimous 
consent to enter into the record a statement by the Wilderness 
Society and the Sierra Club.
    Mr. Saxton. Without objection.
    [The prepared statement of Mr. Waltman follows:]

Statement of James R. Waltman, Director, Refuges and Wildlife Program, 
                         The Wilderness Society

    The Wilderness Society appreciates this opportunity to provide 
written testimony for the Subcommittee's hearing on H.R. 896. The 
Wilderness Society is a non-profit organization with 200,000 members 
and is devoted to preserving wilderness and wildlife and protecting a 
nationwide network of wildlands. Founded in 1935, the Society has a 
long-standing commitment to the sound management and well being of the 
National Wildlife Refuge System and has been instrumental in the 
establishment and protection of the National Wilderness Preservation 
System.
    The Wilderness Society opposes H.R. 896, a bill that would modify 
the boundaries of the Brigantine Wilderness Area in New Jersey in order 
to allow off road vehicle travel on the Holgate Beach unit of the area. 
We believe that this legislation would undermine protection of the 
Holgate Wilderness, harm migratory birds and other wildlife, damage the 
refuge's sensitive beach ecology, conflict with efforts to recover 
endangered species, and foreclose a rare opportunity for wilderness 
recreation. We also fear that the bill could establish a dangerous 
precedent for wilderness management. We urge the Subcommittee to oppose 
this legislation.
    As a native of New Jersey, I know all too well how few wild places 
remain in the Garden State to experience solitude and wildlife in their 
natural habitat. Less than two percent of the public land in the state 
is protected as Wilderness. New Jersey's beaches are a source of 
enjoyment, economic vitality, and pride for the state. Unfortunately, 
ocean front houses, condominiums, hotels, roads, or other developments 
mark virtually all of New Jersey's beaches. In addition, more than 
thirty beaches in the state allow beach buggies and other off-road 
vehicles to drive along the shoreline. By our estimates, approximately 
70 percent of the state's beaches allow off-road vehicle travel by 
anglers and others. On Long Beach Island alone, where Holgate Beach is 
located, nearly the entire 18 mile stretch of beach outside of the 
refuge is open to vehicles. All-too-rare is the opportunity for 
visitors to birdwatch, fish, beachwalk, and relax on a wild, 
undeveloped beach, free from the sounds, smells, and harassment of off-
road vehicles. The Holgate seashore on the Edwin B. Forsythe National 
Wildlife Refuge should provide visitors just such an experience.
    The Holgate Beach unit of the refuge, on Long Beach Island, was set 
aside to host thousands of shorebirds that migrate and feed along the 
coast of New Jersey. The area is so critical that from April through 
August the beach is completely reserved to allow piping plovers, a 
Federally threatened species, time to nest and migrate. Moreover, this 
area remains a prime area for migrating shorebirds through the fall 
months. Close to 300 bird species have been sighted there, including 
Atlantic brant, American black duck, and brown pelican. Wilderness 
designation of the area has, at least in theory, provided an additional 
layer of protection for the wildlife of the area and provided a 
recreational experience that is so rare elsewhere in the state of New 
Jersey.
    Unfortunately, illegal beach buggies and other off-road vehicles 
are violating Holgate beach's Wilderness status. We are concerned that 
this activity may be having several negative ecological effects in 
addition to undermining the area's wilderness characteristics and 
opportunities for wilderness recreation of the area.
    Migratory Birds. Off road vehicles on the Holgate Beach are most 
likely harassing migrating birds during their critical migration 
seasons. While the beach at Holgate is closed between May and August, 
during the nesting season of piping plovers, many shorebirds migrate 
through the area during the early spring and fall months. Driving of 
off-road vehicles on the beach during this period can disturb birds 
during critical feeding and resting periods.
    Endangered species. While the Holgate Beach is closed during the 
nesting season of piping plovers, vehicle travel during the rest of the 
year degrades this nesting habitat. Vehicle travel reduces the amount 
of wrack on the beach that is an important foraging substrate. In 
addition, a of migrating piping plovers use the beach after the 
breeding season.
    Vehicle travel on the Holgate Beach is also impacting recovery 
efforts for the threatened Northeastern beach tiger beetle and the 
threatened seabeach amaranth. Holgate has been identified as an ideal 
sight for reintroduction and recovery of these species if vehicle 
travel were to be discontinued. Introductions of both species are 
thought to be doomed so long as vehicle travel is allowed to continue 
on the beach. The amaranth is known to be highly sensitive to vehicle 
travel, its stems easily broken. The beetle also can not withstand off-
road vehicle travel as its larval stage is found in the intertidal 
zone. National wildlife refuges, particularly refuge wilderness areas, 
provide some of the best opportunities for endangered species recovery. 
It is very troubling that recreation vehicle travel is impeding 
endangered species recovery action on a refuge wilderness area.
    Beach ecology. Off road vehicles are known to disturb dune 
formation, a central component of barrier island ecology, by limiting 
vegetation growth. Vehicle travel also can destabilize beach structure 
by breaking the salt crust and increasing sand movement and erosion. I 
have personally walked the Holgate Beach and witnessed beach buggy 
tracks near and even above the dune line during periods of high tide.
    Beach Invertebrates. Dr. Stephen Leatherman of the University of 
Maryland has identified significant negative impacts of vehicle travel 
on ghost crabs, a species that he has called an excellent indicator 
species for beach invertebrates. On Assateague Island, Virginia, an 
average of 10 crabs were found on wild beach plots, only one crab was 
found on plots with ``light ORV use'' and only 0.3 crabs were found per 
plot with ``heavy ORV use.''
    For all of the above reasons, the U.S. Fish and Wildlife Service 
has proposed enforcement actions to stop illegal vehicle travel within 
the Brigantine Wilderness. The agency has also proposed a ferry system, 
which could transport individuals who wish to access the southern tip 
of Holgate without walking. The Service has proposed these actions as 
part of one of the very first Comprehensive Conservation Plans drafted 
after passage of the 1997 National Wildlife Refuge System Improvement 
Act that the Subcommittee invested considerable effort on developing. 
We support the Fish and Wildlife Service's efforts to resolve the 
conflict with off-road vehicle travel on the beach and are troubled 
that Congress would contemplate taking action to overturn them.
    The Fish and Wildlife Service has not proposed banning fishing, 
hiking, birding, or other pedestrian powered recreational activities 
within the Holgate Beach. It has merely taken long-overdue action to 
enforce the Wilderness Act and to protect the wilderness, wildlife, and 
wildland characteristics of the refuge.
    More than 30 of New Jersey's beaches are currently open to off-road 
vehicle travel for at least part of the year and is used by anglers. By 
our estimation, approximately 70 percent of the Atlantic coastline in 
the state is open to this activity. On Long Beach Island alone, where 
Holgate Beach is located, nearly the entire 18 mile stretch of beach 
outside of the refuge is open to vehicles. Certainly we should be able 
to protect the two and a half miles of beach within the Brigantine 
Wilderness Area.
                                 ______
                                 
    [The prepared statement of Mr. Semcer follows:]

  Statement of Bart Semcer, Associate Washington Representative, The 
                              Sierra Club

    We appreciate the opportunity to submit this statement into the 
hearing record and discuss the value of maintaining the legal 
prohibition on the use of motor vehicles on Federal Wilderness lands on 
the Holgate Peninsula of the Edwin B. Forsythe National Wildlife Refuge 
in New Jersey.
    The Sierra Club is North America's oldest and largest grassroots 
conservation organization. The Club exists to explore, enjoy, and 
protect the wild places of the earth; to practice and promote the 
responsible use of the earth's ecosystems and resources; and to educate 
and enlist humanity to protect and restore the quality of the natural 
and human environment.
    There are over 700,000 Sierra Club members in the 50 U.S. states 
and all Canadian territories and provinces. Approximately 21,000 of our 
members reside in New Jersey. Our members include people from all walks 
of life who enjoy experiencing the natural world and who value its 
conservation. One-fifth of our members identify themselves as 
sportsmen, a group that appreciates the hunting and fishing 
opportunities found on our national wildlife refuges and in our 
nation's Wilderness Areas. All of our members have a stake in the 
outcome of the management of the Holgate Peninsula because it is public 
land of rare quality that is of immense value to migratory and 
imperiled species of global importance. For reasons we identify below 
we are opposed to H.R. 896 and urge this committee not to continue 
efforts aimed at its passage.
    The Holgate Unit of the Brigantine Wilderness is a single beach, 
encompassing approximately 2.5 miles. It is the only area of Wilderness 
beach in New Jersey. In contrast, there are over two dozen other 
beaches in the state where the use of off-road vehicles are allowed, 18 
miles of beach alone just to the north of Holgate. In light of this, 
conserving Holgate as a Wilderness, and enforcing the prohibition 
against the use of motorized vehicles there for the benefit of hikers, 
birdwatchers, beachwalkers, and other average citizens who would like 
to enjoy New Jersey's only opportunity to experience a coastal 
Wilderness is more than a just compromise. It is an imperative.
    In order to appreciate the ecological and recreational value of the 
Holgate Peninsula as a motor-free Wilderness Area one needs to look at 
it in the larger contexts of its place as part of the Atlantic 
coastline, the National Wilderness Preservation System, and New 
Jersey's public land base.
    The Atlantic Coast of the United States is a region of severe 
ecological distress. Coastal areas of the United States have and 
continue to undergo an unprecedented growth in human population. In 
1960, 80 million people lived within U.S. coastal counties (Bush et al. 
1996). Today the number has grown to over 141 million with nearly 
14,000 new housing units being built in coastal counties every week, 
even though these counties account for only 17% of the U.S. landmass 
(National Research Council 2000). In the area surrounding the 
Brigantine Wilderness and Holgate Peninsula it is projected that the 
human population will increase to nearly 3.5 million in 2020, a rise of 
31% from 1990 population levels (New Jersey Office of State Planning 
1999). In addition, beach areas are popular tourist destinations: 40 
percent of Americans list beaches as their preferred site for vacations 
(National Research Council 1995), and 100 million people visit the 
coast every year (National Research Council 2000).
    This increase in human population and visitation has been 
accompanied by an increase in the alteration of native coastal 
ecosystems. Between 1945 and 1975, development on Atlantic and Gulf 
Coast barrier islands, one of which the Holgate is a part, increased 
more than 300% (Slater and Odem 1993). This ``occurred largely (over 
5,000 hectares) at the expense of wetland, grassland, salt flat, and 
dune areas although at least 6000 ha of forest were lost. In all these 
cases the alteration was irreversible since it consisted of activities 
such as clearing, bulldozing, and dredge and fill operations.'' As 
Lubchenco et al (1995) observe in their ecosystem analysis of coastal 
systems for the United Nation's Global Biodiversity Assessment ``[m]any 
areas are already severely degraded. Moreover, the rates, spatial 
extent and types of perturbations are increasing alarmingly.''
    Not surprisingly, numerous species that utilize Atlantic coastal 
habitats have been adversely affected by these activities. The walrus 
has been extirpated from the New England coast. Harbor seals, Harp 
seals, Gray seals and Hooded seals have been reduced in number and 
extirpated from some of their historic range on the Atlantic coast 
entirely.
    Since the passage of the Endangered Species Act in 1973, species 
found on the Atlantic coast of the United States that are listed by the 
Fish and Wildlife Service include: Roseate tern; Piping plover; 
Leatherback sea turtle; Hawksbill sea turtle; Kemp's ridley sea turtle; 
Green sea turtle; Atlantic loggerhead sea turtle; Northeastern beach 
tiger beetle; Bald eagle and Seabeach amaranth. (50 CFR 17.11, 17.21.)
    On the Jersey Coast Refuges themselves - of which Holgate and the 
rest of the Brigantine Wilderness are a part - the New Jersey Division 
of Fish and Wildlife lists an additional 33 species as either 
Threatened or Endangered under state law, including: Great blue heron; 
Little blue heron; Yellow-crowned night heron; Cooper's hawk; Red 
shouldered hawk; Northern harrier; Osprey; Black rail; Least tern; 
Short-eared owl; Barred owl; Red-headed woodpecker; Cliff swallow; 
Sedge wren; Grasshopper sparrow; Savannah sparrow; Vesper sparrow ; 
Coast flatsedge; Britton's spikerush; Twisted spikerush; Thread-leaved 
beaked rush; Grass-like beaked rush; Rare-flowering beaked rush; 
Leathery rush; Bog asphodel; Snowy orchid; Lace-lip ladies-tresses; 
Wrinkled jointgrass; Bristling witchgrass; Short-leaved skeleton grass; 
and, Richard's yellow-eyed grass.
    As the U.S. Fish and Wildlife Service noted in the recovery plan 
for the Seabeach amaranth (FWS 1996a:10), this species shares its 
habitat with a number of the state and Federally listed species 
identified above, and these species, ``unlike many endangered species, 
are not narrow endemics. Such pervasive declines in a cluster of wide-
ranging species occupying the same habitat is an obvious indication of 
an entire ecosystem in very serious trouble.''
    While some representative areas of this ecosystem, such as the 
Holgate Peninsula, have been protected against development, most amount 
to only semi-protected environments at best. Degradation of their 
living components continues and efforts to recover ecological integrity 
are impaired, due in part to ongoing recreational activities, 
particularly those utilizing motorized vehicles.
    The Piping plover, a Federally listed Threatened species and an 
indicator of a healthy beach ecosystem, is documented to occur on the 
Holgate Peninsula in both the recovery plan for the species (USFWS 
1996b) and the revised draft Comprehensive Conservation Plan for the 
Jersey Coast Refuges. The species utilizes the Peninsula for breeding, 
feeding, and sheltering from the early spring into autumn.
    From April 1 to August 31 the U.S. Fish and Wildlife Service 
maintains a complete closure of the Holgate Peninsula, prohibiting 
pedestrian and vehicular access, as well as boat landings, in order to 
protect nesting plovers by preventing the impairment of their habitat, 
harassment of individuals and disruptions of normal behavioral patterns 
including feeding and sheltering.
    The Piping plover recovery plan also notes that there are ``large 
numbers'' of the species at Holgate during the post-breeding season. 
These individuals are vulnerable to and likely experience 
``harassment'', as defined in 50 CFR 17.3, from motor vehicles via 
flushing and the crushing of wrack into the sand, making it unavailable 
as cover or for foraging.
    The Piping plover revised recovery plan makes clear the threat that 
motor vehicles pose to the species:
        ``Vehicles also significantly degrade piping plover habitat or 
        disrupt normal behavior patterns. They may harm or harass 
        plovers by crushing wrack into the sand and making it 
        unavailable as cover or a foraging substrate, by creating ruts 
        that can trap or impede movements of chicks, and by preventing 
        plovers from using habitat that is otherwise suitable. Vehicles 
        that drive too close to the toe of a dune may destroy `open 
        vegetation' that may also furnish important piping plover 
        habitat.''
    When Piping plovers return to the Holgate Peninsula in the spring 
to nest they are forced to do so in an area of impaired habitat. This 
impairment is the result of 8 months of steady use of the beach by 
motor vehicles that decreases the amount of wrack available to the 
species for cover and foraging. Piping plovers at Holgate are forced to 
contend with this decrease at a time in their life cycle when a 
sufficient amount of habitat for cover and foraging is necessary to 
their migratory and reproductive success.
    Because motor vehicle use on the Holgate Peninsula prior to the 
Piping plover nesting season results in the significant absence of an 
important habitat element when the species arrives to use the beach, 
beach buggy use is responsible for starting the species off at a 
disadvantage each and every nesting season. We have argued in the 
public record on the Revised Draft Comprehensive Conservation Plan for 
the Jersey Coast Refuges that this is a violation of 50 CFR 17.3, 
prohibiting the ``harm'' and ``harassment'' of a species due to the 
impairment and disruption of essential behavioral patterns under the 
Endangered Species Act. This violation could be remedied in part by 
enforcing the Wilderness Act's prohibition of motorized use of the 
Federal lands of the Holgate Peninsula and we support the efforts of 
the U.S. Fish and Wildlife Service to that end.
    Additional species necessary for Holgate's ecological integrity 
whose recovery is negatively impacted by motorized use of the area are 
Northeastern beach tiger beetle and Seabeach amaranth.
    Like the Piping plover, the Northeastern beach tiger beetle is an 
indicator of a healthy beach environment. The species is ecologically 
important as the dominant invertebrate predator in those habitat areas 
where it occurs (USFWS 1993). Predation is a key process in the natural 
maintenance of biodiversity (Terborgh et al. 1999).
    The Northeastern beach tiger beetle was once described as occurring 
in ``great swarms'' on New Jersey's beaches (Leng 1902 in USFWS 1993). 
Today the species is extirpated from much of its historic range, 
including that in New Jersey, save for a small, reintroduced population 
at the Gateway National Recreation Area. One of the factors identified 
in the extirpation of the species across the majority of its historic 
range is increased vehicular traffic on Atlantic coast beaches 
(Stamatov 1972 in USFWS 1993).
    As the Fish and Wildlife Service noted in its recovery plan for the 
species:
          ``Vehicles may physically compact the beach substrate and/or 
        disrupt thermal and moisture microhabitat gradients that are 
        important for the larvae (Schultz 1988). The best evidence of 
        beach vehicle impacts to (the species) comes from a survey of 
        Assateague Island, Maryland (Knisley and Hill 1992). Adults and 
        larvae of (the species) were absent from a 16-km (10-mi) 
        section of beach that receives heavy ORV use, but present on 
        either side of the ORV zone, both on the north end of the 
        island and to the south in the Virginia section. It is also 
        significant that (the species) was common on the northern 
        portion of the ORV zone in 1973, but had disappeared by the 
        summer of 1976, after ORV use became heavy (J. Glaser, Maryland 
        Geological Survey, pers. Comm.).''

          ``Surveys of (the species) have also indicated an overall 
        pattern of absence from beaches with moderate to heavy ORV use. 
        The Martha's Vineyard site, one of two sites on the Atlantic 
        Coast where the species has survived (Martha's Vineyward) is 
        very inaccessible and has been well protected from visitor use 
        and vehicle use for many years (T. Simmons, The Nature 
        Conservancy, pers. comm). The newly discovered site in 
        Westport, Massachusetts is not used by ORVs, although it 
        receives heavy pedestrian use (S. von Oettingen, U.S. Fish and 
        Wildlife Service, pers. comm.).''
    In order to recover healthy populations of the Northeastern beach 
tiger beetle so that it can be removed from the Federal Threatened 
species list, the U.S. Fish and Wildlife Service has sought to re-
establish populations of the species in places where it has been 
extirpated. The Holgate Peninsula has been identified as a potential 
reintroduction site for the species based on the habitat conditions 
present there. To date however the Service has refrained from 
initiating a reintroduction program there because of concerns that 
continued motorized use of Holgate would doom it to failure. The 
Service has stated that Holgate would be an ``excellent'' 
reintroduction site if motorized use of the area were ended. 
Maintenance and enforcement of the Wilderness Act's prohibitions on 
motorized use of the Federal lands at Holgate would help to make 
reintroduction of a key ecological component of the peninsula more 
feasible, thereby helping to move the species itself one step closer to 
removal from the Threatened species list and leading to a healthier 
overall beach environment.
    The Seabeach amaranth is a sand-binding species of plant, listed as 
Threatened under the Endangered Species Act. Historically ranging from 
North Carolina to Massachusetts, the species has been extirpated from 6 
of the states within its former range, including until very recently, 
New Jersey. In the past year, the U.S. Fish and Wildlife Service has 
been investigating the Holgate Peninsula for returned occurrences of 
the species, an action that indicates the beach is one of the few 
remaining areas in the state offering the physical habitat necessary 
for the species to exist.
    To date, the Service has not documented a return of Seabeach 
amaranth to the Holgate Peninsula. Indeed, despite the presence of the 
necessary physical components for the species to re-establish itself at 
Holgate, the continued presence of motorized vehicles there is likely a 
contributing factor to the impairment of Sebeach amaranth recovery in 
the area. As the U.S. Fish and Wildlife Service (1996) points out in 
its recovery plan for the species:
        ``While seabeach amaranth populations are somewhat tolerant of 
        ORV use from December until May, the brittle, fleshy stems are 
        easily broken, and growing plants (May to December) do not 
        generally survive a single pass by a truck tire. Thus, even 
        minor beach traffic directly across the plants during the 
        growing season is detrimental, causing mortality and reduced 
        seed production.''
    The recovery plan also notes that ``Seabeach amaranth has a 
particularly close tie with piping plovers, very frequently occupying 
the same sites. Habitat management for one benefits the other, and no 
action taken to manage for one has harmed the other.'' The benefits 
provided to Piping plover via the existing seasonal restrictions of 
motorized vehicles are well recognized. We have also argued that 
extending the seasonal restrictions on motorized vehicles at Holgate 
would carry additional conservation and recovery benefits for the 
species. This extension would also benefit the reestablishment and 
recovery of the Seabeach amaranth at Holgate as it would keep motorized 
vehicles off of the beach during the growing season months when the 
species is vulnerable to ORV use.
    Congress has clearly stated its desire and intent to recover 
species listed as Threatened and Endangered under the Endangered 
Species Act, and to remove them from the lists of threatened and 
endangered species. It has also clearly stated that in order to do this 
the ecosystems on which those species depend must be conserved. 
Likewise, the National Academy of Sciences (1995b) has informed 
Congress of the indispensability of habitat protection to endangered 
species conservation and recovery. The Holgate Peninsula is clearly one 
such ecosystem whose conservation could be achieved, where species 
recovery opportunities could be enhanced by maintaining and enforcing 
existing Wilderness Act protections for the area with regard to motor 
vehicles. Enactment of H.R. 896 however will clearly contribute to the 
opposite outcome.
    Conservation of ecosystems is not exclusively a tenant of the 
Endangered Species Act but also the subject of a growing body of 
scientific literature dealing with the design of nature reserve 
systems. One point that is stressed is the need for ecosystem 
representation within nature reserve systems. Indeed, ``a central goal 
of conservation is representing a broad spectrum of natural communities 
in a network of protected areas. Representation is an example of an 
ecosystem approach to conservation'' and is often touted as being more 
efficient than single-species based conservation.'' (Noss and 
Cooperrider 1994).
    As pointed out above, Atlantic coast barrier island ecosystems in 
their native state, or a close approximation thereof, have become 
increasingly rare as a result of human population growth and the 
accompanying alteration of the landscape of the Atlantic Coastal Plain. 
Of those areas that remain essentially unmolested less than 20 have 
received partial protection as conservation reserves. Only 4 are a part 
of our national system of Wilderness Areas, enjoying the strongest land 
conservation measures available to them. One of these areas is the 
Holgate Peninsula. The Holgate Peninsula is one of only two such 
protected barrier islands in the New York Bight. It is also the only 
one along the New Jersey coast, a region of global ecological 
importance.
    Ecosystem conservation is one of the principal benefits of the 
Wilderness system and Wilderness Areas are increasingly important 
because of the ecological value they hold.
    Because undeveloped areas of barrier island are so rare on the 
landscape, and because they are even more rare within the national 
Wilderness conservation system, removing Wilderness designation or the 
full protection of the Wilderness Act from the Holgate Peninsula would 
be decisions that ignore the best available scientific information with 
regard to land conservation. In recent years Congress has increasingly 
stated its desire to see our land management agencies base their land 
use decisions on the best available scientific information. We would 
like to see Congress hold itself to the same standard by recognizing 
the necessity and value of including the Holgate area in our nation's 
system of Wilderness and rejecting H.R. 896.
    As part of New Jersey's public conservation land base, undeveloped 
barrier island ecosystems are even more rare and protection of them as 
Wilderness is exclusive to Holgate. New Jersey has approximately 
701,593 acres of public wildlands including: State forests and parks; 
wildlife management areas; national recreation areas; and, national 
wildlife refuges. Of these, 140,382 acres are Federally administered as 
national recreation area or national wildlife refuge. Federally 
protected Wilderness in New Jersey is limited to 10,341 acres. The 
3,660 acre Great Swamp Wilderness Area on the Great Swamp National 
Wildlife Refuge; and, the 6,681 acre Brigantine Wilderness on the Edwin 
B. Forsythe National Wildlife Refuge. In all, Wilderness accounts for 
only 1.4% of New Jersey's overall public land base, and only 7.3% of 
the Federal lands in the state. It can easily be said that New Jersey 
is a very Wilderness poor state, making what Wilderness Area's do exist 
that much more valuable for conserving both the ecological and non-
motorized recreation resource.
    The Holgate peninsula is a last bastion of undeveloped land in the 
most densely populated and heavily urbanized state in the nation. As 
stated at the beginning, The Holgate Unit of the Brigantine Wilderness 
is a single beach, encompassing approximately 2.5 miles. It is the only 
area of Wilderness beach in New Jersey whereas there are over two dozen 
other beaches in the state where the use of off-road vehicles are 
allowed, 18 miles of beach alone just to the north of Holgate. The 
Peninsula is a rare ecological community and offers some of the last 
habitat available for dwindling populations of our natural heritage. It 
is exactly the sort of place that Congress sought to conserve when it 
passed the Wilderness Act of 1964 ``in order to assure that an 
increasing population, accompanied by expanding settlement and growing 
mechanization, does not occupy and modify all areas within the United 
States and its possessions, leaving no lands designated for 
preservation and protection in their natural condition.'' This sub-
committee and all of Congress should reject H.R. 896. It should support 
the ongoing efforts of the U.S. Fish and Wildlife Service to enforce 
the law and end illegal motorized use of the Wilderness lands at 
Holgate so that its special values can be conserved, for our families 
and for our future.
                               REFERENCES
Bellis, V.J. 1995. Ecology of Maritime Forests of the Southern Atlantic 
        Coast: A Community Profile. National Biological Service, 
        Washington, D.C.
Bush, D. M., O.H. Pilkey, Jr. and W.J. Neal. 1996. Living by the Rules 
        of the Sea. Duke University Press, Durham, North Carolina
Code of Federal Regulations, 50 C.F.R. 17.11, 17.21 (1999)
J. Lubchenco, G.W. Allison, S.A. Navarrete, B.A. Menge, J.C. Castilla, 
        O. Defeo, C. Folke, O. Hussakin, T. Norton, A.M. Wood. 1995. 
        Coastal Systems. In V.H. Heywood, Global Biodiversity 
        Assessment. Published for the United Nations environment 
        programme by the Cambridge University Press, Cambridge, 
        England.
National Research Council, Ocean Studies Board and Water Science and 
        Technology Board, Commission on Geosciences, Environment and 
        Resources. 2000. Clean coastal waters: understanding and 
        reducing the effects of nutrient pollution. National Academy 
        Press, Washington D.C.
National Research Council, Committee on Beach Nourishment and 
        Protection, Marine Board and Commission on Engineering and 
        Technical Systems. 1995. Beach Nourishment and Protection. 
        National Academy Press, Washington D.C.
National Research Council, Committee on Scientific issues in the 
        Endangered Species Act, Board on Environmental Studies and 
        Toxicology, Commission on Life Sciences. 1995. Science and the 
        Endangered Species Act. National Academy Press, Washington D.C.
New Jersey Office of State Planning 1999. The New Jersey State 
        Development and Redevelopment Plan: Interim Plan. Appendix A. 
        Selected Population, Employment and Household Projections. 
        Trenton, New Jersey.
Noss, R. and Cooperrider, A.Y. 1994. Saving Nature's Legacy: Protecting 
        and Restoring Biodiversity. Island Press, Washington D.C.
Slater, R. and W. Odum. 1993. Maritime Communities. In Martin, W.H., 
        S.G. Boyce and A.C. Echternacht (eds), Biodiversity of 
        Southeastern United States Lowland Terrestrial Communities. 
        John Wiley and Sons, Inc., New York, New York
Terborgh et al. 1999. The Role of Top Carnivores in Regulating 
        Terrestrial Ecosystems. In Soule, M.E. and Terborgh, J. (eds), 
        Confidential Conservation: Scientific Foundations of Regional 
        Reserve Networks. Island Press, Washington, D.C.
U.S. Fish and Wildlife Service, 1994. Recovery Plan for Northeastern 
        Beach Tiger Beetle (Cincindela dorsalis dorsalis Say). Hadley, 
        Massachusetts.
U.S. Fish and Wildlife Service, 1996a. Recovery Plan for Seabeach 
        Amaranth (Amaranthus pumilus). Atlanta, Georgia
U.S. Fish and Wildlife Service, 1996b. Piping plover (Charadrius 
        melodus), Atlantic Coast Population, Revised Recovery Plan. 
        Hadley, Massachusetts.
                                 ______
                                 
    Mr. Saxton. I would also like to ask unanimous consent that 
Mr. Gilchrest's statement be placed in the record; the 
testimony of Mayor James Mancini, the mayor of Long Beach 
Township, New Jersey; and I guess that is it--the testimony of 
the Alliance for a Living Ocean. I am sorry.
    [The prepared statement of Mr. Mancini follows:]

Statement of James J. Mancini, Ocean County Freeholder and Mayor, Long 
                       Beach Township, New Jersey

    Good Morning. I am James Mancini, an Ocean County Freeholder for 
the past 19 years and Mayor of Long Beach Township since 1964. I am 
here today to speak in favor of H.R. 896, a bill introduced by 
Congressman Saxton that would redefine the boundary of the Holgate Unit 
of the Edwin B. Forsythe Wildlife Management Area. This new boundary 
would provide an access corridor along the waterline to allow surf 
fishermen in motor vehicles to continue traditional recreational surf 
fishing along the Holgate beachfront. I want to stress that this is a 
traditional recreational activity on Long Beach Island, long predating 
the establishment of the Edwin B. Forsythe Wildlife Refuge, or even my 
37 years as Mayor. Fishermen have been driving vehicles along the beach 
to get to where the fish are as long as there have been motor vehicles 
that could make the trip through the sand.
    Since the establishment of the Holgate Unit there has been an 
ongoing debate between the public and officials representing the 
recreational fishing community and the U.S. Fish and Wildlife Service 
concerning motor vehicles on the beach. The U.S. Fish and Wildlife 
Service is charged with protecting wildlife within the National 
Wildlife Refuge System. This is their primary goal. Accordingly, public 
access to Refuge property is extremely limited by the Service in an 
effort to provide a habitat where wildlife can thrive unimpeded by 
humans. Since the U.S. Fish and Wildlife Service views any access to 
the Holgate Unit by motor vehicles as an encroachment on the habitat of 
the Piping Plover, there is a direct conflict between the primary goal 
of the Wildlife Refuge System and the recreational fishing community 
who have fished along the beach at Holgate for generations. This is a 
conflict that I do not believe will be resolved as long as the 
beachfront is considered part of the Wildlife Refuge System.
    In 1990, an agreement was reached between the recreational fishing 
community and the U.S. Fish and Wildlife Service to close the Holgate 
Unit to motor vehicles during the Piping Plover breeding season. Being 
sportsmen and wildlife enthusiasts at heart, the fishermen agreed to 
this seasonal closure which runs from April to August. Now, in 2001 the 
U.S. Fish and Wildlife Service is seeking to break this agreement and 
is again trying to bar motor vehicles from Holgate year round. Although 
it is exasperating to have to deal with this issue again, we should not 
be surprised. The U.S. Fish and Wildlife Service is simply working to 
achieve their primary goals concerning the National Wildlife Refuge 
System and the U.S. Fish and Wildlife Service should not be surprised 
at the wave of public opposition to their proposal. From our view, we 
that seek to preserve the public's access to public lands settled this 
matter in 1990. We compromised then, and there is no room to compromise 
now.
    Over the years, the Ocean County Board of Chosen Freeholders has 
adopted a number of resolutions opposing the closure of the Holgate 
Unit to motor vehicles on a year round basis. Most recently, comments 
were sent to the Department of the Interior by both Freeholder Director 
John P. Kelly and myself, urging the Department to stop further 
consideration of any Refuge Plan that includes a year round vehicle ban 
on Holgate. Attached to this statement are copies of those recent 
letters. The total number of people who have posted negative comments 
or questioned this proposal is overwhelming. They range from Federal, 
state and local officials, including the New Jersey Department of 
Environmental Protection, all the way down to individual surf fishermen 
who simply want to enjoy the beaches that their tax dollars and fees 
support. A year-round vehicle ban on Holgate would result in minimal 
benefits to the Piping Plover population and would deprive the surf 
fishing community of one of the most consistently productive surf 
fishing areas along the Jersey Shore, an area that cannot reasonably be 
accessed by surf fishermen without a motor vehicle. Unfortunately, 
public access for fishing is only a secondary issue in the management 
of the National Wildlife Refuges. The welfare of the wildlife comes 
first. Therefore, I have no doubt that the U.S. Fish and Wildlife 
Service will continue to over-rule public access issues in favor of 
even minor benefits to wildlife.
    There are tax and economic implications associated with a year-
round motor vehicle ban at Holgate that need to be considered as well. 
The beaches are the foundation of Ocean County's largest industry, 
coastal tourism, an industry whose viability is directly and totally 
dependent on access to those beaches. An inaccessible beach is of 
little use to the tourists who come to the shore to spend their hard 
earned money. Tourism in Ocean County generates an estimated $1 billion 
annually. In total, New Jersey's coastal economy returns over $3 
billion per year to the Federal Government in tax revenues. Denying 
reasonable access to the beach at Holgate as proposed by the U.S. Fish 
and Wildlife Service would compromise these tax revenues, particularly 
in Long Beach Township where I serve as Mayor.
    That is why the passage of Congressman Saxton's bill, H.R. 896 is 
so important. This bill will re-align the boundary of the Holgate Unit 
to create an access corridor along the high water line at Holgate that 
would not be located within the Wildlife Refuge. This would allow for 
the passage of motor vehicles along the beachfront, and would also 
relieve the U.S. Fish and Wildlife Service of its regulatory obligation 
to place wildlife protection above public access in this area. It would 
essentially implement by law the compromise that was agreed to by all 
parties, local, state and Federal, in 1990.
    I want to thank you for the opportunity to testify here today and I 
also want to thank Congressman Saxton for drafting this bill, which 
will go a long way towards alleviating a controversial issue that I, as 
an Ocean County Freeholder and the Mayor of Long Beach Township, have 
been dealing with for many years on behalf of the people who elected me 
to those offices.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2930.006
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2930.007
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2930.008
                                 
    [The prepared statement of the Alliance for a Living Ocean 
follows:]
[GRAPHIC] [TIFF OMITTED] T2930.001

[GRAPHIC] [TIFF OMITTED] T2930.002

    Mr. Saxton. Mr. Ashe?

STATEMENT OF DANIEL M. ASHE, ASSISTANT DIRECTOR FOR REFUGES AND 
            WILDLIFE, U.S. FISH AND WILDLIFE SERVICE

    Mr. Ashe. Thank you, Mr. Chairman.
    And I want to thank you for the opportunity to present our 
views on H.R. 896. And it is a sad duty, indeed, to tell you 
that we do not support enactment of H.R. 896.
    And I appreciate your statements, and I hope that you know, 
in some respects, I have to say that I have been as frustrated 
as you. But I think, over the last 2 years, as we have looked 
at this issue from every different angle, we have realized that 
there this no latitude.
    And we have asked our attorneys on numerous occasions and 
the question from numerous perspectives. And the issue remains 
that the Holgate Unit of the Brigantine Wilderness was added to 
the national wilderness preservation system by Congress without 
any exception from the prohibitions in the Wilderness Act.
    I know what you say about assurances were made. I think 
that as I look at the record during that period of time, what 
has been laid out are statements that were made by the 
Administration at the time of submission that existing 
recreational uses would not be affected. The statements that 
were being made by the Administration were relative to the 
Administration's proposal, which did not include the Holgate 
Unit.
    And at the time the Administration testified, they were 
asked questions about the Holgate Unit, and their position was 
that the unit should not be included because of the level of 
public use that was going on there and because of the motorized 
vehicle use that was going on on the refuge.
    So I think the Administration at the time made it clear 
that there were conflicting uses occurring on the Holgate 
Peninsula. And I think their statements about the lack of 
impact on ongoing recreational uses were not relevant to 
Holgate because Holgate was not in their proposed package.
    I think that as time passed, you are correct, I think 
assurances were made. I think people glossed over the issue, 
including the Fish and Wildlife Service. And the Service is 
guilty of glossing over the issue of motor vehicle use between 
the tidelands and the area above mean high tide.
    You pointed out that the regulation, our regulation, allows 
motorized equipment. In response to our conversations over the 
last couple of years, I did go back and I again asked out 
attorneys about that regulation, and can we exercise discretion 
under the regulation.
    And what they advised me is that our regulation on that 
point is unlawful, that the Wilderness Act, in fact, authorizes 
or gives the Secretary discretion to allow the use of airplanes 
and motor boats where those uses are preexisting. The Service's 
regulation broadened the language in the law, which does not 
allow the grandfathering of motorized equipment.
    And so, again, in response to our discussions over the last 
several years, I did go back, in good faith, and ask those 
questions of our attorneys. And the response that we got was, 
in fact, that our regulations, the Service's regulation, on 
that point is an unlawful expansion of the letter of the law in 
terms of the Wilderness Act.
    I also agree that the agreement that was stricken in 1990, 
again, I think a good-faith agreement. But the agreement itself 
recognizes that, as you read, that the tidelands, the 
motorized-vehicles use could occur on the tidelands, the state-
owned tidelands, and that certainly is still our position 
today.
    I think where that agreement overstepped the boundary of 
the law is when the Service in that agreement did say that 
people could park within the wilderness. And again, as we put 
that question again and again to our attorneys, they have told 
us in very black and white terms, that we may not authorize the 
use of motor vehicles within the wilderness unless we make a 
determination that it necessary for the purposes of 
administering the area as wilderness.
    And so, again, I think that the Service overstepped its 
bounds in writing that agreement. And that doesn't make it any 
less frustrating to you, I am sure. But I think that is the 
case.
    You covered the factual basis pretty well, Mr. Chairman. I 
will just summarize by saying that we will continue to be 
committed to trying to work together with you to find 
responsible ways of allowing public use on the peninsula, 
especially fishing.
    Fishing continues to be an authorized use. And we do 
encourage people to visit the peninsula during the time when 
the seasonal closures are lifted, to walk, to fish.
    And we do believe there are other ways to get out to the 
tip of the peninsula to enjoy those activities. And we will 
look for ways to accommodate those other methods.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ashe follows:]

Statement of Dan Ashe, Chief, National Wildlife Refuge System, Fish and 
           Wildlife Service, U.S. Department of the Interior

    Mr. Chairman, thank you for this opportunity to present our views 
on H.R. 896, a bill to adjust the boundaries of the Holgate Unit of the 
Brigantine Wilderness Area within the Edwin B. Forsythe National 
Wildlife Refuge. This adjustment will allow motor vehicle access to the 
peninsula at times of high tide, during which there would otherwise be 
no vehicular access pursuant to the Wilderness Act of 1964 (P.L. 88-
577). The U.S. Fish and Wildlife Service (Service) does not support 
this legislation.
    The Brigantine National Wildlife Refuge was established in 1939 
under provisions of the Migratory Bird Conservation Act to provide 
estuarine and nesting habitats for migratory waterfowl and shorebirds. 
In 1960, the Federal Government acquired the Holgate area from the 
National Audubon Society, and it became part of the Brigantine NWR. In 
1975, Congress designated about 6,600 acres of the refuge--including 
the Holgate area--as the Brigantine Wilderness Area. Congress combined 
the Brigantine NWR with the Barnegat NWR in 1984 and renamed them the 
Edwin B. Forsythe NWR. The refuge boundary and the wilderness boundary 
for the Holgate Unit is the mean high tide line. The State of New 
Jersey owns the tidelands portion of the beach, or intertidal zone (the 
area below the mean high tide line), and the State's Tidelands Resource 
Council controls public use in that zone.
    The Brigantine Wilderness is one of over 600 wilderness units in 
the National Wilderness Preservation System (NWPS). The NWPS is a 
network of those areas designated by Congress as wilderness, and 
managed by four Federal agencies: the U.S. Fish and Wildlife Service, 
the National Park Service, the Bureau of Land Management, and the U.S. 
Forest Service. Of the more than 105 million acres in the Wilderness 
System, 20.6 million are managed by the Service on 65 refuges. 
Wilderness comprises approximately 20 percent of the Refuge System.
    The E.B. Forsythe NWR is a traditional nesting, migration, and 
wintering area for waterfowl, marsh birds, and shore birds. The 
Brigantine Wilderness Area is significant ecologically and geologically 
in that it comprises unspoiled barrier-beach islands with a complex of 
undeveloped and unspoiled marsh-estuarian islands. This habitat in 
particular, and barrier beaches in general, has become extremely rare 
in the highly developed northeast coast. The E.B. Forsythe NWR is a 
mere 10 miles north of Atlantic City, yet is home to some of the most 
important migratory bird habitat in the National Wildlife Refuge 
System. The physical location, geography, and environment have also 
helped to preserve the wilderness values of the area.
    The definition of ``wilderness'' was provided by Congress in the 
1964 Wilderness Act. The Act states that:
        A wilderness, in contrast with those areas where man and his 
        own works dominate the landscape, is hereby recognized as an 
        area where the earth and its community of life are untrammeled 
        by man, where man himself is a visitor who does not remain. An 
        area of wilderness is further defined to mean in this Act an 
        area of undeveloped Federal land retaining its primeval 
        character and influence, without permanent improvements or 
        human habitation, which is protected and managed so as to 
        preserve its natural conditions and which (1) generally appears 
        to have been affected primarily by the forces of nature, with 
        the imprint of man's work substantially unnoticeable; (2) has 
        outstanding opportunities for solitude or a primitive and 
        unconfined type of recreation; (3) has at least five thousand 
        acres of land or is of sufficient size as to make practicable 
        its preservation and use in an unimpaired condition; and (4) 
        may also contain ecological, geological, or other features of 
        scientific, educational, scenic, or historical value.
    Congress recognized the wilderness qualities of the refuge in 1975, 
when it designated the Brigantine Wilderness Area, including the 256 
acres (2.5 miles of beach and adjacent dunes) of the Holgate Unit; the 
only Federal wilderness on the entire New Jersey shoreline.
    The Wilderness Act of 1964 prohibits the public use of motor 
vehicles in all wilderness areas, including the Brigantine Wilderness. 
The 1977 Service policy for implementing the Wilderness Act stated that 
public travel in a wilderness area would normally be accomplished by 
foot, horseback, or non-motorized boating, unless exceptions were 
granted by statute. This prohibition against the public use of motor 
vehicles had been frequently ignored by the public and refuge managers 
in the Holgate Unit, at least partly because of the difficulty in 
determining the location of the mean high water line.
    In 1988, the New Jersey Tidelands Resource Council approved a 
three-year seasonal closure from April 15 into August of the area below 
the mean high tide line of the Holgate Beach to all public uses. The 
purpose of the closure was to allow the State of New Jersey to study 
nesting piping plovers, a threatened species. The Service seasonally 
closed the entire Holgate Unit above the mean high tide line to all 
public uses during this time to complement the Council action. The 
State and Federal action together seasonally halted all public use in 
the entire Holgate peninsula.
    In 1990, the ``Public Use Management for Holgate Unit'' plan 
instituted a permanent seasonal public use closure (April 1 into 
August) of the Holgate Unit and the adjoining intertidal zone 
(tidelands) to protect piping plovers. The plan listed ``operation of 
motorized vehicles in a wilderness area'' as a prohibited activity. 
However, the plan also allowed over-the-sand vehicles to park in 
wilderness, to ensure that the vehicles were not inundated by the 
incoming tide. This provision does not comply with the Wilderness Act 
and has, in practice, authorized motor vehicle use within the boundary 
of the wilderness area.
    In 1996, the refuge manager of E.B. Forsythe NWR began the process 
of developing a Comprehensive Conservation Plan, or CCP, for the 
refuge. This involved collecting information on natural resources and 
public use, developing goals, holding numerous public meetings, 
distributing workbooks to collect public comments and, ultimately, 
drafting a CCP/Environmental Assessment, which was released for public 
review and comment in July of 2000. This process provided the Service 
an opportunity to remedy its past inconsistent enforcement of the 
prohibition of motor vehicle use in the Holgate Unit under the 
Wilderness Act.
    Secretary Gale Norton has committed that the Department of the 
Interior will be a good steward of our lands and lakes and rivers. This 
means that the Department does intend to enforce the requirements of 
the Wilderness Act in wilderness areas. While the Department believes 
that allowing motor vehicles to traverse and park between the 
wilderness area of the Holgate Unit and the ocean would undermine the 
wild character of the seashore, the Department recognizes that it is 
the prerogative of Congress to designate wilderness areas and to adjust 
boundaries.
    I want to conclude by ensuring the Members of this Committee that 
the Department of the Interior and the U.S. Fish and Wildlife Service 
will carry out the Secretary's mandate regarding the four C's of 
consultation, cooperation and communication--all in the service of 
conservation. Based on that commitment, we want to work with you and 
concerned members of the public to identify methods to encourage 
enjoyment of Holgate Beach, such as fishing, while still preserving the 
area's wilderness character.
    This concludes my prepared statement. I would welcome the 
opportunity to respond to any questions you may have.
                                 ______
                                 
    Mr. Saxton. Mr. McDowell?

  STATEMENT OF ROBERT MCDOWELL, DIVISION DIRECTOR OF FISH AND 
  WILDLIFE, NEW JERSEY DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Mr. McDowell. Thank you, Mr. Chairman, for the opportunity 
for the New Jersey Division of Fish and Wildlife, of which I am 
the director, to support H.R. 896.
    I think this bill represents a correction of a mistake and 
I am a little shocked that the Service isn't in favor of the 
bill since the bill would correct the frustrations related to 
problems that have occurred there because of public access 
issues.
    I think this bill is not really about biological integrity. 
I don't think that is an issue. I don't think ecological 
integrity is an issue.
    I think the bill is really about correcting a mistake that 
was made many years ago and fulfilling public promises that 
suddenly have become no longer a promise.
    I think you should know that it is about 2.75 miles from 
the parking area all the way to the tip of Holgate. This makes 
it extremely difficult for handicapped people to walk that 
distance, for folks to gain access to it who are healthy 
overwise. But in some cases, just carrying the gear down there 
is a problem. Keeping up with the migrating fish is another 
issue.
    And so, in order to maintain surf fishing in its 
traditional way, I think this bill has to be passed.
    You are going to exclude a lot of people from using this 
resource, ``beach buggies'' used for surf fishing, which has 
been traditional.
    I think the options that are offered in the Service's plan 
are not workable. They have offered some idea that there would 
be a boat that would pick people up who wanted to make it to 
the end of Holgate.
    If you look at surf fishermen and realize that tides make a 
difference in their activity. What time of day that they want 
to fish is not a barrier; it is when the fish are there. So at 
2 o'clock in the morning, they want to go because the tide is 
going to be right and the fish are there.
    So having a ferry or something, which has been offered in 
the plan, is certainly not feasible.
    I think this legislation is necessary to preserve the long-
standing tradition of surf fishing at Holgate, as I stated 
earlier. And, on numerous occasions over the last 30 years, as 
the Chairman spoke about, these traditional uses have been 
maintained. So, in fact, there is a public promise that this 
will continue.
    I might point out, in March 1973, there was testimony given 
by Curtis Bohlen, deputy assistant secretary at the Department 
of Interior for Fish and Wildlife, and that testimony was, 
there will be no change in public use due to the wilderness 
status.
    Now, the public perception doesn't include the fact that 
Holgate was added afterwards. But there were no changes in the 
regulatory posture of the Fish and Wildlife Service after that 
time. And so the public is still convinced, and public trust is 
that they will be able to use their beach buggy, get their 
pass, and go surf fishing as they have in the past.
    In 1990, the stakeholders' meeting that you spoke about, 
Mr. Chairman, we were there. We had discussions about beach-
nesting birds. We have co-authority over endangered species. 
And, clearly, the agreement, which the fishermen reluctantly 
but did agree to was the beach closure that you mentioned 
earlier.
    And so the fishermen have been more than willing to 
compromise.
    Our biologists report, because of the closure working and 
the fact that fishermen access the beach, there are no impacts 
on piping plovers at this time.
    The Service's draft comprehensive conservation plan--
because fishing is one of the six priorities of the public use 
policy dictated in the Refuge Improvement Act, it is hard to 
see why this a conflict that needs to be brought up now.
    Two weeks ago, I had the opportunity to meet with the 
regional director and U.S. Fish and Wildlife Service staff 
about Holgate and the access issue, access being one of the 
biggest issues in New Jersey in terms of recreational use of 
the Fish and Wildlife resource. Although sympathetic to our 
concerns, the Service indicated it didn't have the legal 
authority to permit vehicle use.
    There is no, therefore, any alternative except pass this 
law. And we are talking about a very small piece of land; 30 
feet, I believe, it was the bill says, by 2.75 miles.
    You know, fishing is designated as a priority use, so it 
would seem to me the Service would go along with this and 
restore the public's trust in public agencies that manage 
public land.
    H.R. 896 seems to be the only solution to provide 
assurances given to fishermen over the years. Environmentally 
responsible fishermen access and safe access is certainly in 
the best interest of the public. It will still maintain the 
wilderness experience.
    These kinds of beaches are dearly loved by New Jersey 
citizens, with dunes and beach being maintained in an 
environmentally sensitive way. And they certainly respect them.
    In summary, H.R. 896 will preserve the long-standing 
tradition of surf fishing, with the use of motorized vehicles 
at Holgate. And the assurances given to fishermen over the 
years will still provide for the protection necessary for both 
the resources at the site and the fish wildlife resources.
    So I thank you deeply for the opportunity to support this 
legislation.
    [The prepared statement of Mr. McDowell follows:]

Statement of Robert McDowell, Director, Division of Fish and Wildlife, 
           New Jersey Department of Environmental Protection

    Mr. Chairman and members of the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans, I want to thank you for holding this 
hearing today in order to gather important testimony pertaining to H.R. 
896.
    As the Director of New Jersey's Division of Fish and Wildlife, I am 
stating for the record that New Jersey strongly supports H.R. 896.
    The U.S. Fish and Wildlife Service has just completed adoption of a 
Comprehensive Conservation Plan for the New Jersey Coast Refuges (Edwin 
B. Forsythe and Cape May Wildlife Refuges). The management alternative 
selected for the Forsythe Refuge prohibits motor vehicle use year-round 
in the Brigantine Wilderness Area above the mean high tide line. The 
wilderness area is located at the southern most tip of the Holgate Unit 
on Long Beach Island, three miles from the refuge's parking areas. Surf 
fishing at this area has been a popular traditional use for decades. As 
a result of the motor vehicle ban, surf fishermen will no longer be 
able to access the popular surf fishing locations at the Holgate Unit.
    There are essentially no real options for surf fishermen to 
continue to utilize Holgate if motor vehicles are prohibited. Few 
people are capable of lugging the necessary gear and tackle for the 
three mile walk on the sand, both in and out of the Holgate Unit. I 
have serious reservations about the U.S. Fish and Wildlife Service's 
``initiation of efforts to establish a seasonal boat concession to 
ferry anglers to the southern tip of the Holgate Peninsula'' as they 
suggested in the Draft Comprehensive Conservation Plan. The Service 
provided no details about this ``seasonal boat concession''. Some very 
important information that was not provided include:
    <bullet> LWhat is meant by seasonal?
    <bullet> LWhat is the frequency of the boat departures/return?
    <bullet> LWill it run 24 hours a day?
    <bullet> LWhat about weather considerations?
    <bullet> LWill there be a fee involved to access this area 
traditionally accessible to the public?
    Due to these concerns I do not believe the ``seasonal boat 
concession'' is a viable alternative to provide fishermen access to 
Holgate's beach.
    This legislation is necessary to preserve a long-standing tradition 
of surf fishing at the Holgate Unit of the Brigantine Wilderness Area 
in a safe and traditional manner. On numerous occasions over the last 
30 years, assurances have been made that traditional uses, with 
particular emphasis on fishermen access, in the Brigantine Wilderness 
Area will remain unchanged. To emphasize my point, I would just like to 
review a brief history of this action.
    In a U.S. Fish and Wildlife Service document entitled the 1971 
Brigantine Wilderness Proposal under the section, ``Social and Economic 
Consideration'' it states ``There will be no change in public use due 
to wilderness status. Fishermen and nature enthusiasts would experience 
no change in access.''
    In March 1973, in testimony given before the Committee on Interior 
and Insular Affairs on the Designation of Brigantine Wilderness Area 
(H.R. 5422), E. U. Curtis Bohlen, Deputy Assistant Secretary of the 
Department of Interior for Fish and Wildlife and Parks testified that, 
``there will be no change in public use due to wilderness status, boats 
would still be permitted to travel the waterways below mean high tide 
and land on beaches. Fishermen and nature enthusiasts would experience 
no change in access and would find added pleasure in the assurance of 
permanent protection for the solitude and pristine beauty of the 
proposed wilderness area''.
    In January 1975, Congress designated 6,600 acres of Forsythe Refuge 
as the Brigantine Wilderness (P.L. 93-632). Surf fishermen were 
permitted continued access to Holgate and the traditional use 
continued.
    In 1990, stakeholders, including Federal and State agencies, 
fishermen groups, local officials and the Forsythe management worked 
hard to formalize an agreement for the seasonal closure of the beach 
from April 15 through August 31 in order to protect piping plovers, a 
Federal and state listed endangered species. Prior to the seasonal 
closure, there was significant risk that off road vehicles could 
accidentally kill plover chicks and/or impede their movement between 
the upper beach and the tide line where they feed. Off road vehicle use 
could also result in diminished food resources for piping plovers, if 
they were driven through the tidal lines where the plovers feed. Prior 
to the seasonal closure, off road vehicles used at Holgate may have 
affected state endangered species including the least tern and black 
skimmer that also nest on the beach at Holgate. I would like to 
emphasize that since the seasonal closure has been in effect, I believe 
that adverse impacts to the piping plover or their essential habitat 
resulting from off road vehicle use of Holgate have been eliminated.
    The fishermen and local officials that worked with the USFWS in the 
past to support endangered species protections are now faced with a 
year-round closure that is not designed to protect endangered species.
    The Service's Draft Comprehensive Conservation Plan states that, 
``Because fishing is one of six priority general public uses of the 
Refuge system, it'shall receive priority consideration in refuge 
planning and management.'' I fail to see how the Service seriously 
considered fishing as a priority when the decision to prevent fishing 
access to this area was made. Public review of the Draft Comprehensive 
Conservation Plan generated an overwhelming majority of adverse 
comments to the year round closure to Holgate from fishermen, local 
officials, the NJ Division of Fish and Wildlife, NJ congressional 
representatives and former NJ Governor Christine Todd Whitman. All 
requests to the Service for a rational resolution to this issue have 
not been answered.
    Two weeks ago, I had the opportunity to meet with USFWS regional 
staff, about the Holgate access issue. Although sympathetic to the 
State's concerns, the Service indicated the U.S. Fish and Wildlife 
Service did not have the legal authority to permit motor vehicle use in 
wilderness areas. There is, therefore, no alternative but to pass H.R. 
896 to ensure continued access for surf fishermen.
    I believe the record on this issue is clear. Fishing is designated 
a priority use in the Federal Refuge system. Time and again, it has 
been stated that ``wilderness'' status at the Brigantine Wilderness 
Area will not affect fishermen's access and there is no question of the 
traditional use of surf fishing with the use of motorized vehicles at 
Holgate.
    H.R. 896 will provide the assurances given to fishermen over the 
last 30 years. A narrow transition zone for vehicle use above the high 
tide line to allow safe, environmentally responsible fishermen access 
and parking will not have a negative impact on the ``wilderness area'' 
and ``wilderness experience''. In fact, surf fishing has always been 
part of the wilderness experience at Holgate. This bill further 
acknowledges the importance of management of the area for the piping 
plover and allows the Secretary of Interior to continue to restrict 
access during the breeding season.
    In summary, H.R. 896 will preserve the long-standing tradition of 
surf fishing at Holgate and provide the assurances given fishermen over 
the years while still protecting the piping plover. I encourage you to 
support and release H.R. 896 from committee.
    Thank you for the opportunity to testify today on this legislation. 
I would be happy to answer any questions.
                                 ______
                                 
    Mr. Saxton. Thank you very much, Mr. Director.
    Freeholder Kelly?

 STATEMENT OF JOHN P. KELLY, FREEHOLDER DIRECTOR, OCEAN COUNTY 
                      BOARD OF FREEHOLDERS

    Mr. Kelly. Thank you very much. And, first, I want to thank 
you, Congressman Saxton, a longtime friend and one who has 
discussed this issue with the board of freeholders for a number 
of years, to invite me here this morning.
    And it should come as no surprise that I am here today to 
speak in favor of H.R. 896 that was introduced by Congressman 
Saxton, one that would redefine the boundary of the Holgate 
Unit of the Edwin B. Forsythe wildlife management area.
    This new boundary would provide an access corridor along 
the waterline to allow surf fishermen in motor vehicles to 
continue traditional recreation surf fishing along the Holgate 
beachfront.
    I want to stress that this is a traditional recreational 
activity on Long Beach Island, long predating the establishment 
of the Edwin B. Forsythe National Wildlife Refuge. Fishermen 
have been driving vehicles there for as long as there have been 
vehicles that could traverse the sand.
    I have this testimony that I have given in writing. I 
wanted to hold a dialogue today with Members of Congress about 
public trust.
    And I was just frustrated and shocked to hear Mr. Ashe talk 
about the fact that he went to his attorneys to ask about 
whether in fact this would be allowed or not, and now opposes 
the bill because some attorney said that, in fact, the statutes 
won't allow it.
    Well, we can agree or disagree that in the legislation 
today it is allowed or not allowed. But there can be no doubt 
that H.R. 896 would allow this traditional use.
    And let me tell you why it is important. There is a public 
trust issue. It was discussed here by the DEP. And the public 
trust is between the people and their representatives, whether 
those representatives are from the halls of Congress, the board 
of freeholders, or the mayor.
    We hold a public trust. And when we agree with the people 
of our area that there is a certain thing that we will allow, 
whatever that may be--this time it is public access--then I 
think that we ought reach our agreement.
    And you want to know what? They have kept their agreement. 
The sportsmen that use this facility, the outdoor sportsmen, 
are first and foremost environmentalists. They care about the 
environmental needs of Ocean County as much as anyone that sits 
in Washington, DC. I guarantee it. I represent them locally. I 
know how much they care.
    And in fact, it was already talked about twice this 
morning, but in 1990, there came an issue about the piping 
plover and whether or not there was a problem with the piping 
plover. And even though they didn't agree with it in their 
heart, they agreed that they will go along with the fact that 
we closed that refuge to all vehicle traffic from April to 
August each year, because that is the breeding season of this 
bird. And they have kept that promise.
    They have kept their promise to maintain this area in a 
pristine manner, and it has been done.
    H.R. 896 does not remove this area from the wildlife 
refuge. In fact, it maintains it as a wildlife refuge. It 
simply allows a traditional use, one that has been met with 
responsibly to continue into the future.
    I think it is a trust that we hold with the outdoor 
sportsmen. I think we should continue to do that. I appreciate 
this bill, and it has the full support and endorsement of the 
Ocean County Board of Chosen Freeholders, and we hope that it 
will be passed.
    [The prepared statement of Mr. Kelly follows:]

Statement of John P. Kelly, Ocean County Freeholder Director and Mayor, 
                          Eagleswood Township

    Good Morning. I am John Kelly, Ocean County Freeholder Director and 
Mayor of Eagleswood Township. I am here today to speak in favor of H.R. 
896, a bill introduced by Congressman Saxton that would redefine the 
boundary of the Holgate Unit of the Edwin B. Forsythe Wildlife 
Management Area. This new boundary would provide an access corridor 
along the waterline to allow surf fishermen in motor vehicles to 
continue traditional recreational surf fishing along the Holgate 
beachfront. I want to stress that this is a traditional recreational 
activity on Long Beach Island, long predating the establishment of the 
Edwin B. Forsythe Wildlife Refuge. Fishermen have been driving vehicles 
along the beach to get to where the fish are as long as there have been 
motor vehicles that could make the trip through the sand.
    Since the establishment of the Holgate Unit there has been an 
ongoing debate between the public and officials representing the 
recreational fishing community and the U.S. Fish and Wildlife Service 
concerning motor vehicles on the beach. The U.S. Fish and Wildlife 
Service is charged with protecting wildlife within the National 
Wildlife Refuge System. This is their primary goal. Accordingly, public 
access to Refuge property is extremely limited by the Service in an 
effort to provide a habitat where wildlife can thrive unimpeded by 
humans. Since the U.S. Fish and Wildlife Service views any access to 
the Holgate Unit by motor vehicles as an encroachment on the habitat of 
the Piping Plover, there is a direct conflict between the primary goal 
of the Wildlife Refuge System and the recreational fishing community 
who have fished along the beach at Holgate for generations. This is a 
conflict that I do not believe will be resolved as long as the 
beachfront is considered part of the Wildlife Refuge System.
    In 1990, an agreement was reached between the recreational fishing 
community and the U.S. Fish and Wildlife Service to close the Holgate 
Unit to motor vehicles during the Piping Plover breeding season. Being 
sportsmen and wildlife enthusiasts at heart, the fishermen agreed to 
this seasonal closure which runs from April to August. Now, in 2001 the 
U.S. Fish and Wildlife Service is seeking to break this agreement and 
is again trying to bar motor vehicles from Holgate year round. Although 
it is exasperating to have to deal with this issue again, we should not 
be surprised. The U.S. Fish and Wildlife Service is simply working to 
achieve their primary goals concerning the National Wildlife Refuge 
System and the U.S. Fish and Wildlife Service should not be surprised 
at the wave of public opposition to their proposal. From our view, we 
that seek to preserve the public's access to public lands settled this 
matter in 1990. We compromised then, and there is no room to compromise 
now.
    Over the years, the Ocean County Board of Chosen Freeholders has 
adopted a number of resolutions opposing the closure of the Holgate 
Unit to motor vehicles on a year round basis. Most recently, comments 
were sent to the Department of the Interior by both Freeholder James J. 
Mancini, who also serves as the Mayor of Long Beach Township and 
myself, urging the Department to stop further consideration of any 
Refuge Plan that includes a year round vehicle ban on Holgate. Attached 
to this statement are copies of those recent letters. The total number 
of people who have posted negative comments or questioned this proposal 
is overwhelming. They range from Federal, state and local officials, 
including the New Jersey Department of Environmental Protection, all 
the way down to individual surf fishermen who simply want to enjoy the 
beaches that their tax dollars and fees support. A year-round vehicle 
ban on Holgate would result in minimal benefits to the Piping Plover 
population and would deprive the surf fishing community of one of the 
most consistently productive surf fishing areas along the Jersey Shore, 
an area that cannot reasonably be accessed by surf fishermen without a 
motor vehicle. Unfortunately, public access for fishing is only a 
secondary issue in the management of the National Wildlife Refuges. The 
welfare of the wildlife comes first. Therefore, I have no doubt that 
the U.S. Fish and Wildlife Service will continue to over-rule public 
access issues in favor of even minor benefits to wildlife.
    There are tax and economic implications associated with a year-
round motor vehicle ban at Holgate that need to be considered as well. 
The beaches are the foundation of Ocean County's largest industry, 
coastal tourism, an industry whose viability is directly and totally 
dependent on access to those beaches. An inaccessible beach is of 
little use to the tourists who come to the shore to spend their hard 
earned money. Tourism in Ocean County generates an estimated $1 billion 
annually. In total, New Jersey's coastal economy returns over $3 
billion per year to the Federal Government in tax revenues. Denying 
reasonable access to the beach at Holgate as proposed by the U.S. Fish 
and Wildlife Service would compromise these tax revenues, particularly 
on Long Beach Island.
    That is why the passage of Congressman Saxton's bill, H.R. 896 is 
so important. This bill will re-align the boundary of the Holgate Unit 
to create an access corridor along the high water line at Holgate that 
would not be located within the Wildlife Refuge. This would allow for 
the passage of motor vehicles along the beachfront, and would also 
relieve the U.S. Fish and Wildlife Service of its regulatory obligation 
to place wildlife protection above public access in this area. It would 
essentially implement by law the compromise that was agreed to by all 
parties, local, state and Federal, in 1990.
    I want to thank you for the opportunity to testify here today and I 
also want to thank Congressman Saxton for drafting this bill, which 
will go a long way towards alleviating a controversial issue that the 
Ocean County Board of Chosen Freeholders has been dealing with for many 
years on behalf of the people of Ocean County.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2930.009
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2930.010
                                 
                                 [GRAPHIC] [TIFF OMITTED] T2930.011
                                 
    Mr. Saxton. Freeholder Kelly, thank you very much.
    I can tell how strongly you meant those words, and we 
appreciate you coming here to share that with us.
    Mr. Savadove?

      STATEMENT OF LARRY SAVADOVE, BEACH HAVEN, NEW JERSEY

    Mr. Savadove. Thanks for having me. I am happy to be here 
and glad to add my voice.
    My name is Larry Savadove. I live on Long Beach Island in 
New Jersey. I am a contributing editor to several publications 
there, and I have written about environmental topics, but I am 
here as a private citizen.
    I am here to plead for a small bit of wilderness at the tip 
of narrow island in a state that would be anybody's last guess 
as a place where you could find any wilderness at all.
    What is known as the Holgate end of my island is part of 
the Edwin B. Forsythe National Wildlife Refuge, an amazing put-
together of salt marshes, wetlands, sedge islands in the bay, 
and what snippets of beach have managed to survive. It is a 
place where piping plovers and black skimmers breed and spawn, 
gulls congregate, migrating birds take a break.
    But I am not pleading for their sake. I am pleading for 
ours.
    Long Beach Island is popular vacation spot. During most of 
the year, you will find about 5,000 people at any one time 
strung along its 18 miles.
    But during the summer, the population shoots up to about 
150,000. They stay in everything from trailer parks to 
multimillion-dollar mansions. The place has gotten so popular, 
there are very empty spaces left.
    We barely managed to save the dunes, which some property 
owners wanted to cut down because they obstructed the view. 
There are almost no bay beaches left, and most of the marshes 
are gone.
    By some stroke of luck, the 3 miles at Holgate have been 
spared, one spot where the place looks the way it did before we 
all got there.
    But it already is part of a refuge, so the issue is not 
whether to save it but what to save it for. To protect the 
piping plover, which is admittedly one of nature's dumber 
birds, both vehicles and beach workers have long been banned 
from the place during the summer nesting and fledging season.
    Some people complain; most comply. Some fishermen grumble 
about government interference, but they follow the rules.
    But when Forsythe manager Steve Atzert said he planned to 
close Holgate to vehicles all the time, in line with the 
Wilderness Act and under the sensible argument that wilderness 
doesn't mean where the trucks and the SUVs roam, a few of them 
acted as if he had trod on the Constitution, violated the laws 
of Moses, and threatened the American way of life.
    ``What abut our rights?'' they wailed.
    My father was a fisherman and a lawyer, just a small-town 
lawyer, but with a deep sense of rights and wrongs. He would 
have hooted at the idea of the rights of fishermen as they are 
being represented.
    The first thing he would ask would be: What about the 
rights of others, the beachwalkers, and the shell hunters, and 
sand-castle builders, and kids digging and tumbling and getting 
up close and personal with nature, none of whom appreciate the 
place being turned into just another highway.
    Motor vehicles of one kind or another have just about taken 
over all the world. I call it the revenge of the dinosaurs. 
Communities are built to their convenience. Roads are cut 
through forests and across deserts. And where they can't be, 
the off-road vehicle charges in--all-terrain vehicles, 
snowmobiles, mountain motorbikes.
    There is hardly any place left where the gassy, greasy, 
fuming, vrooming motor vehicle has not made us all its 
worshipful and sacrificing subjects. Why can't we keep a few 
places as a refuge not just for other species but from that 
one?
    None of the arguments for allowing vehicles in the refuge 
hold much water. There are 18 miles of the island where 
fishermen can drive. We are looking at 3 miles.
    Some of them insist that the fishing is better at that end, 
but I bet the fish don't know that. I have never met a 
fisherman without an excuse, including my father. ``Oh, if only 
I could have gone over there or in there or out yonder, I would 
have scored big time.''
    There was a compromise suggested that vehicles be allowed, 
so long as they stayed below the high-tide line. That would 
mean leaving before the tide came in. ``What if the fish start 
biting then?'' came a heated response.
    If you are out on a boat fishing and the captain says it is 
time to turn back because he is running out of fuel, you don't 
say, ``Oh, just another minute, Cap.''
    This bill aims to move that line up the beach. Some of the 
fishermen I have talked to go on about tradition; since they 
have always done it, they should always be able to do it. 
People used to dynamite fish, too. People used to have parties 
on the beach with bonfires. Hunters used to shoot shore birds--
not for food, just to rack up a score.
    I have seen pictures of a hunter standing by a pile of dead 
birds that must have 300 or 400 birds thick. It was an old and, 
I suppose, an honored tradition.
    I will give you an even older tradition: walking on a 
natural beach without looking at tire tracks, without stepping 
in oil or breathing in carbon monoxide, nitrogen dioxide, and 
sulfur trioxide.
    Part of the problem is that more and more people are using 
bigger and heavier vehicles. It isn't enough to carry a fishing 
pole and a bait bucket anymore. You need several poles, coolers 
for the bait and the beer, a couple of tackle boxes, some 
chairs, and who knows what all.
    They have become victims of themselves. Nobody ever made 
much of a fuss over a few dune buggies. Times change.
    So long as damn near anybody can buy damn near any kind of 
vehicle and take it damn near anyplace he or she pleases, there 
is no hope of keeping any part of this planet clean.
    We ought to start stopping this somewhere. And if it can't 
be in a wilderness area, then where?
    Mr. Atzert is trying to follow the law of the land, which 
is his job. He has been attacked, called nasty names. The 
latest piece I read described him as ``an arrogant, uninformed, 
ambitious, bureaucratic zealot''--
    [Laughter.]
    --and he has been threatened.
    In fact, I was told that if I came here to testify, I might 
find my tires slashed.
    I am glad Mr. Atzert is a zealot. The law is a good law, 
good for all us. It says that some places should be preserved 
and in as natural a state as possible.
    If you are not sure why that is a good idea, you have only 
to visit someplace like Yellowstone or Yosemite, wait in long 
lines of rumbling motor vehicles, breathe the fumes, see the 
smog rise up the tall trees, and shake your head at the trash 
lining the pathway, and listen to the noise.
    Is it anybody's fault that more people want to enjoy 
nature? No. But it is our fault if we let them destroy it.
    Many people who oppose Mr. Saxton's bill are worried about 
that dread monster, precedent. I myself do not believe that the 
banning or allowing of vehicles on 3 miles of beach at Holgate 
will much influence a decision to cut or not cut roads in vast 
Western wilderness areas, or drill or not drill for oil in the 
Alaska National Wildlife Refuge. But it will have a great 
effect on Long Beach Island and the people who live there. They 
are not all fishermen.
    There are those who argue that, ``Long Beach Island is 
already so built up, what difference does a little dab at this 
end of island make? And besides, you can see the towers of 
Atlantic City across the bay.''
    Mr. Atzert wants to preserve a small part of my island in 
as natural and primal state as possible. Despite the rising up 
of some people and beach buggy enthusiasts and fishermen, most 
people want this too. In New Jersey we voted to allot taxes for 
this. The Army Corps of Engineers is currently trying to 
restore whole sections of Barnegat Bay and its shores and 
islands.
    Here we have a pristine stretch that, hopefully, we won't 
have to 1 day restore, that will cost very little to preserve, 
that will be a blessing and a joy and an affirmation that we 
won't give the whole world over to the motor vehicle.
    The poet Gerard Manly Hopkins said, ``What would the world 
be once bereft of wet and wildness? Let them be left. O let 
them be left, wildness and wet. Long live the weeds and the 
wilderness yet.''
    I plead with you, let them be left.
    Thank you.
    [The prepared statement of Mr. Savadove follows:]

Statement of Laurence Savadove, Long Beach Island, New Jersey, on H.R. 
                                  896

    My name is Larry Savadove. I live on Long Beach Island in New 
Jersey. I am a contributing editor to several publications there and 
have written about environmental topics, but I am here as a private 
citizen.
    I am here to plead for a small bit of wilderness at the tip of a 
narrow island in a state that would be anybody's last guess as a place 
where you could find any wilderness at all. What is known as the 
Holgate end of my island is part of the Edwin B. Forsythe National 
Wildlife Refuge, an amazing put-together of salt marshes, wetlands, 
sedge islands in the bay and what snippets of beach have managed to 
survive. It's a place where piping plovers and black skimmers breed and 
spawn, gulls congregate, migrating birds take a break.
    I am not pleading for their sake, though. I am pleading for ours.
    Long Beach Island is a popular vacation spot. During most of the 
year you'll find about 5,000 people at any one time strung along its 
eighteen habitable miles but during the summer the population shoots up 
to about 150,000. They stay in everything from trailer parks to multi-
million dollar mansions. The place has gotten so popular there are very 
few empty spaces left. We barely managed to save the dunes, which some 
property owners wanted to cut down because they obstructed the view. 
There are almost no bay beaches left. Most of the marshes are gone.
    By some stroke of luck, or accident, the three miles at Holgate 
have been spared, one spot where the place looks the way it did before 
we got there.
    But it is part of a refuge. So the issue is not whether to save it 
but what to save it for. To protect the piping plover, admittedly one 
of nature's dumber birds, both vehicles and beachwalkers have long been 
banned from the place during the summer nesting and fledging season. 
Some people complain, most comply. Some fishermen grumble about 
government interference, but they follow the rules.
    But when Forsythe manager Steve Atzert said he planned to close 
Holgate to vehicles all the time, in line with the Wilderness Act and 
under the sensible argument that ``wilderness'' doesn't mean where the 
trucks and the SUVs roam, a few reacted as if he had trod on the 
constitution, violated the laws of Moses and threatened the American 
way of life.
    ``What about our rights?'' they wailed.
    My father was a fisherman, and a lawyer, just a small town lawyer 
but with a deep sense of rights, and wrongs. He would have hooted at 
the idea of the ``rights'' of fishermen as they are being represented. 
The first thing he'd ask would be, What about the rights of others, the 
beachwalkers and shell hunters and sandcastle builders and seaglass 
collectors and kids digging and tumbling and getting up close and 
personal with nature, none of whom appreciate the place being turned 
into just another highway?
    Motor vehicles of one kind or another have all but taken over the 
world. I call it the revenge of the dinosaurs. Communities are built to 
their convenience, roads are cut through forests and across deserts, 
and where they can't be, the off-road vehicle charges in--all-terrain 
vehicles, snowmobiles, mountain motorbikes. People ride tractors 
nowadays to mow a quarter-acre of lawn. There is hardly any place left 
where the gassy, greasy, fuming, vrooming motor vehicle has not made us 
all its worshipful and sacrificing subjects.
    Why can't we keep a few places as a refuge, not just for other 
species but from that one? None of the arguments for allowing vehicles 
in the refuge hold much water. There are 18 miles of the island where 
fishermen can drive. We're looking at three miles. Some of them insist 
the fishing is better at that end, but I'll bet the fish don't know 
that. I've never met a fisherman without an excuse--including my 
father: ``Oh, if only I could have gone over there, or in there, or out 
yonder I would have scored big time.''
    There was a compromise suggested, that vehicles be allowed so long 
as they stayed below the high tide line. That would mean leaving before 
the tide came in.''What if the fish start biting then?'' came a heated 
response. If you're out on a boat and the captain says it's time to 
turn back because he's running out of fuel you don't say, ``Oh, just 
another minute, Cap.''
    This bill aims to move that line up the beach. Some of the 
fishermen I've talked to go on about tradition: since they've always 
done it they should always be able to do it. People used to dynamite 
fish, too. People used to have parties on the beach with bonfires. 
People used to let their dogs run loose on the beach. Hunters used to 
shoot shore birds, not for food just to rack up a score. I've seen 
pictures of a hunter in front of a pile of dead birds. It was an old 
and, I suppose, honored tradition.
    I'll give you an even older tradition: walking on a natural beach 
without looking at tire tracks without stepping in oil or breathing in 
carbon monoxide, nitrogen dioxide and sulfur trioxide.
    Part of the problem is that more and more people are using bigger 
and heavier vehicles. It isn't enough to carry a fishing pole and bait 
bucket anymore. You need several poles, coolers for the bait and the 
beer, a couple of tackle boxes, some chairs and who knows what all. 
They have become victims of themselves. Nobody ever made much of a fuss 
over a few dune buggies. Times change.
    Mr. Atzert is trying to follow the law of the land, which is his 
job. He has been attacked, called nasty names--the latest piece I read 
described him as an ``arrogant, uninformed, ambitious, bureaucratic 
zealot''--and been threatened. In fact I was warned that if I came here 
to testify I might find my tires slashed ``or worse.''
    I am glad Mr. Atzert is a zealot. The law is a good law, good for 
all of us. It says that some places should be preserved in as natural a 
state as possible. If you're not sure why that's a good idea you have 
only to visit someplace like Yellowstone or Yosemite, wait in long 
lines of rumbling motor vehicles, breath the fumes, see the smog rise 
among the tall trees, shake your head at the trash lining the pathways. 
And listen to the noise.
    Is it anybody's ``fault'' that more people want to enjoy nature? 
No, but it is our fault if we let them destroy it.
    Many people who oppose Mr. Saxton's bill are worried about that 
dread monster, precedent. I myself do not believe that the banning or 
allowing of vehicles on three miles of beach at Holgate will much 
influence a decision to cut or not cut roads in vast western wilderness 
areas or drill or not drill for oil in the Alaskan National Wildlife 
Refuge. But it will have a great effect on Long Beach Island and the 
people who live there.
    There are those who argue that Long Beach Island is already so 
built up, what difference does this little dab of it make? And beside, 
you can see the towers of Atlantic City in the distance. Mr. Atzert 
wants to preserve a small part of my island in as natural and primal a 
state as possible. Despite the rising up of some fishermen and beach 
buggy enthusiasts, most people want this. In New Jersey we voted to 
allot taxes for this. The Army Corps of Engineers is currently trying 
to restore whole sections of Barnegat Bay and its shores and islands.
    Here we have a pristine stretch that hopefully we won't have to one 
day restore, that will cost very little to preserve, that will be a 
blessing and a joy and an affirmation that we won't give the whole 
world over to the motor vehicle.
    I and many others have applauded Mr. Saxton's stand on preserving 
our natural heritage, much trickier in New Jersey, I expect, than, say, 
Alaska. I was there when he opened the Jacques Cousteau National 
Estuary Research Reserve on the Mullica River. I interviewed him when 
he stood up to longline fishermen last year, crossing some particularly 
raucous picket lines. Most of us on the Island have approved of most of 
his stands. We're a little disappointed in this one.
    The poet Gerard Manly Hopkins said, ``What would the world be, once 
bereft/ Of wet and wildness? Let them be left,/ O, let them be left, 
wildness and wet;/ Long live the weeds and the wilderness yet.''
    I plead with you, ``Let them be left.''
                                 ______
                                 
    Mr. Saxton. Thank you very much, Mr. Savadove.
    Mr. DeLeonard?

 STATEMENT OF BOB DELEONARD, PRESIDENT, NEW JERSEY BEACH BUGGY 
                          ASSOCIATION

    Mr. DeLeonard. Thank you, Mr. Chairman.
    I represent the New Jersey Beach Buggy Association. We are 
a statewide organization of over 1,800 members, and we advocate 
reasonable and responsible beach access in the State of New 
Jersey.
    I am also Executive Director of United Mobile Sport 
Fishermen, which is an association comprised of similar beach 
buggy associations from North Carolina to Massachusetts. And I 
speak for all of those organizations as well.
    There may be some misconceptions on what a beach buggy is. 
When you hear the word ``beach buggy,'' don't be thinking the 
word ``dune buggy.'' It is not one of the pipe-welded kind of 
Volkswagens. It is actually a registered, inspected pickup 
truck or SUV.
    And we don't even condone walking on dunes, let alone 
driving on them, as they are very fragile pieces of beach.
    So when you just hear ``beach buggy,'' don't be thinking 
``dune buggies.'' These vehicles are just, by and large, big 
tackle boxes we use just to get our equipment to where we want 
to fish. And don't confuse it with the term ``dune buggy.''
    By the way, on Holgate, from April 1 to September 1, there 
is no walk-on access permitted either, during that time, let 
alone vehicle access. There is no access at all.
    New Jersey Beach Buggy Association works closely with the 
State Department of Parks and Forestry. We are, in fact, the 
largest volunteer organization in the state in that regard.
    We, of course, support H.R. 896. H.R. 896 would just make 
statutory what was made a promise in 1990 and, to start with, 
in 1973. When the powers that be--it is before my time in 
1973--were going to propose what is now the Edwin B. Forsythe 
National Wildlife Refuge to be part of the Federal wilderness 
program, Holgate was not even going to be continued because, as 
an assistant secretary of the Department of Interior mentioned, 
the public could never enjoy a wilderness experience there.
    As Congressman Saxton alluded to, New Jersey Beach Buggy 
Association collaborated with the New Jersey Sierra Club. In 
Hope Cobb's testimony in 1973, which I have here--Hope Cobb was 
president of New Jersey Sierra Club in 1973. The president of 
New Jersey Beach Buggy Association, Bob Lick, and she 
collaborated on Ms. Cobb's testimony, praising New Jersey Beach 
Buggy Association, under continued stewardship at Holgate, and 
urging, over the objections of the Department of Interior, that 
Holgate be included as part of the Wilderness Act under the 
Wilderness Act of 1964.
    New Jersey Beach Buggy Association would never have agreed 
to these terms if beach access for beach buggies was not 
guaranteed at the time. Senator Case, who introduced the bill 
in the Senate to include into the wilderness, assured Bob Lick 
at the time that since the beach is state-owned land, the 
question didn't even apply.
    I may point out, there was a tour road in the middle of 
Holgate prior to the wilderness designation, an auto tour. You 
know, you could drive your car in there and there would be 
little way-stops on the side, and the people could get a 
representative view of what sedge islands and the vegetation on 
beach front looks like that they wouldn't normally enjoy.
    The day that the wilderness was designated at Holgate, 
those tours had to stop. They stopped the tours and the auto 
tours in the middle of the peninsula and they did not stop the 
beaches. Again, they didn't see a need to. It was a state-owned 
beach.
    It has been 60 years since this ongoing beach access has 
been allowed to continue.
    Endangered piping plovers are not an issue. There has never 
been an instance in New Jersey of a piping plover being hit by 
a beach buggy. It has happened five times in other states: 
twice in Long Island, and three times in Massachusetts, and 22 
times documented by Fish and Wildlife Service vehicles.
    The fact remains that Holgate is a part of the Federal 
wilderness. Any wilderness you get in New Jersey ought to be 
something special. In a state with a denser population than 
India or Japan, I think any wilderness you get, you ought to 
try to preserve it and make everyone happy to have it. This 
isn't the case here.
    I think it is a little strange that the same laws that 
apply to Federal wilderness in Alaska in Rocky Mountain states 
are also applied in New Jersey. I think a 30-foot barrier, if 
you want to call it that, just so when high tide occurs, an 
unusually high tide, and a person's tire would happen to hit 
the wilderness, this would just keep the vehicles out of the 
water.
    The mean high tide mark that is the basis for this tide is 
not a day-to-day thing. It is an 18.5-year average. And I am 
not even sure where that is. I am not sure anyone does. And I 
don't even know who determined such a thing.
    An amicable and equitable anti-development solution was 
worked out to give Holgate protection. Continued recreational 
use was promised. That promise was reinforced by and agreement 
between Representative Saxton and Fish and Wildlife in 1990. 
And now the Fish and Wildlife Service wants to renege.
    I urge the Committee to please don't let them renege on 
that agreement.
    [The prepared statement of Mr. DeLeonard follows:]

   Statement of Robert DeLeonard,, President, New Jersey Beach Buggy 
                        Association, on H.R. 896

    The Chairman. My name is Bob DeLeonard and I am appearing today as 
President of the New Jersey Beach Buggy Association (NJBBA). We greatly 
appreciate the opportunity to testify before the Subcommittee and 
register our strong support for H.R. 896. On behalf of the Association 
we thank you for promptly scheduling a hearing on this important bill. 
We also commend Rep. Saxton for his leadership and continued support on 
behalf of wildlife dependent recreation within units of the National 
Wildlife Refuge System.
    The New Jersey Beach Buggy Association, founded at Island Beach 
State Park, is a non-profit organization incorporated in 1954. The 
NJBBA is not a fishing club. It is an association of people who all 
want the same thing. That is to be able to use a mobile sport fishing 
vehicle while in pursuit of their favorite hobby, mainly surf fishing. 
The majority of the members do belong to fishing clubs, but they still 
realize that one group is needed to lead the way in the fight for our 
right of continued and reasonable beaches access.
    Please do not confuse our beach buggies with present day, modified 
VW fame types with roll bars and pipe welding. Our beach buggies come 
in all shape and sizes and are mobile sport fishing vehicles, which 
ride the level beach, entering and leaving by, access and egress trails 
approved by authorities. Members must not travel on any dunes or 
vegetation, as this practice is not consistent with the philosophy of 
the organization with reference to the preservation of our coastal 
resources.
    H.R. 896 would assure that express promises made by Congress 28 
years ago would continue to be honored. This bill would assure that 
important recreational opportunities will be preserved and that 
environmentally benign traditional uses will be able to continue. We 
urge the Subcommittee to act quickly and favorably on this measure.
    Rep. Saxton's measure simply keeps a promise: it would statutorily 
assure what we were promised years ago--that surf fishermen could 
continue to access Holgate using beach buggies. Over 28 years ago surf 
fishermen and the environmental community banded together to guarantee 
the conservation of the wildlife resources of Holgate Beach. We worked 
with Congress to have this portion of then Brigantine National Wildlife 
Refuge designated wilderness to prevent unwanted commercial development 
of the beach. However, we were repeatedly assured that this commitment 
to conservation would not adversely impact our ability to use beach 
buggies for surf fishing. With those assurances from Congress, we 
strongly supported the wilderness designation. We are bitter that the 
U.S. Fish and Wildlife Service seems intent on disregarding those 
promises and banning us from the very beach we helped to save. The 
Association is heartened that Congress appears to understand the need 
to honor promises and commitments and it can do so by passing H.R. 896.
    The U.S. Fish and Wildlife Service (FWS) announced on February 14 a 
pending decision to limit beach access for the Holgate Unit of the 
Brigantine Wilderness Area. Under this directive, motor vehicle use by 
the public would be limited to the area below the mean high tide mark. 
The mean high tide mark is an 18.5 year average, not a day to day 
thing. At this time, I do not know where it falls. It may be 50 yards 
out in the ocean or it may be the entire peninsula. I wonder if FWS 
knows. Their brochure on beach use shows it as the wet sand between the 
tides. This is wrong, although many people are not aware.
    Because the limiting of beach vehicles is so controversial, the FWS 
Acting Regional Director provided a 30 day public review period before 
signing off on the Finding of No Significant Impact (FONSI). This 
period ended on March 19, 2001. As of this date, June 7, 2001, it has 
yet to be signed.
    FWS has chosen Alternative B of the Comprehensive Conservation Plan 
(CCP), which was the Service's proposed action all along. Besides 
limiting, or perhaps banning altogether, vehicle use on the beach, this 
alternative also triples the refuge staff, triples the operating 
budget, and makes provisions for ``taking'' additional land outside the 
boundary of the Refuge. The current staff level is 17. Alternative B 
would raise this to 42. Staff and projects funding for the next 15 
years is currently $15.3 million. ``B'' would raise this to $54.2 
million. Land protection is currently $19.7 million for 15 years. ``B'' 
would raise this figure to $57.7 million. Land protection for what? It 
is a Federal wilderness!
    While it is true that the Edwin B. Forsythe National Wildlife 
Refuge is protected under the Wilderness Act of 1964, the beachfront 
that abuts the property is public land, which has been used by mobile 
sport fishermen for generations before the refuge was established. 
These ``beach buggies'' are inspected, insured, street legal pick up 
trucks or sport utility vehicles that drive at slow speeds along the 
beach looking for a good place to wet a line. They are not ATV dune 
buggies racing aimlessly down the beach. It is not consistent with the 
NJBBA code of ethics to walk on the dunes, let alone drive on them, as 
they are a very fragile and priceless part of the ecosystem.
    In 1973 when the Brigantine Wilderness area was being proposed, 
Holgate was not even going to be considered as part of it. The 
Department of the Interior did not want to include it because the 
public would never be able to get a true wilderness experience there. 
It was added at the last hour at the urging of the NJ Sierra Club, with 
backing of NJBBA. NJBBA President Bob Lick collaborated with Hope Cobb, 
President of the NJ Sierra Club on Ms. Cobb's testimony pushing for 
inclusion of Holgate on April 12, 1973. These diverse organizations 
came together to prevent construction of a proposed bridge from the 
south, with provisions that existing access and usage prevail. At the 
time, opinion was widely held that the least expensive way for 
development was to go through public land. NJBBA and the Sierra Club 
did not think that Refuge protection was strong enough to prevent this 
bridge construction and resulting development and sought statutory 
protection provided by Wilderness designation. NJBBA would not have 
backed this effort without assurance that vehicle access on the 
beachfront that abuts the property would be allowed to continue. Bob 
Lick got assurance from Senator Case that, since the beach was state 
owned and not part of the Wilderness, vehicle beach access would not be 
jeopardized, and mobile surf fishermen continued to use the beach after 
wilderness designation, just as before the wilderness designation.
    Rep. Saxton in July 1990 helped negotiate a written agreement 
entitled ``Public Use Management for Holgate Unit'' which permits the 
operation of over-the-sand vehicles (OSV) in the Holgate Unit of the 
Brigantine Wilderness Area. This written agreement, submitted by the 
(then) Edwin B. Forsythe Refuge Manager, and approved by the Regional 
Director for Refuges, is in direct conflict with the Final 
Comprehensive Conservation Plan (CCP) proposed in July 2000 by the Fish 
and Wildlife Service (FWS).
    The 1990 agreement specifies the tidelands will be open to OSVs 
from September 1 through March 31, and will be closed to all public use 
including boat landings from April 1 through August 31 to protect 
piping plovers and their habitat. During the September 1 through March 
31 period, OSVs may utilize the tidelands below the mean high water 
line. In order to minimize the distance of travel on the loose or dry 
sand above the mean high tide, the OSVs shall be parked within 30 feet 
of the water edge at high tide and generally park perpendicular to the 
water edge.
    Endangered piping plovers are not an issue in 2001. Surf fishermen 
agreed to the closure at Holgate in 1990 to protect the endangered 
piping plover based on the FWS allowing the continued access for OSVs 
to the end of Holgate Peninsula. It is unfair and unsustainable for the 
FWS, after signing this written agreement, to propose to discontinue 
this previously established public use. In eleven years, the fishermen 
have stayed out of Holgate from April 1 through August 31 in compliance 
with this agreement. The piping plover nesting pairs have greatly 
increased and there has been no environmental damage to the wilderness 
area.
    The Department of the Interior utilized its discretionary authority 
for 28 years to permit vehicles in Holgate because such uses were 
established prior to the date the wilderness area was designated by Act 
of Congress. It is outrageous that prior public uses at Holgate have 
been proposed to be terminated without consideration to this agreement. 
We have separately communicated with the Department of the Interior and 
explained that the law and the facts enable and obligate FWS to 
continue traditional beach buggy at Holgate. A copy of our letter to 
Secretary Gale Norton is attached.
    H.R. 896 would solve this problem by revising the boundaries of 
Holgate to provide a narrow transition zone between the mean high tide 
line and the wilderness boundaries to permit vehicles to safely access 
and park on the beach without inadvertently entering the wilderness 
area. This bill would continue to allow access by vehicles into 
Holgate, as has been the case for nearly 60 years, without negatively 
impacting the environment. The public is not permitted in the 
wilderness land only on the state owned beach. This applies to walkers 
as well. Beach buggy users are happy to share this resource with any 
other user groups.
    H.R. 896 would provide a 30 foot buffer zone along the state owned 
beach between the ocean and the FWS property so vehicles can safely 
have ingress and egress during periods of abnormally high tides. 
Beachfront by nature comes and goes. It is a complex issue. A 30 foot 
right of way above wet water is not unreasonable and would still be 
legal within the Wilderness Act. Section 5 (a) mandates access through 
wilderness to privately held property. Mobile sport fishermen are 
permitted incidental contact with wilderness property to safely access 
other parts of state owned Holgate beach during periods of moon tides 
coupled with east winds where the beach may be constricted. When the 
beach is constricted on the front, it is coincidentally expanded on the 
back side. The refuge manager at Holgate immediately claims this 
``found'' land as wilderness property, regardless of any mean tide 
averages while attempting to claim temporarily eroded beach to an 
imaginary previous line in the ocean.
    In, addition, FWS Wilderness Preservation and management and 
Regulations (50CFR35.5) specifies: (b) ``The Director may permit the 
use of motorized equipment at places within a wilderness where such 
uses were established prior to the date the wilderness was designated 
by a Act of Congress.''
    The Refuge Improvement Act of 1997 ensures that priority public 
uses receive enhanced attention in planning and management within the 
Refuge System. Somehow the refuge manager at Holgate has interpreted 
this as carte blanche to ban vehicles from the state owned property 
that abuts the wilderness.
    In 1999, when the refuge manager first proposed his new ban on 
vehicles, the reason given was because the public could never get a 
true wilderness experience with vehicles on the state owned beach. The 
walking public is also prohibited on the Federal wilderness and must 
view from the state owned beach as well. In 1973 when NJBBA and the NJ 
Sierra Club argued for inclusion of Holgate into the Wilderness Act, we 
had to overcome the objections of E. U. Curtis Bohlen, Deputy Assistant 
Secretary for Fish, Wildlife, and Parks, Department of the Interior, 
who was adamant that Holgate did not qualify because, ironically, the 
public could never get a true wilderness experience there. When asked 
why he is suddenly asking for a mobile sport fishing ban after nearly 
60 years of established use, 28 since wilderness designation, the 
refuge manager said, ``Because the law gives me the authority to do so. 
Look, we are holding a public hearing because we are required to get 
public input, but the final decision rests with us. We already have the 
Wilderness Act. It's clear on not allowing vehicles on the refuge and 
on what a wilderness experience should be. I really think that's all we 
need.'' (New York Times, June 20, 1999). In 2000, with public support 
dwindling from this demonstrated disdain of the public hearing process, 
the argument changed to ``a violation of the Wilderness Act''. Public 
support has since all but disappeared.
    The mismanagement of the Forsythe Refuge damages the public 
impression of the entire refuge system and has put FWS as head of the 
list of most despised Federal agencies in New Jersey, a feat that three 
years ago, I would have thought impossible. The refuge program uses tax 
money to acquire land, and then attempts to keep taxpayers off that 
land. It is as if they put up signs that read, ``Public property. No 
trespassing.'' Future land acquisition by FWS in New Jersey has been 
put in serious jeopardy because of the arrogance and mismanagement at 
Holgate. FWS is a bad neighbor.
    In 1973 during the hearing for H.R. 5422, which established the 
Brigantine Wilderness Area, Assistant Secretary Bohlen testified on 
Holgate. ``We did not think that suitable to be recommended as part of 
the wilderness.'' he said. ``It is part of the refuge, but it is not 
included as part of the area set aside for wilderness.'' It has since 
become less suitable to be part of the wilderness. In 1999 when the FWS 
first proposed the Comprehensive Conservation Plan, it pictured on the 
cover of the ensuing manual what they thought to be a representative 
example of what a wilderness should be. That cover photo showed some 
sedge land with the skyline of Atlantic City in the background. I 
pointed out in my testimony in Stafford Township on July 8, 1999 that 
if they took that picture at night, there would be nothing but bright 
flashing lights, searchlights, and assorted casino glitter. So much for 
the public's ability to have a wilderness experience. Incidentally, in 
2000 when the FWS tack switched from the 1999 ploy of ``vehicles on the 
beach have a negative impact on the public's ability to enjoy the 
wilderness'' to ``a violation of the Wilderness Act'' they had the good 
sense to shoot the new manual cover photo in another direction.
    The fact remains that now Holgate is part of Federal wilderness. 
Any land that can be designated so in the most densely populated state 
should be treated with respect, no matter how badly mismanaged. I think 
that it is unreasonable to treat wilderness land in New Jersey exactly 
the same as treated in Alaska and Rocky Mountain states. In a state 
with a population density greater than that of India and Japan, be 
thankful for any land that can be designated wilderness. In New Jersey, 
if a person goes out for a wilderness experience, and there are 3000 
other people there, consider it isolated. In Holgate, there are only 25 
vehicles on the three - mile stretch of beach, mostly all sit parked 
while the owner is fishing.
    An amicable and equitable anti-development solution was worked out 
to give Holgate protection, continued recreational use was promised, 
and that promise reinforced by the agreement between Rep. Saxton and 
FWS in 1990. Now the FWS wants to renege. Please don't let it.
                                 ______
                                 
    Mr. Saxton. Thank you very much.
    Let me first say that a document has been referred to by 
several in their testimony, including in my opening statement, 
which is known as the ``Public Use Management for Holgate 
Unit,'' which was the agreement that was signed in 1990. And I 
ask unanimous consent that it be included in the record.
    Mr. Saxton. And also, a statement from Robert Lick, the 
former president of the Beach Buggy Association; Joan Koons' 
statement from the Alliance for a Living Ocean; and I have 
already asked unanimous consent that Freeholder Mancini's 
statement be included in the record.
    [The report, ``Public Use Management for Holgate Unit,'' 
follows:]
[GRAPHIC] [TIFF OMITTED] T2930.012

[GRAPHIC] [TIFF OMITTED] T2930.013

[GRAPHIC] [TIFF OMITTED] T2930.014

[GRAPHIC] [TIFF OMITTED] T2930.015

[GRAPHIC] [TIFF OMITTED] T2930.016

    [The prepared statement of Bob Lick follows:]
    [GRAPHIC] [TIFF OMITTED] T2930.003
    
    [GRAPHIC] [TIFF OMITTED] T2930.004
    
    [GRAPHIC] [TIFF OMITTED] T2930.005
    
    Mr. Saxton. Mr. Ashe, I am curious about your current 
position on this issue, because it doesn't seem to track with 
the general attitude that you exhibited during the last year-
and-a-half so, when you would come to my office and then go 
away with the understanding that you were going to try to find 
a way to help. And on each occasion, you would return to my 
office and say, ``Gee, we would really like to help, but the 
law is clear. And our position is, therefore, that we can't 
help because of the provisions in the Wilderness Act.''
    So I think that it seems to me, at least, that the 
provisions in my proposed bill are rather modest and take care 
of your problem and permit you a way to help. And yet, you 
oppose it. I find that very curious, because for the last year-
and-a-half or 2 years, you say you have been trying to help, 
and this is a very modest way to solve your dilemma of not 
being able to do so.
    Why would you, therefore, oppose this bill, if all along 
you have wanted to help?
    Mr. Ashe. Mr. Saxton, you are a good friend. And when a 
good friend asks for help, I try to help him.
    And so, as I said, you know, we went back on numerous 
occasions to try to see if, within the context of the law, we 
could help you. And unfortunately, the answers were 
consistently no.
    And a number of the panelists here talked about public 
trust. And we have a public trust. And our first trust is to 
implement the law of the United States. The Congress has 
enacted a law, designating the Holgate Unit of the Edwin B. 
Forsythe National Wildlife Refuge as wilderness.
    And we are bound by our trust to the America people to 
implement the law. The law is very clear on this point, that 
the use of motorized vehicles within a wilderness is 
prohibited.
    And so, it is our duty, pursuant to our trust, to uphold 
the law.
    And it certainly is Congress's prerogative to adjust 
boundaries of wilderness, but Congress in its consideration 
determined that there was wilderness value at Holgate that was 
worthy of protection. And it is now our charge to ensure that 
that wilderness value is maintained.
    And allowing vehicle use at the Holgate Unit of the 
Brigantine Wilderness does impact wilderness value. This is not 
about piping plovers. This is not about biological or 
ecological integrity. This is about wilderness value. And the 
use of motorized vehicles within that wilderness area does 
adversely impact wilderness values.
    And so that is why we are not supporting your bill, 
Congressman, because it will have the effect of eroding that 
trust, which Congress handed off to us 26 years ago when they 
designated this area as wilderness.
    Mr. Saxton. Well, I worry about trust as well. And I 
understand what you have just said to me.
    When I gave my opening statement, I mentioned that the 
Forsythe refuge is rather unique because of its noncontiguous 
nature and the fact that it touches the lives of many people, 
maybe most people, maybe even all the people of Ocean County.
    And there is a trust that we owe to those residents 
specifically. And in this case, last year, I think I pointed 
out, that there were 716 permits issued. And I am just going to 
guess that maybe during the fishing season, maybe there are 10 
people who are associated with each over-the-sand vehicle that 
fish. So perhaps there are as many as 7,000 individuals, 7,000 
families--10 times 700, for those of you who are looking 
puzzled--7,000 individuals, which translates into 7,000 
families, which translates into 7,000 neighborhoods, who think 
the trust is being broken.
    How am I going to come back here and advocate for more 
money for more expansion of the refuge with 7,000 families in 
7,000 neighborhoods thinking that you have created what to 
those 7,000 people is a terrible misdeed?
    How can I come back and advocate for this refuge and the 
management and the program and fixing the backlog, the 
maintenance backlog, and all the things that I have done over 
these years? How can I continue those activities with my 
constituency thinking they have been mistreated this way?
    I guess that is a rhetorical question. There is probably no 
answer.
    Mr. Ashe. It is a difficult issue, Congressman, which is 
why, in the beginning of my statement, I said, you know, it 
wasn't a pleasant duty on my part.
    I know that it is a difficult issue for you, as it is a 
difficult issue for us. I guess, on balance, sometimes in the 
course of a friendship, you have to look friends in the eye and 
tell them that you can't do what they want you to do. And that 
is not a pleasant duty.
    And I know, from the standpoint of a Member of Congress, 
sometimes you have look in the eyes of your constituents and 
tell them that maybe their government is not doing something 
that they appreciate.
    I do believe that, as a whole, the Edwin B. Forsythe 
National Wildlife Refuge is a tremendous asset to the people of 
New Jersey and the people of the United States, which doesn't 
mean that we will make all the people happy all the time. And 
that is a difficult balance.
    And our manager, Steve Atzert, is in a difficult position. 
He does have a trust. He does have an obligation to safeguard 
the wilderness value at that refuge. And he is trying to do his 
job.
    And realize that is making some people angry there. And 
that happens from time to time. But I believe, on balance, the 
Forsythe refuge and the Holgate Unit are tremendous assets to 
the people of New Jersey.
    And I think hopefully we can help them to realize that.
    Mr. Saxton. Let me ask one more question, and then we will 
turn to Mr. Underwood.
    You mentioned the devaluation of wilderness area, which to 
me means that there must be some environmental reasons that 
would cause you say that or some environmental degradation that 
is done by the fishermen. Can you somehow quantify that for me, 
because I have not seen it?
    Mr. Ashe. I think it is very difficult to quantify, Mr. 
Chairman, because wilderness is not a quantifiable impact.
    If you look at the definition of wilderness in the 
Wilderness Act, it talks about areas where the Earth and its 
community of life are untrammeled by man, where the imprint of 
man's work is substantially unnoticeable, that provide 
opportunities for solitude in a primitive and unconfined type 
of recreation.
    Those are clearly subjective values. But one thing that the 
law does tell us very clearly is that the presence of motorized 
vehicles is a violation of the concept of wilderness.
    And so when Congress told us that this area should be 
included in the national wilderness preservation system, and 
did not accept vehicles, they were telling us how to manage 
that area.
    And I will agree with you: Our management has been such 
that we have allowed this activity to go on over time. That is 
incontrovertible.
    But it is also equally incontrovertible that it is not 
supportable within the context of the law.
    Mr. Saxton. So I take it from your statement that there is 
somehow an undefinable degradation.
    I mean, you didn't mention that the fishermen throw garbage 
around. You didn't mention that they are having bonfires, which 
they start with kerosene, on the beach. You didn't mention that 
there is continuing damage to the piping plovers.
    You didn't mention anything specific. You just said that 
there is a--maybe you have a feeling that the area is not quite 
as peaceful or something because there are motorized vehicles 
going out the beach.
    Is that a fair characterization? You didn't point to one 
specific problem environmentally.
    Mr. Ashe. Wilderness value is a subjective value. As I 
said: ``A place where the Earth and its community of life are 
untrammeled by man.'' That is a subjective value.
    It is not that you can't measure it or that you can't see 
it. You can. And, again, in general terms, the four land-
managing agencies who manage wilderness, generally, mechanized 
equipment represents a deterioration of wilderness value and 
are not allowed within wilderness areas.
    And so, that is kind of a consistent theme in wilderness 
management. And, again, motorized vehicles, the presence of 
motorized vehicles itself, is antithetical to the concept of 
wilderness and the solitude that wilderness is supposed 
represent. That is why Congress included that prohibition in 
the law.
    Mr. Saxton. Thank you.
    Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    And before I begin, I would also to ask unanimous consent 
to submit a statement by Dr. Leatherman of the Laboratory for 
Coastal Research.
    [The prepared statement of Mr. Leatherman follows:]

June 6, 2001

Mr. Kevin Frank
Subcommittee on Fisheries, Wildlife & Oceans
U.S. House of Representatives
187 Ford House Office Building
Washington, DC 20515

Dear Mr. Frank:

    This letter is in response to H.R. 896, a bill introduced by 
Congressman Jim Saxton of New Jersey. I have conducted the most the 
most extensive research on the impacts of off-road vehicles on barrier 
beaches in the United States (see enclosed 44 page resume). I am also 
enclosing a copy of the ``Barrier Island Handbook'' that chronicles the 
impact of motorized vehicles on beaches and dunes.
    The southern end of Long Beach Island, New Jersey has been 
designated as a Wilderness Area. As such any vehicular activity in this 
area is incongruent with the concept of a wilderness area. Therefore, I 
believe that ORVs should certainly be banned in this area as a matter 
of principle.
    Please feel free to give me a call at 305-348-6304 if I can provide 
additional information.

Sincerely,

    /signed/

Stephen P. Leatherman, Ph.D.
Professor and Director
Florida International University
Laboratory for Coastal Research

    Mr. Underwood. I find the discussion on the intrinsic value 
of wilderness versus trying to quantify or perhaps determine 
the science of environmental degradation or the effect of off-
road vehicles or fishermen on this particular piece of 
property.
    Yet, there is something very specific in the laws, is there 
not, Mr. Ashe, in terms of motorized vehicles?
    Given that, and your admission that motorized vehicles had 
been allowed for the time that this has been designated a 
wilderness area, it seems very difficult to deal with the issue 
of trust. I mean, I don't know whether trust itself is 
intangible and whether we can measure that or not. But I would 
venture to say that if we were going measure trust on the basis 
of past behavior, it has been a little erratic on the part of 
the Fish and Wildlife Service.
    Mr. Ashe. I guess I would say it hasn't been erratic. I 
mean, we have been allowing these uses to continue, and have 
been essentially turning a blind eye to the fact that the uses 
were in violation of the Wilderness Act.
    As the Congressman knows, you know, in some respects, we 
could take the easy way out and I could tell him, ``Well, we 
will just continue to allow it,'' which would just open the 
door for somebody to come in and challenge us under the 
Wilderness Act.
    And so, we are developing a comprehensive plan that lays 
out a 15-year blueprint for the operation of this refuge, and 
we would be putting that whole blueprint at risk from a legal 
standpoint, and certainly that provision of the comprehensive 
plan.
    Mr. Underwood. Is it--
    Mr. Ashe. We have been consistently delinquent in our 
responsibility to enforce the Wilderness Act.
    Mr. Underwood. Consistently delinquent. Okay.
    To your knowledge, Mr. Ashe, is there any other wilderness 
area where motorized vehicles are allowed, where you have also 
turned a blind eye?
    Mr. Ashe. There are none that I am aware of, Congressman.
    There are wilderness areas where Congress has made 
exception in the establishment of the wilderness area to 
cherrystem, as they say, roads, to take roads or improve trails 
out of wilderness areas. There are cases in the refuge system, 
like Okefenokee National Wildlife Refuge where, in the 
establishment of the wilderness area, Congress specifically 
allowed certain kinds of activity that would overwise not be 
allowed.
    In the case of Okefenokee, it is motor boat use. They 
specifically allowed for the use of motor boats within the 
wilderness area.
    But, again, which to me points out one of the ironies in 
this situation: Congress knows how to do that, and in the case 
of Holgate, they did not. They left the prohibition against 
motorized vehicles intact without providing that exception, as 
they have done in many other cases.
    Mr. Underwood. Mr. McDowell, to your knowledge, is there 
any environmental degradation that is occurring as a result of 
the activities of off-road vehicles?
    Mr. McDowell. In this particular location, no. And I 
queried our biologists, who are trying to recover the piping 
plover, working closely with the Service, and they say there 
has been no impact on these birds and other state endangered 
and threatened species in the area.
    Basically, when the tide is a high tide, it erases all the 
evidence--tracks, et cetera--of the fishermen, so it is 
returned to wilderness, so to speak.
    So I know of no environmental impact, impacts on wildlife.
    Mr. Underwood. Has there been any assessment, specific 
assessment, relative to off-road vehicles activity in other 
parts of New Jersey?
    Mr. McDowell. Yes, on Brigantine Island, we have done that 
assessment. And because of the assessment, there is a seasonal 
prohibition and management strategy in there to allow vehicles 
under certain guidance and closure.
    So, yes, we have seen impacts on endangered species, beach 
nesters. I might point also that swimmers have impacts on some 
of these species also. So it is a management issue all over the 
State of New Jersey.
    The easiest thing to say is, ``No.'' The most difficult 
thing to say is, ``Yes, but we're going to do it this way.''
    Mr. Underwood. I just want to understand, in the rank order 
of priorities here, so that I understand the full flavor your 
testimony, not in contrast to Freeholder Kelly, but just to 
understand it.
    Mr. McDowell. Sure.
    Mr. Underwood. If there were evidence of environmental 
degradation, would you then oppose the off-road vehicles in the 
area, as opposed, you know, that there is some kind of inherent 
or preexisting right for fishermen to have access to the area?
    Mr. McDowell. We would probably be the first agency to 
raise that issue, if it was environmental impacts that affected 
fish and wildlife, certainly. That is our legal responsibility, 
too.
    I think there is one impact nobody is talking about here. 
You are talking about public trust as an issue. We are very 
busily, in the State of New Jersey, trying to buy up as much 
open space as we possibly can. Former Governor Whitman had the 
Open Space initiative passed. We are spending over $100 million 
a year, buying open space, getting conservation easements on 
open space. And the public is behind us 100 percent.
    I am one of the people that signs off on the refuge 
purchases. I think the refuge gaining more land in New Jersey 
is a good thing--not only this refuge, but the other four 
refuges. And we cooperate with the Service completely.
    But when you do this kind of thing, in terms of public 
trust, then it affects all the other agencies that are trying 
to protect open space, because the public wants to know: Why 
are you doing this? What are going to do? Are you going to keep 
me out of here?
    Mr. Underwood. Is there any law in the State of New Jersey 
about the intrinsic value of wilderness--
    Mr. McDowell. Not that I know of.
    Mr. Underwood. --that would be comparable to--
    Mr. McDowell. We do have a natural area system and certain 
management activities, especially, are regulated there in these 
natural areas.
    And so, we understand the concept. But we don't have a 
Wilderness Act in the State of New Jersey.
    There is one other wilderness area in a refuge in the Great 
Swamp, I believe. It is not very large. And we supported that.
    Mr. Underwood. Just one last question.
    Mr. Savadove, I know you spoke to the issue of the 
intrinsic value of an area of wilderness which is unaffected by 
human behavior or the intrusion of man.
    In your experience, in terms of your own journalistic 
background, are there a number people who express the same 
things? Is this a counterbalancing theme to fishermen who want 
to have access to this area?
    Mr. Savadove. I think I do represent--
    Mr. Underwood. Or is it just, you know, a handful of poets?
    [Laughter.]
    I want to know. I don't want to give the Chairman a free 
ride here.
    [Laughter.]
    Mr. Savadove. Well, I am the only one who came down, but I 
can assure you, I represent, I suppose, a great number of 
people.
    I was going to ask if I could address Mr. Saxton's comment 
about his constituency and the 7,000 families and 
neighborhoods. There is, of course, another constituency, which 
is perhaps certainly the silent one on matters like this, who 
support more purchases of wild areas and we have noticed--and 
have voted, actually, with their pocketbooks, by voting for 
money to be put aside from their taxes in order to buy more 
areas.
    And they, I assure you, are for keeping New Jersey, the 
part of New Jersey that is still keepable, as it was.
    Mr. Underwood. Keep New Jersey wet and wild.
    [Laughter.]
    Okay. Thank you.
    I have a few other questions I would like to enter for the 
record.
    Thank you very much.
    Mr. Saxton. There are two local environmental 
organizations. One is known as Alliance for a Living Ocean. We 
have entered testimony that they support the effort to maintain 
fishing activity on Holgate and my bill. And there is another 
organization called Clean Ocean Action, who has indicated that 
they have no objection and no interest in this proposal.
    So the folks who are the most active in our area, relative 
to these issues, are not opposed and, in at least one case, in 
favor of this legislation.
    Mr. DeLeonard, based on your legal analysis, do you believe 
there is a way for the Administration, the Bush Administration, 
to solve the Holgate problem administratively?
    Mr. DeLeonard. I believe so, if they stick to what they say 
they are going to do. In the past, it appears the promises are 
made only to be broken by the next administration.
    I think, yes, if they just make administrative decision and 
stick by it, that is equitable to everyone involved. We don't 
have to even pass a law, if that was to happen.
    Mr. Saxton. You have an attorney by the name of Bill Horn, 
who is with you today, right?
    Mr. DeLeonard. Yes, that is true.
    Mr. Saxton. And I am sure that you have seen the letter 
that Mr. Horn wrote to the honorable Gale Norton, Secretary of 
Department of Interior.
    Mr. DeLeonard. True.
    Mr. Saxton. I would like to, if you all bear with me for a 
minute, just read--this is a long letter; I won't read the 
whole thing. This is about an eight- or nine-page letter.
    But I would like to reference one page. Mr. Horn writes:
    ``The Wilderness Act provides that there shall be no use of 
motorized vehicles in designated wilderness areas. However, the 
Act expressly provides where state or privately owned land is 
surrounded by wilderness access of such lands will assured.''
    ``In applying this provision, the courts have repeatedly 
upheld not only that the property owners' right of access but 
their right of adequate access''--that is a new term, adequate 
access, as defined by the courts.
    The courts held that, in a certain case, which is 
referenced here, Nelson v. the United States, the courts held 
that ``because the road over which property owners had access 
would not provide adequate access to all portions of their 
land, including the land on which they wanted to develop cabins 
for rental, the U.S. improperly denied a permit to access their 
property by a different road.''
    In a different case, the State of Utah v. Andrus, the court 
held that the ``state must be given access to school grand land 
within the wilderness such that is necessary for the state's 
reasonable enjoyment of the lands.''
    This draft CCP ``mistakenly and repeatedly intones that the 
Wilderness Act requires the closure of Holgate Beach to 
motorized vehicles. Such an interpretation of the Wilderness 
Act completely disregards its clear language exempting state-
owned land within the wilderness area. The statute and judicial 
interpretation thereof mandates that states be permitted not 
just access but reasonable access to their lands.''
    ``The State of New Jersey owns and has jurisdiction over 
the land below the mean high-tide mark, not the Fish and 
Wildlife Service. That land is not governed by the Wilderness 
Act. Additionally, the state land is within or is surrounded by 
the refuge.''
    ``Accordingly, the Department and the Fish and Wildlife 
Service must provide the state and its users with reasonable 
access to its property.''
    I think that is a fairly clear interpretation, as far as I 
can see, of the situation.
    And as a matter of fact, Mr. Ashe, is this your 
understanding, that the courts have ruled, at least in these 
two cases, with regard to the reasonable access language?
    Mr. Ashe. I know, Mr. Chairman, in the first instance, you 
said in areas where state or private land is surrounded by 
wilderness, and I know in the context of in-holdings within 
wilderness, much as the same as when we have an in-holding 
within an nonwilderness refuge, that we have a responsibility 
to provide in-holders with reasonable access.
    Again, I imagine the question in this case is clearly kind 
of what would be reasonable.
    Although, again, our wilderness doesn't surround the 
state--
    Mr. Saxton. At high tide it does.
    Mr. Ashe. Well, there is still water area outside of the 
wilderness area by which people can access the tidelands. 
Access by boat is a reasonable form of access.
    And as we have said, we continue to maintain that people 
can access the tidelands and the wilderness by boat.
    Mr. Saxton. Do you really think a court would rule that 
way? I mean, do you think the court will rule that way? I 
should ask you that way.
    Mr. Ashe. I wouldn't want to predict what a court would do.
    Mr. Saxton. Well, I think it's fairly clear, based on the 
case law that is cited in this letter, that there have been 
good indications that the court would come down on the other 
side from you.
    Let me ask another question on this regulation business. 
The regulation that was passed in 1971 pursuant to the 
Wilderness Act: The director may permit--I read this language 
before; I will just do it quickly--subject to restrictions he 
deems desirable, the landing of aircraft and the use of 
motorized equipment at places within the wilderness.
    Now, this is an official part of the regulations that were 
passed by the Department of Interior, is it not?
    Mr. Ashe. Yes.
    Mr. Saxton. And so the current regime has chosen to 
disregard this provision, saying that, in your opinion, it is 
illegal.
    Has a judge ruled on this? Has this been challenged in 
court? Or has there been any reason for you to draw that 
conclusion based on any court action? Or did you just draw that 
conclusion because it was convenient to meet the goal that you 
seem intent on meeting?
    Mr. Ashe. Neither. To my knowledge, there has been no court 
ruling on this portion of our regulation.
    But, again, Mr. Chairman, when Congress passes a law, it is 
my job to take the law seriously and literally. And when I look 
at the law and the law says that we may allow the use of 
aircraft or motor boats where those uses were preexisting, 
those words are very specific.
    And the Service's regulation is broader than the law 
allows. The Service's regulation says motorized equipment.
    I don't think there is any question--there is no question 
in my mind--that the Service's regulation has overstepped the 
boundary of the law in that case.
    And, again, when I asked our solicitors for advice, they 
gave me unambiguous advice. They instructed me not to take any 
action based upon that regulation, because they think that 
regulation oversteps the authority that we are provided in the 
law.
    Mr. Saxton. Mr. DeLeonard, let me move back to another 
question relative to any impact that you know of that would be 
negative in terms of the environment from fishermen's 
activities, either with or without the use of vehicles in the 
areas. Is there anything that we should know about?
    Mr. DeLeonard. No. Actually, it was alluded to they don't 
want to walk through oil on the beach. I am from the shore, I 
have been there all my life, I have never seen any drop of any 
oil on a beach from a mobile sport-fishing vehicle.
    The occasional tire tracks, which come and go with the 
wind. In fact, it has been proven in a study in Fire Island 
that tire tracking on the beach is actually beneficial to the 
beach in that it breaks up the salt berm that builds up on the 
beach and allows for wind action to cause natural dune 
formation.
    Mr. Saxton. As a matter of fact, that was part of the 
testimony early in this process, wasn't it? Not today, but 
previously.
    Ms. Cobb from the--
    Mr. DeLeonard. Yes, that was in the 1973 testimony.
    Mr. Saxton. From the Sierra Club.
    Mr. DeLeonard. That is that analysis in there.
    Mr Saxton. Recent reports, she says here, actually show 
that tracking of heavy vehicles, such as beach buggies, can be 
beneficial during the winter months. They break up the heavy 
salt crusts that seem to form during the winter, and this 
permits the sand to blow freely once more and to form dunes.
    Mr. DeLeonard. So, actually, it has been proven that there 
is a benefit to tracking on the beach. And like I say, I have 
been there all my life, and I have yet to see a drop of oil on 
the beach.
    As far as trash is concerned, the fishermen that fish in 
beach buggies pick up trash on the beach. They don't leave 
trash. They see it, they grab it. You know, trash bags are 
required equipment, and we keep the beach clean.
    We are pretty good at policing ourselves. We were 
conservationists before the practice became fashionable. We 
fish and we give the fish back. We give back to that beach more 
than we take.
    Like I say, we are the number one in volunteer hours in the 
State of New Jersey, New Jersey Beach Buggy Association. And 
not all people that access the beach in a vehicle are New 
Jersey Beach Buggy Association, but that is their choice. I 
mean, membership is not a requirement.
    Mr. Saxton. Mr. Savadove, you mentioned in your testimony 
that there would be--I don't want to put words in your mouth or 
words in your testimony--but that there was some kind of 
environmental degradation as a result of the use of motorized 
vehicles. Can you be more specific and tell us what you refer 
to, in specific terms?
    Mr. Savadove. It is not the specific harming the birds or 
leaving tire tracks, although that is part of it.
    It is more of what Mr. Ashe referred to as the idea of just 
having a place where you can go that is--I think his word is 
wonderful--untrammeled by us, by man. There are plenty of 
instances--I walk that area a lot, and I breathe the fumes. So 
I have seen--
    Mr. Saxton. Mr. Kelly, I know you know the area very well. 
Have you ever seen examples of environmental degradation that 
would be worrisome?
    Mr. Kelly. No, I really haven't, Congressman. And to hear 
that we ought to let nobody go there, so that when you go 
there, it is nice, doesn't make sense to me.
    What we want to do is continue to have this area managed. 
And when you want to talk about environmental degradation, to 
me that means building on every square foot. And look at the 
rest of Long Beach Island.
    Earlier in your statement, you talked about, does the 
Forsythe refuge impact most of the residents of Ocean County or 
all of the residents of Ocean County? And I submit that it 
impacts every person who lives in Ocean County. It impacts them 
in different ways, but one way is economically.
    Long Beach Island is among the highest price real estate in 
Ocean County. In fact, pays a good percentage of the county tax 
bill. This part of the island is paying no taxes. We support 
that. We want that.
    Ocean County, in fact, passed a question by two out of 
three voters to provide more open space. It get backs to: What 
is open space?
    This is truly open space. I have a color photo of the rest 
of Long Beach Island. Look at every lot that is built. When you 
buy property on Long Beach Island now, you pay $.5 million and 
tear the house down to build a new house because there is no 
more property.
    This portion of Long Beach Island is protected and ought to 
be. The Board of Chosen Freeholders and the people of Ocean 
County support it in that way. It ought to managed.
    But it ought to be managed consistently, like it has since 
1973. In 1973, this area became part of the Forsythe refuge, 
part of the wilderness refuge. Since 1973, there has been no 
environmental degradation. There has been no testimony today 
from anyone that it has been seen.
    In fact, we heard from the sportsman who said what I said 
earlier: They are environmentalists. They are protecting the 
area.
    We are simply allowing access to people who are paying the 
bill to preserve that future generations, and allowing them the 
right to fish there.
    That doesn't seem to be a very horrible request.
    Mr. Saxton. Thank you.
    Mr. McDowell, there is another area known as Island Beach 
State Park, which is under the auspices of the state and beach 
buggies are permitted there. Is that right? And if that is 
right, has there been any environmental problem that you can 
point to on Island Beach State Park?
    Mr. McDowell. No, because, first of all, everybody gets a 
permit to go on there, and the Beach Buggy Association has been 
very supportive of Island Beach State Park, so I know of no 
environmental impacts due to beach buggy use at Island Beach 
State Park.
    It is interesting that in October, the first weekend in 
October, we have the governor's surf fishing tournament there, 
and there are beach buggies and families and all kinds of 
things going on on the beach. And a couple days later, you go 
back, you can't even tell they were there.
    Mr. Saxton. If I were to say that activities involving 
fishing, fishermen, and beach buggies, in an environmental 
sense, are fairly benign--
    Mr. McDowell. Yes. And more than benign. They are the first 
people that blow the whistle on a problem out there in the 
ocean or the beach or the barrier dunes. They are the sentinels 
of environmental quality when it comes to the ocean and the bay 
shore, in my experience. And I receive lots of the phone calls.
    Mr. Saxton. Mr. Ashe, just for the record, if the current 
regulations are contrary to law, why hasn't the agency taken 
steps to repromulgate the regulations?
    Mr. Ashe. Mr. Chairman, we are in the process of looking at 
our wilderness policy and evaluating our wilderness policy. And 
I think it will be our intent to consider repromulgating that 
portion of the regulation. Again, that has been the advice of 
our solicitor, to repromulgate that portion of the regulation.
    Mr. Saxton. Let me ask you to revisit something with me for 
just a moment, and then we will finish up here, because I think 
we have just about been over the territory as thoroughly as we 
can. But I just want to--Mr. Savadove said that the argument, 
in his opinion, that somehow this would set a precedent that 
would be followed elsewhere is probably not a worry, but that 
it has a great local impact. And he made reference to a 
negative local impact in terms of the environment, I believe, 
to be fair to his statement.
    But it does have a rather significant local impact because 
of the uniqueness of this situation, where this activity has 
been going on for almost 30 years, while the wilderness area 
designation was in place.
    So the passage of my bill, which you said earlier you 
opposed, which I wish you would review, seems to me to have a 
local impact, creating a fairness, creating a consistency in 
policy, creating a 30-foot setback of the border of the 
wilderness area, setback to the west. That doesn't seem like 
something that should be troublesome, to me, if, in fact, Mr. 
Savadove is right and it doesn't have great national meaning, 
in terms of setting a precedent or something like that, because 
of the uniqueness of this situation.
    And I wonder if perhaps you could revisit this with the new 
administration and see if perhaps a new thought process might 
evolve here relative to supporting this bill or one like it.
    I originally thought it might be a good idea to have 
something that one of our staffers called a transition area, 
where it would still be part of the wilderness area, but it 
would be transitional in that motorized vehicles could back up 
on it, as spelled out in the 1990 agreement.
    And then somebody said, ``Well, maybe that is a bad idea 
because transition zones are something new. So why don't you 
just move the border 30 feet to the west.'' And I said, well, 
it makes sense to me. It accomplishes the same thing.
    Would you be willing to revisit this with the new 
administration and see if there might be some new thought 
processes here that might permit the Administration to support 
the bill?
    Mr. Ashe. I am always willing to explore it, Mr. Chairman, 
but, I mean, the position that is developed and represented 
here today is the position of the new administration. I mean, 
we have, you know, discussed this issue at length, as I know 
you have with Secretary Norton--
    Mr. Saxton. Oh, but, not at the highest levels.
    Mr. Ashe. Higher than Secretary Norton?
    Mr. Saxton. Sure.
    Mr. Ashe. I think that we certainly can continue to discuss 
it, Mr. Chairman.
    I guess on the point of precedent, I think that a number of 
the statements that have been made, again, about environmental 
impact and about whether the context of western wilderness is 
rightfully applied in the eastern United States, I think that 
wilderness is wilderness. And the law doesn't differentiate 
between western wilderness or eastern wilderness.
    And so, again, it is our responsibility, when Congress says 
that there are important values to protect, wilderness values 
to protect, to protect those values and take that seriously, 
until and unless Congress removes that protection.
    Mr. Saxton. Unfortunately, the buzzers are ringing again. 
And I am not going to put you all through the process of 
waiting for us to come back.
    I think we have been over this pretty well today.
    I guess I would just conclude by saying I am convinced, as 
I have been over the last couple of years, over the last 10 
years in dealing with this issue, that the real issue of 
fairness is to permit this historic use to continue; that it 
does no environmental damage whatsoever; that there are 500 or 
700 families, depending on the given year, that would be 
disadvantaged, in their opinion, quite severely and 
unnecessarily by the provisions of the CCP.
    And I further believe, particularly in the last several 
days in looking at the legal aspects and opinions relative to 
this case, that ultimately the fishermen are going to win.
    It seems to me it would be to everybody's benefit to let 
that process happen as expeditiously and as easily as possible, 
rather than dragging this out through the courts and all of the 
things that are involved in that.
    So I am hopeful that we will be able to move this 
legislation expeditiously. And I am hopeful that we will be 
able to do it with the help and support of the new 
administration.
    Thank you all for coming here today.
    Dan, I look forward to working with you as we move forward 
on this and other issues.
    And I thank my friends from New Jersey for traveling here 
to Washington today to share their points of view with us.
    Thank you, and we will adjourn for the day. Thank you.
    [Whereupon, at 12:40 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
